<html>
<title> - CHALLENGES CONFRONTING OLDER CHILDREN LEAVING FOSTER CARE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
       CHALLENGES CONFRONTING OLDER CHILDREN LEAVING FOSTER CARE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 1999

                               __________

                             Serial 106-26

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
61-777 CC                   WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 2, 1999, announcing the hearing................     2

                               WITNESSES

U.S. Department of Health and Human Services, Carol W. Williams, 
  Associate Commissioner, Children's Bureau, Administration for 
  Children and Families..........................................     6

                                 ______

American Public Human Services Association, William Young........    68
Child Welfare League of America, Robin Nixon.....................    31
Connecticut Department of Children and Families, William Pinto...    63
Connecticut Youth Advisory Board, and Norwalk Community College, 
  Reggie Rollins.................................................    19
Los Angeles Department of Children and Family Services, Sharyn L. 
  Logan..........................................................    40
New Pathways, Inc., and Baltimore Studio of Hair Design, Shauntee 
  Miller.........................................................    23
Orange County/California Works, Donald I. MacAllister............    46
Orphan Foundation of America, and Texas A&M University, Elaine 
  Kay Nelson.....................................................    16
United Parcel Service, Kevin M. Garvey...........................    57
Vermont Department of Social and Rehabilitation Services, William 
  Young..........................................................    68

                       SUBMISSIONS FOR THE RECORD

Courtney, Mark E., University of Wisconsin-Madison, statement....    79
Covenant House, Sister Mary Rose McGeady, statement..............    80
National Association of Former Foster Care Children of America, 
  Louis H. Henderson, statement..................................    84
National Network for Youth, statement............................    85
New Pathways, Inc., Baltimore, MD, Kevin M. Keegan, letter.......    88
Orphan Foundation of America, Vienna, VA, Eileen McCaffrey, 
  statement......................................................    88


       CHALLENGES CONFRONTING OLDER CHILDREN LEAVING FOSTER CARE

                              ----------                              


                         TUESDAY, MARCH 9, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The  Subcommittee  met,  pursuant  to  notice,  at  2  
p.m.,  in  room B-318, Rayburn House Office Building, Hon. 
Nancy L. Johnson (Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

March 2, 1999

No. HR-2

                      Johnson Announces Hearing on

                 Challenges Confronting Older Children

                          Leaving Foster Care

     Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the challenges faced by 
older children who leave the foster care system. The hearing will take 
place on Tuesday, March 9, 1999, in room B-318 Rayburn House Office 
Building, beginning at 2:00 p.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include the Administration, former foster children, 
academic researchers, advocates, and representatives of State and 
nonprofit organizations providing youth services. However, any 
individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Under Title IV-E of the Social Security Act, children in foster 
care are generally eligible for Federal maintenance payments only until 
age 18. Accordingly, each year an estimated 20,000 adolescents age out 
of foster care. These youths experience very unstable placements while 
in foster care with more than half experiencing at least three 
different placements and about 30 percent averaging nine years in 
foster care without a permanent living arrangement. As a result, within 
two years after leaving foster care, when most of these youths are 
about 20 years old, only half have completed high school, fewer than 
half are employed, only about 20 percent are completely self-
supporting, and 60 percent of the young women have given birth, almost 
always outside marriage. Research also shows that these youths have 
very unstable housing arrangements and that nearly half of them have 
difficulty obtaining medical care. Members of the Subcommittee have 
introduced legislation, and the President has included a proposal in 
his fiscal year 2000 budget, designed to help these youths make the 
transition from foster care to self-sufficiency.
      
    In announcing the hearing, Chairman Johnson stated: ``I cannot 
imagine a more important issue of public policy than helping 
adolescents who have lived in foster care make the transition to 
adulthood. Research shows unequivocally that these youths experience 
tremendous difficulty with housing, jobs, education, nonmarital births, 
and physical and mental health. We simply must do more to help these 
young people.''
      

FOCUS OF THE HEARING:

      
    The major goals of the hearing are to gather additional information 
to clearly define the problems faced by adolescents aging out of foster 
care, to learn about successful programs that are now in operation 
around the country, and to solicit specific policy recommendations from 
a broad cross-section of experts, practitioners, and young adults who 
lived in foster care as adolescents.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Tuesday, March 
23, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. The hearing will come to 
order. Good afternoon, everyone.
    One of my highest priorities as I assume Chairmanship of 
the Human Resources Subcommittee, is to do more to help the 
20,000 or so kids who are aging out of foster care. Like many 
Members of this Subcommittee and particularly my Ranking Member 
and friend, Mr. Cardin, I have spent a lot of time thinking 
about the young people in the Independent Living Program. And 
I'm convinced that the world they enter now is far more complex 
than the world they entered 10 years ago and that the program 
ought to reflect that change.
    There are two good reasons for our Subcommittee to work on 
the issues of children aging out of foster care. First, 
research conducted a decade ago by Mathematica, ongoing 
research by Professor Mark Courtney of the University of 
Wisconsin, and other studies show that within a few years of 
leaving foster care, young people have elevated rates of being 
the victims of violence, the victims of homelessness, of 
joblessness, of pregnancy outside of marriage, and of other 
distressing outcomes.
    There appears to be unanimous agreement that this group of 
young people are at greatly increased risk of serious problems. 
This reason alone justifies concern and additional spending. 
But the pockets of success generated by the Independent Living 
Program deserve our immediate attention and our careful thought 
as to how we can spread the benefits of that approach.
    There is a second reason for our concern. There isn't any 
one of us who hasn't either been both an adolescent and either 
parented or aunted or uncled adolescents and don't remember 
what a challenging and difficult time the years 18 to 21 are.
    It is precisely this situation that most young people face. 
It is the most demanding and should, therefore, be a subject of 
concern to Congress and a good investment of public dollars.
    We are looking for good ideas. Many have been presented. 
Some by Members of this Subcommittee, many by others. Certainly 
extending Medicaid coverage to age 21, allowing foster care 
maintenance payments to continue until age 21, providing money 
so States could pay a time-limited stipend to these young 
people. Those are amongst the ideas that have been put forward 
and are rational, and compelling.
    But I urge our witnesses today to provide us with their 
ideas of what action Congress should take. And also the 
qualifications and the ramifications of how free should any new 
money be, how flexible. What is it? How does meeting the needs 
of these young people vary from State to State and town to town 
and district to district?
    We are, of course, required to finance every program 
expansion we approve, and so at some time we will have to think 
through where do we get the resources to match the challenge in 
this area. But our purpose today is to get your thoughts on 
what is that challenge and how do we best meet it.
    [The opening statement follows:]

Opening Statement of Hon. Nancy Johnson, a Representative in Congress 
from the State of Connecticut

    One of my highest priorities when I assumed chairmanship of 
the Human Resources Subcommittee was to do more to help the 
20,000 or so children aging out of foster care. Like many 
members of this Subcommittee, I have spent time over the past 
two or three months reading about this problem, considering the 
Independent Living program, and trying to think of actions we 
could take to help these children make the transition from 
adolescence into adulthood.
    There are two good reasons for our Subcommittee to work on 
the issue of children aging out of foster care. First, research 
conducted a decade ago by Mathematica, ongoing research by 
Professor Mark Courtney, one of our witnesses today, and 
several other studies show that within a few years of leaving 
foster care, young people have elevated rates of being the 
victims of violence, of having been homeless, of joblessness, 
of pregnancy outside marriage, and of several other distressing 
outcomes. There appears to be unanimous agreement that this 
group of young people are at greatly increased risk for serious 
problems. This reason alone justifies public concern and 
additional spending.
    But there is a second reason for our concern. All of us 
have been adolescents and most of us on this Subcommittee have 
been parents. If we think back to our own adolescence, or to 
that of our children, we can easily imagine how difficult life 
would have been if we had tried to negotiate the impossible 
years between 18 and 21 with little or no family support. Yet 
that is precisely the situation that most of these young people 
face. Again, I believe most members of Congress understand that 
helping these children is a good investment of public dollars.
    So the Subcommittee is looking for good ideas. We have 
several good ideas in both Mr. Cardin's bill and in the 
proposal supported by the Clinton Administration. These ideas 
include putting more money in the Independent Living program, 
extending Medicaid coverage to age 21, allowing foster care 
maintenance payments to continue until age 21, and providing 
money so that states could pay a time-limited stipend to these 
adolescents. I urge our witnesses to provide us with their own 
ideas of what action Congress should take.
    After this hearing, and a breakfast meeting among members 
that we are now planning, we will develop a bipartisan bill 
that Mr. Cardin and I will introduce. We will then solicit 
comments on that bill and hold a hearing to get reactions from 
a broad range of interested parties. It is my intention to then 
proceed to markup the bill at both Subcommittee and at the full 
Committee. My greatest concern is that under Committee rules, 
we are required to finance every program expansion that we 
approve. Thus, I hope we will all be able to match our desires 
to help this group of young people with our specific ideas 
about how to pay for our desires.
    This is very important work and I am confident that within 
the next several months we will bring an excellent bill to the 
House Floor.
      

                                <F-dash>


    Ben, would you like to make an opening comment?
    Mr. Cardin. Thank you, Madam Chairman. I thank you very 
much for your leadership on this issue. I think it is 
noteworthy that the high priority Mrs. Johnson has placed on 
this issue is the fact that we have a hearing today, so early 
in this Congressional schedule, on children aging out of foster 
care.
    So I applaud your leadership and thank you very much for 
this opportunity.
    I think we should also note that it is snowing outside for 
those who may not know that. So we ask the indulgence of our 
guests here today that Members of our Subcommittee may be a 
little late or have trouble getting here because of the 
weather. We thank all of you for being here, and we certainly 
look forward to you, our witnesses.
    I want to just underscore the point that Mrs. Johnson made, 
and that is recent studies have conclusively shown that 
children leaving foster care face many barriers to self-
sufficiency, including lack of housing, poor employment 
opportunity, and inadequate opportunities for educational 
achievement, and, in many cases, the absence of health care 
coverage.
    These aging foster care children have had a much more 
difficult time than children coming from other households. In 
many cases, the children have been abused, they have been 
neglected, they have been abandoned, they have been in one, 
two, three, four, five foster homes. Yet we expect them, when 
they reach 18 years of age, to be self-sufficient.
    That's not realistic for any child, let alone one who has 
been in foster care. Along with my Democratic colleagues on the 
Subcommittee, I have introduced the transition to adulthood 
program path to provide States with the option of extending 
Federal foster care assistance to youths between the ages of 18 
and 21 if they are working, in training, or in school, and if 
they have a specific plan for self-sufficiency.
    As is the case under the current foster care systems, 
States would be required to provide and match to receive 
extended funding under this legislation. It would also allow 
these youths to retain their Medicaid coverage. It expands the 
work opportunity tax credit to include all individuals who were 
in foster care the day before their 18th birthday.
    It increases the amount of assets that children in foster 
care can save without impacting their eligibility for Federal 
IV-E maintenance payments. And, finally, the TAP proposal would 
update the funding formula for the current Independent Living 
Program to reflect the States' share of the national foster 
care caseload in 1996 rather than in 1984.
    Madam Chair, we hope that this legislation, along with 
suggestions that have been made by the administration and other 
Members, will be the basis for us to work in a bipartisan way 
to provide ways in which we can provide for children aging out 
of foster care.
    I might point with pride that on our hearing schedule 
today, we have Shauntee Miller, who is a student in Baltimore 
under the new Pathway Independent Plus Program. That's an 
example of the State, my own State of Maryland, that had 
provided help for children aging out of foster care.
    I might add at 100 percent State support without the 
Federal Government as a partner. I think you will find that 
these types of programs have been extremely beneficial, and we 
need to expand those opportunities.
    It is also a pleasure to have Carol Williams here, the 
Assistant Commissioner of the U.S. Department of Health and 
Human Services, who again has brought forward suggestions to 
improve our foster care programs.
    Madam Chair, I along with you look forward to our witnesses 
and working with us come up with the appropriate Federal role 
for children who are aging out of foster care.
    Chairman Johnson of Connecticut. Thank you, Mr. Cardin. I 
want to recognize Mr. English and Mr. McInnis, Members of the 
Subcommittee, pleased to have you here on time, and invite our 
first witness, Carol Williams, the Associate Commissioner, 
Children's Bureau, Administration for Children and Families of 
HHS to come to the witness table.
    Thank you for being with us and you may proceed. Your full 
testimony will be submitted for the record.

    STATEMENT OF CAROL W. WILLIAMS, ASSOCIATE COMMISSIONER, 
 CHILDREN'S BUREAU, ADMINISTRATION FOR CHILDREN AND FAMILIES, 
          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Williams. Good afternoon. I'm pleased to be before you 
today to discuss how we can better help this special group of 
foster children, older children making the transition from 
foster care to adulthood. To address the needs of these 
children, the President's budget for fiscal year 2000 proposes 
to expand the Independent Living Program, to authorize a 
demonstration program for transitional support for former 
foster children between the ages of 18 and 21, to increase the 
funding for the transitional-living program, and to encourage 
continued access to health care for young adults emancipated 
from foster care.
    Many of the themes both of you addressed in your opening 
comments are very much reflected in this. We are pleased that 
the Members of this Subcommittee have also expressed an 
interest in increasing support for youngsters leaving the 
foster care system. And I hope that on this issue, like other 
issues we have explored together in the past, we will be 
successful in enacting bipartisan legislation.
    Each year, 20,000 youngsters reach 18 and exit foster care 
without financial or emotional support of a family. As any of 
us who have raised children can attest, it is rare that a young 
person at age 18 is fully ready to be autonomous and self-
sufficient, yet we hold this expectation for the young adults 
aging out of the foster care system.
    I am reminded of a conversation I had with a young woman 
who had grown up in foster care, gone to college, and wondered 
in her first semester: Do I have some place to go back to on 
the holidays? Where will I be during spring break and the 
summers? Or was she really in a world all her own?
    And she was then nearly 40 years of age but had acute and 
compelling recollection of her feeling of being in limbo. For 
many youths emancipated from foster care, the consequences of 
being left to fend for themselves at age 18 are quite grave. 
Studies show, as you have indicated, that only half of the 
youths who exit care have completed high school. Fewer than 
half are employed in the 2 years immediately after exiting 
care. Some experience homelessness. Sixty percent of our young 
women are pregnant prematurely, and only a small proportion are 
economically self-sufficient. Furthermore, many of these 
youngsters experience depression, isolation, and loneliness.
    Last fall, I had the opportunity to spend time with a group 
of former foster care youths, and they talked with us about 
what they need to achieve self-sufficiency. They talked about 
the importance of having access to medical care, including 
mental-health services.
    They talked about the critical need for education, 
continuing education and vocational training. They talked about 
the importance of having experiences that would prepare them 
for the world of work, including internships. And they talked 
about the dilemmas of housing and the need to have stable 
housing. They also spoke of needing to stay connected to the 
networks of support, including mentors and peers, that would 
help them through this period.
    I believe that the administration's year 2000 budget takes 
an important step in addressing the needs well articulated by 
these youngsters.
    The first component of our proposal is to increase the 
funding through the Independent Living Program by 50 percent. 
This program offers services to children in foster care 16 
years of age or older, and it is designed to help young people 
make the transition to adulthood by helping them complete their 
high school education or complete a GED or engage in vocational 
training; providing skills in the activities of daily living--
budgeting, locating housing, finding a job--providing 
counseling, and coordinating other services.
    Since 1992, the Independent Living Program has been funded 
at $70 million annually. And those funds are allocated among 
the States according to a formula based on the 1984 population. 
We propose to increase that funding. That increase will allow 
us to expand the number of youngsters being served. It will 
allow us to increase the quality of service, and address the 
needs of underserved jurisdictions.
    Our second proposal is to create a transitional support 
program for older youths. This addresses the need of youngsters 
to have some kind of base of economic support during those 
transitional years. Currently, these youngsters have no 
economic support. We propose to create a time-limited 
demonstration program for youngsters aging out of the system. 
The program would be funded at $5 million in the year 2000 and 
grow by increments of $5 million through the year 2003.
    We want to provide health insurance for children leaving 
foster care. When children leave foster care, when their title 
IV-E eligibility ends, they also lose their Medicaid coverage. 
We propose to extend Medicaid coverage for this population 
through age 21.
    In addition, we propose to increase discretionary funding 
for the Transitional Living Program, which is a program that 
serves homeless youngsters ages 16 to 21. We propose to 
increase it by $5 million, from $15 million to $20 million in 
fiscal year 2000.
    The President's budget outlines a sound set of policy 
initiatives to help youth leaving foster care to make the 
transition to healthy, productive lives as adults.
    We recognize that there are other ideas that the Congress 
will also be considering. In particular, we would like to 
acknowledge Congressman Cardin for the leadership he has shown 
on this issue by introducing the transition-to-adulthood 
program of 1999. We are interested in working with all the 
Members of this Subcommittee to explore options to meet our 
common goals of assuring self-sufficiency for youngsters 
exiting foster care.
    What we want for these youngsters is what we want for our 
own children, that they should be educated and well-prepared 
for the world of work, physically and emotionally healthy, 
economically secure, and supported through a network of caring 
relationships.
    Thank you for the opportunity to appear before the 
Subcommittee. I'm pleased to take any questions you might have.
    [The prepared statement follows:]

Statement of Carol W. Williams, Associate Commissioner, Children's 
Bureau, Administration for Children and Families, U.S. Department of 
Health and Human Services

    Madam Chairman and Members of the Subcommittee,
    I am pleased to appear before you today to discuss how we 
can better meet the needs of a special group of foster children 
who have little visibility--older youth making the transition 
from foster care to adulthood. The President's budget for 
fiscal year 2000 outlines a series of proposals to address the 
needs of these youth. The budget proposes to expand the 
Independent Living Program; authorize a demonstration program 
of transitional support for former foster children between the 
ages of 18 and 21 (both of which proposals are within the 
jurisdiction of this Subcommittee); increase funding for the 
Transitional Living Program; and encourage continued access to 
health care for young adults emancipated from foster care. We 
are very pleased that the members of this Subcommittee have 
also expressed interest in increasing support for youth leaving 
the foster care system. I hope that on this issue, like others 
we have explored together in the past several years, we will be 
successful in enacting bipartisan legislation.
    We are proud that the Administration has been able to work 
in a bipartisan fashion with the Congress over the past several 
years to pass critical adoption, foster care and child welfare 
reform legislation. Together, we have enacted and are now 
implementing laws that make the health and safety of children 
our first consideration and that encourage timely decision-
making on behalf of all children in foster care. We are also 
working to tear down barriers to adoption, whether based on 
racial discrimination, geographic boundaries or simply outmoded 
assumptions about which children are ``adoptable.''
    While we have accomplished a great deal, we have unfinished 
work remaining. We are making strides in increasing the number 
of children adopted from foster care. But we know that not all 
children needing permanent families will be adopted. Each year, 
nearly 20,000 young people in foster care reach the age of 18 
and must enter adulthood without the financial or emotional 
support of a family. As any of us who have raised teenagers can 
attest, it is a rare young person who is ready on his or her 
18th birthday to be fully autonomous and economically self-
sufficient. We do not expect this of our own children. And yet, 
this is the burden we currently place on young adults aging out 
of the foster care system. I am reminded of the story a 
participant at one of our Kinship Care Advisory Group meetings 
told. This young woman spoke about how she had been raised as a 
foster child. When she turned 18, she went off to college. But 
she wondered did she have a family? Did she have a place to go 
home to on spring break? Or was she all on her own in the 
world?
    For many youth emancipated from the foster care system, the 
consequences of being left to fend for themselves at the age of 
18 are far more grave. Studies show that within two to four 
years of leaving foster care:
    <bullet> Only half of these young adults had completed high 
school;
    <bullet> Fewer than half were employed;
    <bullet> One-fourth had been homeless for at least one 
night;
    <bullet> Thirty (30) percent had not had access to needed 
health care;
    <bullet> Sixty (60) percent of the young women had given 
birth;
    <bullet> And, not surprisingly, less than one-fifth of 
these young people was completely self-sufficient.
    Furthermore, many of these youngsters experience 
depression, isolation and loneliness.
    Last Fall, along with the First Lady and others, I had an 
opportunity to hear from a group of former foster care youth. 
Among the things that these young people told us they needed in 
order to achieve self-sufficiency, stable living arrangements 
and mature relationships were:
    <bullet> Medical services, including mental health;
    <bullet> Education and/or vocational training;
    <bullet> Employment preparation and opportunities, 
including internships;
    <bullet> Transitional and/or supported housing; and
    <bullet> Psycho-social support via mentoring, counseling 
and/or support groups.
    The proposals in the Administration's FY 2000 budget take 
an important next step in meeting the needs of young people who 
will be emancipated from the foster care system. I would now 
like to give a brief overview of our proposals.
    Increase Funding for the Independent Living Program by 50 
percent: The Independent Living Program, authorized by Section 
477 of title IV-E of the Social Security Act, offers services 
to children in foster care who are age 16 or older. At State 
option, the program may serve both children who are eligible to 
receive Federal title IV-E foster care maintenance payments and 
youth in foster care supported through State dollars. States 
may also opt to serve children beyond the age of 18, up until 
the age of 21. All States and the District of Columbia have 
elected to exercise both of these options. The program is 
designed to help young people make the transition from foster 
care to self-sufficiency by:
    <bullet> Helping participants to obtain a high school 
diploma, a GED or to participate in vocational training;
    <bullet> Providing training in daily living skills, such as 
budgeting, locating housing, finding a job or planning a 
career;
    <bullet> Providing individual or group counseling;
    <bullet> Coordinating other social services available to 
the youth.
    Since 1992, the Independent Living Program has been funded 
at $70 million annually. Of this amount, $25 million is 
required to be matched by the States. Funds are currently 
allotted among the States based on a formula tied to the number 
of children in the State who were receiving title IV-E foster 
care maintenance payments in 1984.
    We propose to increase funding for the Independent Living 
Program by 50 percent to a total of $105 million annually. Of 
this amount, $45 million would need to be matched by the 
States. The formula for distributing funds would also be 
updated, so that funds would be allocated to the States on the 
basis of their number of children receiving title IV-E foster 
care maintenance payments in the most recent year for which 
data are available to the Secretary. There would also be a hold 
harmless provision, assuring that all States would receive at 
least as much as they did under the old formula.
    While funding for the Independent Living Program has 
remained constant since 1992, the number of foster children 
ages 16 and older has grown from approximately 62,000 in 1992 
to over 77,000 in 1998, and we expect this number to continue 
to grow for at least the next few years. We believe that the 
substantial increase in funding we are requesting for the 
program is needed to enable the States to serve this growing 
population of youth and to increase both the quantity and 
quality of services that are provided. This is a crucial 
investment that we owe to youth in foster care to help them 
become productive members of society as they enter young 
adulthood.
    Research tells us that the Independent Living Program's 
services can and do make a difference in the lives of young 
people. A 1990 study found that providing more comprehensive 
services, including teaching a combination of skills--money 
management, consumer and credit management, education and 
employment skills--helped youth to achieve better outcomes. 
Improvements in outcomes were seen in increased high school 
graduation rates, greater ability to maintain a job for at 
least a year, accessing appropriate health services, avoiding 
young parenthood and decreased dependence on public assistance 
programs.
    It is important to highlight not only the importance of the 
direct services provided by State Independent Living Programs, 
but the creative linkages that these programs forge with other 
organizations in the public and private sectors in order to 
provide expanded opportunities for youth aging out of foster 
care.
    <bullet> In Virginia, the Independent Living Program 
secures internships with private businesses, community 
organizations, hospitals, universities and others in order to 
provide participants with opportunities to develop skills, gain 
work experience and earn a stipend.
    <bullet> In Texas, the State Independent Living Program has 
initiated a cooperative arrangement with State colleges to 
provide free college tuition to youth aging out of foster care.
    These examples of collaboration and initiative translate 
into life-changing experiences for youth in foster care.
    <bullet> Brenda was a child who first came into Texas' 
foster care system when she was 3 years old. She was later 
returned to family, but re-entered care when she was 13. She 
was enrolled in the Independent Living Program and through this 
experience had the opportunity to serve on the Statewide Youth 
Advisory Committee, which works to make life better for 
children and youth in foster care. After emancipation from 
foster care, she began college, with the help of the State's 
tuition benefit program for children aging out of foster care. 
She graduated from college in 1996 with a bachelor's degree in 
social work and subsequently worked for the State child 
protective services agency. She now works as a case manager 
with a private child-placing agency. In her professional and 
personal commitments, she has worked to improve the lives of 
children in foster care. Her goal is to enter law school and to 
advocate for the rights of children and youth.
    Create a Transitional Support Program for Older Youth: 
While the Independent Living Program provides needed services 
to help youth and young adults gain skills and education that 
will help them to become independent, the program does not 
allow payments for room and board. Furthermore, foster care 
maintenance payments generally cease once youth reach their 
18th birthday. Therefore, young people leaving foster care no 
longer have any source of economic support for basic living 
expenses.
    We propose to create a time-limited demonstration program 
of competitive grants to States that would provide economic 
support to young people between the ages of 18 and 21 who were, 
until aging out of the system, receiving title IV-E foster 
care; who are enrolled in an Independent Living Program; and 
who have an independent living plan that includes participation 
in an educational or job training program. The program would be 
funded at $5 million the first year in FY 2000, rising to $10 
million in FY 2001, $15 million in FY 2002, and $20 million FY 
2003. The program would be evaluated to determine its effect in 
helping young people to achieve positive outcomes.
    This initiative would offer young people a better chance to 
gain independence by assuring them of both economic and social 
support while they pursue educational or job training 
activities. A recent survey of transitional living programs, 
which provide similar types of services and supports to 
homeless youth, found that 74 percent of youth were discharged 
to stable housing and, six months after completing 
participation in the program, 78 percent remained free of all 
direct government aid.
    In addition to the President's proposals for the 
Independent Living Program and the new Transitional Support 
Program for Older Youth, there are several other proposals in 
the budget that I would like to take a moment to highlight. 
While they do not fall within the jurisdiction of this 
Subcommittee, they are substantively related to assuring 
positive outcomes for youth leaving foster care.
    Provide Health Insurance for Youth Leaving Foster Care: 
When foster care youth lose their eligibility for title IV-E 
foster care maintenance payments at age 18, they also lose 
their heath insurance provided by Medicaid. The President's 
budget includes a proposal to allow the States to extend 
Medicaid coverage for these youth until their 21st birthday.
    Increase Funding for the Transitional Living Program: The 
President's budget proposes to increase discretionary funding 
for the Transitional Living Program by 33 percent, from $15 
million in FY 1999 to $20 million in FY 2000. The Transitional 
Living Program, authorized by the Runaway and Homeless Youth 
Act, provides grants to local community-based organizations to 
provide residential care, life skills training, vocational 
training, and other support services to homeless youth ages 16 
-21. While the Independent Living Program serves youth who are 
in the custody of State child welfare systems, the Transitional 
Living Program serves youth who are homeless, and not in the 
custody of any other service system. Sadly, this group of 
homeless youth includes many young people who suffered abuse or 
neglect at home, a small proportion of whom were previously in 
foster care.
    The President's budget outlines a sound set of policy 
initiatives to improve supports to youth leaving foster care, 
in order to help them on the road to healthy, productive lives 
as adults. We recognize that there are other ideas that 
Congress will also be considering. In particular, we would like 
to acknowledge Congressman Cardin for the leadership he has 
shown on this issue by introducing H.R. 671, the ``Transition 
to Adulthood Program Act of 1999.'' We are very interested in 
working with the members of this Subcommittee to explore all 
options that meet our common goals for youth aging out of 
foster care. What we want for these young people is really the 
same as what we want our own children--that they be well 
educated and prepared for the world of work, physically and 
emotionally healthy, economically secure, and supported through 
a network of caring relationships. To promote these positive 
outcomes we need policies and programs that help youth:
    <bullet> To develop needed basic living, educational and 
vocational skills;
    <bullet> To have access to financial support;
    <bullet> To retain health insurance coverage; and
    <bullet> To obtain stable housing and employment as they 
reach adulthood.
    Thank you for the opportunity to appear before the 
Subcommittee. I would be pleased to answer any questions you 
might have.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Ms. 
Williams. It is a pleasure to have you.
    Why are you suggesting a time-limited demonstration 
program? We did it years ago, when Tom Downey was Chairman of 
this Subcommittee, included in a bill that I had made to allow 
Independent Living Programs to serve students up to 21, or 
young people up to 21. And many are. So we already have quite a 
lot of experience with just the kind of program that you are 
proposing to demonstrate. Why do we need to demonstrate it?
    Ms. Williams. Let me just say that the Independent Living 
Program, which does in fact have a State option to go to serve 
young people up to age 21, does not allow, by statute, for any 
of those resources to be used to pay for the boarding care of 
youngsters. So that the time-limited demonstration is a 
demonstration of an additional kind of economic support for 
these youngsters in those circumstances where they have an 
independent living plan, they are engaged in the program, but 
they need support in order to pay the rent while they are in 
vocational training.
    Chairman Johnson of Connecticut. That is true that they are 
not allowed to use independent living money for that. In fact, 
they are using other money. So we do actually have that model 
of a program out there.
    Ms. Williams. Sure.
    Chairman Johnson of Connecticut. So I think if we can look 
and see how widespread that model is and how it's working, it 
would help us to determine whether we need to demonstrate it or 
whether we just need to move.
    Ms. Williams. We would be pleased to work with you on that.
    Chairman Johnson of Connecticut. Then, I did want to ask 
you about this transitional living program. Has any thought 
been given to just opening up the Independent Living Program to 
the group of kids that the transitional living program serves 
because most of them, I guess, are homeless. But they are not 
in the custody of the State.
    But it seems to me that they are appropriate candidates. So 
I will raise that with some who follow. But it is odd that we 
have two programs that serve very much the same kind of young 
people.
    Ms. Williams. I think the characteristics of the young 
people are very similar, but their relationship to the State 
agency is really quite different. We find a very small overlap 
between that group of children who are homeless, or immediately 
homeless, and the youngsters that are in foster care. So this 
is a broader group of youngsters who have left their home for a 
variety of reasons, usually familial conflict.
    But you are absolutely right, they have not been dependent 
children of the court.
    Chairman Johnson of Connecticut. To what degree do you and 
the Department of Education coordinate on the programming for 
these two groups of children?
    Ms. Williams. The Transitional Living Program, authorized 
by the Runaway and Homeless Youth Act, is also administered in 
the Department of Health and Human Services by the Family and 
Youth Services Bureau, one of our sister agencies in the 
administration on Children, Youth and Families. We coordinate 
closely in administering the two programs. For instance, we 
have supported joint training activities for Independent Living 
Program administrators and Transitional Living Program grantees 
and we have jointly supported technical assistance resources. 
There is significant collaboration around the two programs at 
the State and local levels, as well.
    Chairman Johnson of Connecticut. Thank you.
    Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair. And thank you very much 
for your testimony, and we very much appreciate the 
administration's initiatives in this area.
    Let me follow up on this pilot program. You are suggesting 
that we commit $50 million phased in, I guess, over 4 years.
    Ms. Williams. That is correct.
    Mr. Cardin. And during that period of time, you have 
estimated that about 20,000 children age out of foster care 
every year. So during that period, I assume you have somewhere 
around 80,000 children that would be aging out of foster care. 
You have also indicated that the majority of these children now 
are having serious problems in the transition. I am just 
curious, with $50 million of resources over the next 4 years, 
approximately how many children aging out of foster care would 
you expect to receive help under this pilot program?
    Ms. Williams. I don't have the exact number before me, Mr. 
Cardin. I would be glad to provide that. But quite frankly, it 
is small proportion of the children aging out. And we actually 
were offering this proposal as a beginning place to really 
begin a discussion about the needs of these youngsters for a 
different kind of support.
    Mr. Cardin. Good. I am glad to hear you say that. I know 
that you don't want to wait 4 years while we work on this 
problem. We need to move aggressively, as the Chair has 
indicated.
    We have a lot of information now. We need to know what are 
the best ideas in order to help.
    We have heard a lot of different problems that children 
reaching 18 in foster care have, employment problems, health-
insurance problems, educational opportunity, self-esteem. Could 
you tell us what you think is the number-one problem that we 
need to confront of that list or whatever list you think is 
needed. If we had to pick a priority on the list, or several 
priorities, how would you line them up?
    Ms. Williams. Let me just say that I think that part of 
what we have learned from the Independent Living Program and 
its past evaluations is that these youngsters need a number of 
skills simultaneously, that the outcomes for them in terms of 
employment, in terms of completion of high school, in terms of 
their self-esteem, seem to increase better when there is a 
constellation of skills that is brought to bear for these 
youngsters at one time.
    Those skills include education and employment, but in 
addition, the need to understand about the management of money, 
credit, and consumer activities. Those five skill sets together 
seem to promote self-sufficiency in these youngsters.
    Mr. Cardin. One of your recommendations is to give the 
States the option to cover the foster children aging out under 
Medicaid.
    Ms. Williams. That is correct.
    Mr. Cardin. Do you have any indication as to whether the 
States would exercise this option?
    Ms. Williams. We have not polled the States at this time. I 
think there is a felt concern about continuous health benefits 
for these youngsters among the people we work with most 
directly, which are the human service administrators. But we 
have not polled the States about their willingness to 
participate.
    Mr. Cardin. I think that might be helpful for us to know 
the States' attitude, what tools they would like to have, since 
they have--a lot of States have had initiatives in this area. 
It would be useful, I think, for us to know what the States 
would like to have, for us to give them the eligibility to 
include Medicaid and then for very few States to follow up on 
it would be offering a little bit of a false hope.
    I think it is a good suggestion, but I would like to know 
that there is an interest, at least, among the States for us to 
expand that issue.
    And, last, there will be some witnesses later on that will 
be suggesting that we reduce the age for independent living 
services to 14, from 16 to 14. Now I am just interested as to 
your view since you are testifying first and won't have a 
chance to comment later, whether you think that would be useful 
for the independent living services to be available to foster 
children at an earlier age.
    Ms. Williams. I have mixed feelings about it. On the one 
hand, I think that preparation for adulthood is something that 
we engage in with children throughout the course of their 
lives. I think that I would want to continue the focus of the 
Independent Living Program on youngsters 16 and over, but also, 
simultaneously, focus work with foster care providers and other 
care providers to make sure that they are establishing with 
kids the building blocks that will allow them to move to 
adulthood, at an earlier age.
    Mr. Cardin. How they do that if they can't use this 
program?
    Ms. Williams. Well I think in most familial situations, we 
integrate that into the daily care of our children. And I would 
like to shore that up with foster parents and other group-care 
providers within the context of the programs and the services 
they currently provide to youngsters.
    Mr. Cardin. I'm not sure I fully understand that. I'm not 
sure I know what services--I understand how foster care, the 
program, works, but how, if we don't allow the independent 
living funds to be used, where would the programming be to help 
foster children in that regard?
    Ms. Williams. I think that we have underutilized the 
opportunity to work with foster parents of children at a 
younger point, to make sure they have the kinds of experiences 
that prepare them for work in the context of family. We need to 
really begin working with those groups of parents before kids 
get to be 16, from the time kids are 11 to 12 on, foster 
parents could work with them around work issues, school issues, 
that kind of thing.
    I think it could be a complement to the Independent Living 
Program.
    Mr. Cardin. And your reluctance to change the age from 16 
to 14 is----
    Ms. Williams. I think we need to improve both the scope and 
the quality of the services that we provide to the older kids. 
And it is a limited pot of resources. And so I don't want to 
dilute it as we are trying to improve the quality.
    Mr. Cardin. Thank you.
    Chairman Johnson of Connecticut. Thank you.
    Mr. English.
    Mr. English. Thank you, Madam Chair. And welcome, Ms. 
Williams. I have been listening with interest to your 
presentation. We are going to be hearing testimony later today 
that many of the skills emphasized in the Independent Living 
Program are soft, such as increasing self-esteem or improving 
relational skills, as opposed to hard skills, such as getting a 
job or getting into college.
    In the President's proposal, is there any change in the 
menu of services or any priority given to the types of services 
that the Independent Living Program should be providing?
    Ms. Williams. In our proposal, we have not changed the 
priorities. We do clearly expect preparation for work and 
continued education, with real expectation around completion of 
high school and GED and other vocational training as part of 
that program.
    Mr. English, I would like to point out that many of these 
youngsters have had very disruptive childhoods. They have lived 
in various places. They have experienced troublesome 
interactions with their own parents and have been abused and 
neglected.
    Often, the so-called soft skills are skills that are 
helpful to them in the workplace, but clearly, our 
expectations, even though we have a menu of skills, is around 
the transition to adulthood and self-sufficiency.
    Mr. English. Well said. The President's proposal will allow 
States to extend Medicaid coverage for these youth until their 
21st birthday. As I look at that proposal, I wonder did the 
administration consider giving States a choice of either 
coverage through the CHIP program, the Children's Health 
Insurance Program, or through Medicaid?
    Ms. Williams. We looked at both of those. Currently, under 
Medicaid, children must be covered through age 19--to age 19, 
excuse me, through the 18th year. And that is also true of the 
CHIP program. We were attempting to provide a broader 
transition to these youngsters to age 21. And there is a gap in 
terms of those current provisions and what we are proposing.
    Mr. English. I guess the other thing that interests me is 
probably a rather basic issue. Under the President's budget, he 
has proposed a significant increase in funding for the 
Independent Living Program, as you have noted, by over $300 
million over 5 years. I took a look at the President's budget; 
I didn't see any specific budget changes, savings that were 
specifically earmarked to cover that increase. Can you give us 
any insight and, if it comes down to this Subcommittee's 
recommendation, since it is in our jurisdiction, what sort of 
changes should be made to generate that $300 million?
    Ms. Williams. The President's budget has a number of cost-
saving provisions within it. And we know we have to pay for 
this program, that this cannot be just new funds. And we are 
prepared to work with this Subcommittee to look at the ones 
that are currently in the President's budget and others that we 
might want to consider to pay for this.
    Mr. English. I thank you for that. And let me say that this 
proposal for an increase certainly has a lot of merit and you 
have been eloquent in arguing here for it. And I very much 
appreciate your testimony here today. We still are going to 
have some very difficult decisions to make, but certainly I 
hope that we have an opportunity to proceed on this proposal.
    I yield back the balance of my time.
    Chairman Johnson of Connecticut. Thanks.
    Mr. Lewis. OK. Thank you.
    Ms. Williams, on this issue of a skills set, I appreciate 
your comments, and certainly for this group of kids, the old 
law is still relevant. But it is also true that we have kids 
coming out of high school who are totally illiterate in terms 
of how to use a computer. I don't know how you get into the 
work force when you don't--even if you don't take a job that 
requires computer training, you just have to have a sense of 
technology. So I think we do have to look at the skills-set 
issue and what is most important to helping the young person 
feel a part of the workplace or feel comfortable in the 
workplace they are going to join.
     As important as I think what are commonly referred to as 
the soft skills are, I think we have to take a little harder 
line and also provide more hard skills. I appreciate your 
thought about that as we move forward.
    Ms. Williams. Yes, you know, I think what we want is 
youngsters who can enter the world of work, and that requires 
us to address the hard skills, but then to address soft skills 
to the extent that they get in the way of their ability to 
maintain themselves in the world of work.
    Chairman Johnson of Connecticut. Thank you very much. 
Pleasure to have you here.
    Ms. Williams. You are welcome.
    Chairman Johnson of Connecticut. Now I would like to call 
to the table some witnesses that we are particularly pleased to 
have with us: Elaine Nelson, who is a junior at Texas A&M, 
College Station, Texas, on behalf of the Orphan Foundation of 
Vienna, Virginia; Reggie Rollins, who is a student at Norwalk 
Community College, Norwalk, Connecticut, on behalf of the 
Connecticut Youth Advisory Board, and Shauntee Miller, a 
student at Baltimore Studio of Hair Design, on behalf of New 
Pathways Independent Plus Program, Baltimore, Maryland.
    We are very pleased to have you all here today. If there is 
one thing we do respect, it's that if we construct a program 
and it doesn't help anyone, it's of no value no matter what its 
name sounds like on paper or how many dollars go out the door. 
So we are pleased to have you all here to share your 
experiences and thoughts with us.
    And we hope, as we develop this legislation, that we will 
be able to get in touch with you if we have questions.
    Ms. Nelson.

STATEMENT OF ELAINE KAY NELSON, STUDENT, TEXAS A&M UNIVERSITY, 
   COLLEGE STATION, TEXAS, ON BEHALF OF ORPHAN FOUNDATION OF 
                            AMERICA

    Ms. Nelson. Good afternoon, Congresswoman Johnson and 
distinguished Members of the House Ways and Means Subcommittee 
on Human Resources.
    My name is Elaine Nelson. I am 20 years old and a junior 
biomedical science major at Texas A&M University. I will begin 
applying to medical school after this semester and will 
graduate cum laude in May of 2000.
    I entered the foster care system in 1990 at age 12. During 
my senior year of high school I was advised to attend a 10-week 
PAL program, preparation for adult living. This course offered 
many benefits and assisted me to visualize independence from 
the foster care system. With less than 50 percent of foster 
children graduating from high school, I realized that, even 
with Independent Living Programs, something is missing from the 
system.
    Ten weeks cannot make up for the years of little or no 
attention given to the preparation for independence. So the 
last year in foster care is extremely stressful. For the many 
foster kids that leave the system without the aid of a PAL 
program, no information on independent living is passed on. 
They are forced to leave the system without a support system 
and with no information on work ethics or college and 
vocational preparation.
    Therefore, a primary goal for the entire foster care 
system, along with PAL, should be to continually prepare foster 
teens for their future.
    Texas' PAL provided financial assistance and valuable 
adult-living techniques. Over a 10-week course, PAL provided 
each participant with $5 at the end of each class session, 
which paid for gas to the session and possibly dinner on the 
way home.
    At the completion of this course, each participant received 
a total of $1,500, of which $500 was allotted solely for the 
use of buying household or dormitory supplies, such as dishes, 
sheets, and things of that manner. The remaining $1,000 was 
divided among 4 months, and was for the participant's personal 
use.
    On top of this, PAL also reimburses college students for 
their first two semesters of books and supplies.
    The second positive outcome was the actual lessons taught 
to the group. Issues such as applying for a job, buying a car, 
and balancing a checkbook were discussed. I was fortunate to 
have already experienced all of these endeavors, but I realized 
the value they held for those that were in need of this type of 
assistance.
    Although the program had its advantages, it was also in 
need of some adjustments. First, more positive reinforcement 
should be placed on the students from the instructor. For 
example, one young girl's ambition was to become a topless 
dancer. Instead of offering suggestions for an alternative 
route, the instructor merely half nodded and remained silent.
    I have seen countless foster children, including a previous 
foster brother, leave the system with absolutely no plans or 
goals, leading them to lives filled with sleepless nights, 
violence, drugs, and empty dreams.
    I believe the ultimate goal of independent living classes 
should be to present to the students their many options such as 
the Job Corps program, university or community college 
enrollment, military service, or vocational opportunities. Once 
the student has chose a direction, the program should then be 
available to assist them in organizing and constructing their 
method for achieving this goal.
    Second, the program provided no information on college 
admissions, Federal student financial aid, or private 
scholarships like the one I receive each year from the Orphan 
Foundation of America. I researched this information on my own 
instead.
    During the summer of 1997, I spoke at a Texas PAL teen 
conference about my college experiences. I stressed the 
importance of the FAFSA, Federal Application for Financial 
Student Aid, and the urgency to complete it by the deadline. I 
was absolutely shocked as these high school juniors and seniors 
asked me question after question about the form. It was 
disturbing that they had never been told about the fact the 
FAFSA, a form that plays the most crucial role in college 
funding for foster children.
    If youth are unaware of the financial assistance that they 
are eligible for, they may assume that college is financially 
out of their reach and thus will not even apply.
    I think I am an excellent example of a student who used her 
resources. I have been successful because I took advantage of 
what the system and the government offered. For those PAL 
participants planning a future in college or vocational school, 
more time should be spent utilizing these resources by filling 
out applications and financial-aid forms so that they too can 
have an increased chance of success.
    I do believe that health insurance should be provided for 
foster youths until their completion of college or vocational 
school. Many former foster children, including myself, cannot 
afford a monthly health insurance payment while struggling 
independently with rent, groceries, and other bills.
    I am fortunate as a student to have a reduced rate at the 
student clinic on the Texas A&M campus. However, many are 
forced to remain ill for extended periods of time or are forced 
to make a decision between going to a physician and paying 
their rent. No one should be faced with this type of conflict.
    In conclusion, preparation for adult living and other 
similar programs are not only beneficial to foster teens but, I 
believe, essential. These programs hold enormous potential and 
could contribute so much more by including more volunteer 
programming, private-sector scholarships, like the Orphan 
Foundation of America, and interaction with religious 
establishments.
    Independent Living Programs should be a principal way for 
foster youths to get a taste of a busy and unpredictable world 
and a great start to a future that holds enormous opportunity.
    [The prepared statement follows:]

Statement of Elaine Kay Nelson, Student, Texas A&M University, College 
Station, Texas, on behalf of Orphan Foundation of America

    Good afternoon Congresswoman Johnson and distinguished 
members of the House Ways and Means Subcommittee on Human 
Resources. My name is Elaine Nelson, I am 20 years old and a 
junior biomedical science major at Texas A&M University. I will 
begin applying to medical school after this semester and will 
graduate cum laude in May of 2000.
    I entered the foster care system in 1990 at the age of 12. 
During my senior year of high school I was advised to attend a 
10-week PAL program (Preparation for Adult Living). This course 
offered many benefits, and assisted me to visualize 
independence from the foster care system.
    With less than 50% of foster children graduating from high 
school, I realize that, even with independent living programs, 
something is missing from the system. Ten weeks cannot make up 
for the years of little or no attention given to the 
preparation for independence. The last year in foster care is 
extremely stressful. For the many foster kids that leave the 
system without the aid of a PAL program, no information on 
independent living is passed on. They are forced to leave the 
system without a support system and with no information on work 
ethics or college and vocational preparation. Therefore, a 
primary goal for the entire foster care system, along with PAL, 
should be to continually prepare foster teens for their future.
    Texas's PAL provided financial assistance and valuable 
adult living techniques. Over a ten week course, PAL provided 
each participant with $5.00 at the end of each class session, 
which paid for gas to the session and possible dinner on your 
way home. At the completion of the course, each participant 
received a total of $1,500.00, of which $500 was allotted 
solely for purchase of household or dormitory supplies, such as 
dishes, sheets, and cleaning supplies. The remaining $1,000 was 
divided among 4 months, and was for the participant's personal 
use. On top of this, PAL reimburses college students for their 
1st two semesters of books and supplies.
    The second positive outcome was the actual lessons taught 
to the group. Issues such as applying for a job, buying a car, 
and balancing a checkbook were discussed. I was fortunate to 
have already experienced all of these endeavors, but I realize 
the value they held for those that were in need of this type of 
assistance.
    Although this program had its advantages, it was also in 
need of some adjustments. First, more positive reinforcement 
should be placed on the students from the instructor. For 
example, one young girl's ambition was to become a topless 
dancer. Instead of offering suggestions for an alternative 
route, the instructor merely half-nodded and remained silent. I 
have seen countless foster children, including a previous 
foster brother, leave the system with absolutely no plans or 
goals, leading them to lives filled with sleepless nights, 
violence, drugs, and empty dreams. I believe the ultimate goal 
of independent living classes should be to present to the 
students their many options, such as the Job Corps program, 
university or community college enrollment, military service, 
or vocational opportunities. Once the student has chosen a 
direction, the program should then be available to assist them 
in organizing and constructing their method for achieving this 
goal.
    Second, the program provided no information on college 
admissions, federal student financial aid, or private 
scholarships like the one that I receive each year from the 
Orphan Foundation of America. I researched this information on 
my own instead.
    During the summer of 1997, I spoke at a Texas PAL teen 
conference about my college experiences. I stressed the 
importance of the FAFSA (Federal Application for Financial 
Student Aid) and the urgency to complete it by the deadline. I 
was absolutely shocked as these high school juniors and seniors 
asked me question after question about the form. It was 
disturbing that they had never been told about the FAFSA, a 
form that plays the most crucial role in college funding for 
foster children. If youth are unaware of the financial 
assistance they are eligible for, they may assume that college 
is financially out of their reach, and thus, will not attempt 
to apply. I am an excellent example of a student who used her 
resources. I have been successful because I took advantage of 
what the system and the government offered. For those PAL 
participants, planning a future in college or vocational 
school, more time should be spent utilizing these resources by 
filling out applications and financial aid forms so they, too, 
can have an increased chance at success.
    I believe health insurance should be provided for foster 
youth until their completion of college or vocational school. 
Many former foster children, including myself, cannot afford a 
monthly health insurance payment while struggling independently 
with rent, groceries, and other bills. I am fortunate as a 
student to have a reduced rate at the student clinic on the 
Texas A&M campus. However, many are forced to remain ill for 
extended periods of time, or are forced to make a decision 
between going to a physician and paying their rent. No one 
should be faced with this type of conflict.
    In conclusion, preparation for adult living and other 
similar programs are not only beneficial to foster teens, but I 
believe, essential. These programs hold enormous potential and 
could contribute so much more by including more volunteer 
programming, private sector scholarship organizations like the 
Orphan Foundation of America, and interactions with religious 
establishments. Independent living programs should be a 
principal way for foster youth to get a taste of a busy, 
unpredictable world and a great start to a future that holds 
enormous opportunity.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Ms. 
Nelson.
    Mr. Rollins, it is a pleasure to welcome you here from 
Connecticut.

    STATEMENT OF REGGIE ROLLINS, STUDENT, NORWALK COMMUNITY 
 COLLEGE, NORWALK, CONNECTICUT, ON BEHALF OF CONNECTICUT YOUTH 
                         ADVISORY BOARD

    Mr. Rollins. Thank you. Good afternoon, Chairman Johnson, 
Congressman Cardin, Members of the House Ways and Means 
Committee on Human Resources. My name is Reggie Rollins. I am a 
21-year-old college student from Stamford, Connecticut.
    I came into the care of Connecticut Department of Children 
and Families in 1989 at the age of 10. Life as a child was no 
fun for me at all.
    How did I get to be a State kid. My mother--sorry. I became 
involved in the State because my mother was addicted to drugs 
and was unable to take care of me, my younger brother and 
sister. As my mother got more into drugs, the worse things got 
for the family.
    At a very young age I was forced to act as a parent in my 
household and was responsible for looking out for my younger 
siblings. There were many times when there was no food or heat 
or electricity because our family income had gone to buy drugs.
    It was because of this that the State had to step in to 
rescue us. Throughout my life, I have seen the good as well as 
the bad. When I went to the care of the Department of Children 
and Families, it was very difficult for me and my siblings. 
There was no place that could take us all, and we all split up 
in different foster homes.
    After being responsible for making sure they were always 
safe, it was very hard not being able to see them more than 
once a month. For the first few years in care, I had a hard 
time adjusting to losing my family. I moved from foster home to 
foster home, and then when I got older, there was no more 
foster care. I began to move from group home to group home.
    Luckily for me, quite a few years ago, I was placed at the 
Domus Foundation, a group home in Stamford, Connecticut. Domus 
rescued me and started me on my path toward independent living.
    While at Domus, I learned all the things that would prepare 
me to live in the community. For one, the group home had life-
skill classes where I learned about money management, 
transportation, cooking, and other skills I would need after I 
got on my own--excuse me.
    Not only did I have life-skill classes, but our counselors 
would also bring in guest speakers from the community to teach 
us about life skills and bring us out and taking me for a few 
visits to sites where we could use the services.
    For example, we learned about money management in classes, 
including topics like budgeting, savings, checking accounts, 
credit, consumerism, and so forth. Then someone from the 
consumer credit company in the community would come in and 
teach us about loans and credit. And they we would go visit 
local banks and set up savings and checking accounts.
    There was always a lot of activities on hands and 
experience to help us learn and practice life skills.
    Soon I was ready to move from the group home and to 
independent living. In Connecticut, we call it the CHAP 
Program, or the Community Housing Assistance Program. To be 
eligible for the CHAP, you have to be at least 17 years, you 
have to be under the State's care, willing to be in a full-time 
educational or vocational program, have completed a DCF-
approved life skills program, work at least part time, and be 
willing to save at least 50 percent of your income from your 
job.
    Independent living has been a great experience for me. I 
live in an apartment with my roommate Jeff, and we do 
everything from paying the bills to washing dishes. The CHAP 
Program has given me a chance to practice all of the life 
skills I have learned at the group home before I went out on my 
own.
    I set up a monthly budget with my case manager around rent, 
food, utilities, transportation, telephone, personal-care 
items, and then the State sends me a check once a month to meet 
all of the budget costs.
    My case manager stops by to see us a couple times a week to 
make sure we are paying our bills, keeping the apartment 
together, and making all of our goals. I love being in my own 
apartment. Independent living has given me a great opportunity 
to become a great member of the community.
    Another program I really enjoy is being part of the 
Connecticut Youth Advisory Board. Through the advisory board, I 
have been able to have my voice heard in many different 
functions. I am a member of the southwest's region advisory 
board and also am a member of the statewide Youth Advisory 
Board that meets with the commissioner.
    The regional youth advisory board consists of eight 
different youth ages. All come from the southwest part of our 
State.
    We meet together once a month and we talk about things in 
our system we feel should be changed. Our regional group 
currently has three projects we are involved with. One is a 
youth survey to get feedback from other kids in care as to how 
they see life in the system.
    Another project is a raffle to raise money to began a 
scholarship fund. And finally, we made a video to tell other 
young people about the Youth Advisory Board and how to get 
involved.
    The statewide Advisory Board consists of 10 youth, two from 
each regional board. The group meets four times a year with the 
commissioner. Commissioner Kris, as we call her, really listens 
to what we have to say, and this year she changed two policies 
around college tuition and services to teen parents based on 
what we had to say.
    Not only have I been enjoying a youth leadership role in my 
State, but I also attended the National Independent-Living 
Conference representing my State. In December, I went to 
Florida to do a workshop with the State mental health 
commissioners on how to develop a youth advisory board in their 
States.
    In closing, I want to thank Congresswoman Johnson for the 
opportunity to speak with you. I want you all to know that if 
you give us the resources and opportunity, we can turn out all 
right. Thank you.
    [The prepared statement follows:]

Statement of Reggie Rollins, Student, Norwalk Community College, 
Norwalk, Connecticut, on behalf of Connecticut Youth Advisory Board

    Good afternoon Congresswoman Johnson, Representative Cardin 
and members of the House Ways and Means' Subcommittee on Human 
resources. My name is Reggie Rollins and I'm a 21 year old 
college student from Stamford, Connecticut. I came into the 
care of the Connecticut Department of Children and Families in 
1989 at the age of 10. Life as a child was no fun for me at 
all. How did I get to be a ``state'' kid? I became involved 
with the state because my mother was addicted to drugs and was 
unable to take care of me, and my younger brother and sister. 
As my mother got more into drugs, the worse things got for my 
family. At a very young age I was forced into acting as a 
parent in my household and was responsible for looking out for 
my younger siblings. There were many times when there was no 
food, or heat, or electricity, because our family income had 
gone to buy drugs. It was because of this that the state had to 
step in to rescue us.
    Throughout my life I've seen the good as well as the bad. 
When I went into the care of the Department of Children and 
Families it was very difficult for me and my siblings. There 
was no place that could take all of us and we were split up 
into different foster homes. After being responsible for making 
sure they were always safe it was very hard not being able to 
see them more than once a month. For the first few years in 
care I had a hard time adjusting to losing my family. I moved 
from foster home to foster home, and then when I got older and 
there was no more foster care, I began to move from group home 
to group home.
    Luckily for me a few years ago I was placed at the Domus 
Foundation group home in Stamford, Connecticut. Domus rescued 
me and started me on my path towards independent living. While 
at Domus I learned all the things that would prepare me to live 
in the community. For one, the group home had life skills 
classes where I learned about money management, transportation, 
cooking and other skills I would need as I got out on my own. 
Not only did I have the life skills classes but our counselors 
would also bring in guest speakers from the community to teach 
us about the skills and then bring us out into the community 
for field visits to sites where we could use the service. For 
example, we would learn about money management in class, 
including topics like budgeting, savings and checking accounts, 
credit, consumerism, etc. Then, someone from a consumer credit 
company in the community would come in and teach us about loans 
and credit, etc. And then we would go visit the local bank and 
set up savings and checking accounts. There were always alot of 
activities and hands on experiences to help us learn and 
practice life skills.
    Soon I was ready to move from the group home into 
independent living. In Connecticut, it's called the CHAP 
program, or the Community Housing Assistance Program. To be 
eligible for CHAP, you have to be 17 or older; you have to be 
under the state's care; willing to be in a full-time 
educational or vocational program; have completed a DCF 
approved life skills program; work at least part time; and be 
willing to save up to 50 percent of your income from your job. 
Independent living has been a great experience for me. I live 
in an apartment with my roommate Jeff and we do everything from 
paying the bills to washing the dishes. The CHAP program has 
given me the chance to practice all of the life skills I 
learned at the group home before I'm really out there on my 
own.
    I set up a monthly budget with my case manager around rent, 
food, utilities, transportation, telephone and personal care 
items and then the state sends me a check once a month to meet 
all of the budget costs. My case manager stops by to see us a 
couple of times a week to make sure we're paying our bills, 
keeping the apartment together, and meeting all of our goals. I 
love being in my own apartment. Independent living has given me 
a great opportunity to become a member of the community.
    Another program I really enjoy is being a part of 
Connecticut's Youth Advisory Board. Through the advisory board 
I have been able to have my voice heard at many different 
functions. I'm a member of the Southwest region's advisory 
board and I'm also a member of the statewide Youth Advisory 
Board that meets with the Commissioner.
    The regional youth advisory board consists of eight youth 
of different ages that all come from the southwest part of our 
state. We meet together once a month and we talk about things 
in the system we feel should be changed. Our regional group 
currently has three projects we're involved in. One is a youth 
survey to get feedback from other kids in care as to how they 
see life in the system. Another project is a raffle to raise 
money to begin a scholarship fund. And finally, we made a video 
to tell other young people about the Youth Advisory Board and 
how to get involved.
    The statewide advisory board consists of 10 youth, 2 from 
each regional board. This group meets four times a year with 
the Commissioner. Commissioner Kris as we call her, really 
listens to what we have to say and this year she changed two 
policies around college tuition and services to teen parents 
based on what we had to say.
    Not only have I been enjoying a youth leadership role in my 
state but I've also attended the national independent living 
conferences representing my state. In December I went to 
Florida to do a workshop with state mental health commissioners 
on how to develop youth advisory boards in their states.
    In closing, I want to thank Congresswoman Johnson for the 
opportunity to speak with you. I want you all to know that if 
you give us the resources and the opportunities, we can turn 
out all right.
    Thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Miss Miller.

STATEMENT OF SHAUNTEE MILLER, STUDENT, BALTIMORE STUDIO OF HAIR 
  DESIGN, ON BEHALF OF NEW PATHWAYS INDEPENDENT PLUS PROGRAM, 
                      BALTIMORE, MARYLAND

    Ms. Miller. Dear Madam Chair, Mr. Cardin, and other 
distinguished Members of the Subcommittee, my name is Shauntee 
Miller and I will be 20 years old in 2 days. I live in 
Baltimore in an apartment as a resident of New Pathways.
    New Pathways is a semi-independent living program that is 
helping me get ready for the real world. At the age of 16, I 
had my daughter Alexus while living with my mother. 
Unfortunately, I had to call protective services when we were 
being evicted because it was the only way to keep Alexus and me 
safe.
    My daughter and I went into two foster homes in a 1-year 
period. When I was 17, Alexus and I were separated and placed 
in separate foster homes, and it became very difficult for me 
to see my daughter. When I was 18, I went to live with my aunt. 
But when I was there, it was overcrowded and nobody respected 
my space. They wanted too much money for rent, and I always had 
to take care of everybody else's responsibilities. I had no 
time to take care of my responsibilities. When I turned 19, a 
year ago, I decided to move into New Pathways program to help 
me become more independent.
    After a week, I changed my mind because my brother had just 
recently died and it wasn't a great time for me to go out on my 
own. So I moved back into my aunt's house.
    In January of this year, I made a decision to go back into 
New Pathways because I needed to be able to worry about my 
responsibilities. These responsibilities are my daughter, my 
school, my job, and myself.
    New Pathways allows me to be on my own in an apartment 
where other people don't put their responsibilities on me. I am 
able to feel safe, have my own space and some privacy. I am 
able to see my daughter every weekend. I go to cosmetology 
school and work nights so that I can save money. I am able to 
make my goals a priority.
    My goals are to complete school, move out on my own, and 
reunification with my daughter, Alexus.
    When foster kids turn 18 we still need some support to 
manage all of our responsibilities. We don't want everything 
given to us, but having assistance with housing money and 
medical care while we are in school is very important. New 
Pathways allows me to be independent, but at the same time 
gives me some support and guidance and an occasional push if I 
need it.
    It makes me proud that my Congressman, Mr. Cardin, is 
responsible for this bill. I want to thank him for his 
commitment to young adults like myself who are trying hard to 
be successful.
    I hope that all of the distinguished Subcommittee Members 
realize that we are not looking for a free ride, just a little 
assistance while we go to school and try to put away some 
money.
    Thank you. Thank you all for your time and for this 
opportunity to represent young adults like myself.
    [The prepared statement follows:]

Statement of Shauntee Miller, Student, Baltimore Studio of Hair Design, 
on behalf of New Pathways Independent Plus Program, Baltimore, Maryland

    Dear Madame Chair, Mr. Cardin and other distinguished 
members of the committee,
    My name is Shauntee Miller, and I will be 20 years old in 
two days. I live in Baltimore in an apartment as a resident of 
New Pathways. New Pathways is a semi-independent living program 
that is helping me get ready for the ``real'' world. At the age 
of 16, I had my daughter, Alexus while living with my mother. 
Unfortunately, I had to call protective services when we were 
being evicted because it was the only way for me to keep Alexus 
and me safe. My daughter and I went to 2 foster homes in a one-
year period. When I was 17, Alexus and I were separated and 
placed in separate foster homes, and it became very difficult 
for me to see my daughter. When I was 18, I went to live with 
my aunt, but when I was there, it was overcrowded, nobody 
respected my space, they wanted too much money for rent, and I 
always had to take care of everybody else's responsibilities. I 
had no time to take care of my responsibilities.
    When I turned 19 a year ago, I decided to move into New 
Pathways' program to help me become more independent. After a 
week, I changed my mind because my brother had just recently 
died and it wasn't a great time for me to go out on my own, so 
I moved back to my aunt's house. In January of this year, I 
made a decision to go back into New Pathways because I needed 
to be able to worry about my responsibilities. These 
responsibilities are my daughter, my school, my job, and 
myself. New Pathways allows me to be on my own in an apartment 
where other people don't put their responsibilities on me. I am 
able to feel safe, have my own space and some privacy. I am 
able to see my daughter every weekend. I go to cosmetology 
school and work at nights so that I can save money. I am able 
to make my goals a priority. My goals are to complete school, 
move out on my own, and reunify with Alexus.
    When foster kids turn 18, we still need some support to 
manage all of our responsibilities. We don't want everything 
given to us, but having assistance with housing, money and 
medical care while we are in school is very important. New 
Pathways allows me to be independent but at the same time gives 
me support and guidance, and an occasional push if I need it.
    It makes me proud that my Congressman, Mr. Cardin, is 
responsible for this bill. I want to thank him for his 
commitment to young adults like myself, who are trying hard to 
be successful. I hope that all of the distinguished committee 
members realize that we are not looking for a free ride, just a 
little assistance while we go to school and try to put away 
some money.
    Thank you all for your time and for this opportunity to 
represent young adults like myself.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Well, thank you very much. 
I would have to say I am extremely impressed with each of you, 
with what you have done in the face of tremendous odds that 
would have defeated many. It is indeed a shocking comment on 
our society that we have, over so many years, given adults with 
children on welfare stipends, health care, and a lot of 
education and counseling support as they faced the transition, 
and been so utterly insensitive to what it must have been like 
during that last year in a foster home.
    So I think one of the things that you have brought out very 
clearly is that every child in foster homes needs to have this 
kind of support that you all received through the life-skills 
program, independent living type program in your State.
    What do you think about--two issues. First of all, what do 
you think about the inclusion of younger people who are in the 
foster care system and who are in foster homes, in the kinds of 
meetings that you have been a part of and, therefore, 
developing those supportive friendships that are so important? 
And what do you think about the kinds of skills that have been 
offered.
    Your comments, Ms. Nelson, about the lack of attention to 
financial resources were very well taken. And when I look at 
what Mr. Rollins is doing down there in Norwalk--you know, last 
year, we passed this Hope Scholarship Program. Last year we put 
more money into higher education subsidies than we have in any 
1 year since the GI Bill. But if we don't educate people about 
that, how can they possibly know.
    Ms. Nelson. Right.
    Chairman Johnson of Connecticut. And a lot of the money 
comes through tax credits. So we need to know how do you 
combine work and school in such a way that actually you can do 
it without building up any debt. But certainly the more tools 
we put out there, the more need there is for education and 
assistance so that people can see what the opportunities are.
    I wonder whether any of you in the programs that you are in 
were able to gain particular understanding of what your career 
choices were? What it might feel like if you went into one 
career versus another career? Were you given any encouragement 
in thinking about what your career ought to be.
    You know, we all make choices about a career, and then we 
change them throughout our lifetimes, but was career education 
and exploration very much a part of the programs you 
participated in?
    Ms. Nelson. It wasn't in mine. They never once talked to 
us, [cough] excuse me. They went around the room and asked what 
each of our goals were, but no real emphasis--excuse me--was 
placed on training for the future. Basically, you know, each 
person said their piece and there was feedback from the 
instructors.
    Chairman Johnson of Connecticut. How about you, Mr. 
Rollins?
    Mr. Rollins. No. They just basically asked us what our 
goals are and that's about it.
    Chairman Johnson of Connecticut. Ms. Miller.
    Ms. Miller. Could you repeat the question?
    Chairman Johnson of Connecticut. Did you, for instance, 
decide to go into cosmetology because it was something that you 
saw other people doing and knew about, or was there any effort 
in the program you participated in to expose you to a lot of 
different choices and you chose that?
    Ms. Miller. Well, they offered me the chance for--well, 
cosmetology was something I was good at. So I chose it, and 
they are able to help me do it. So----
    Chairman Johnson of Connecticut. Good. I was part of a 
program that was trying to help kids see what career options 
were available, and when we took kids from my hometown up to 
the airport, which is only about 25 minutes away, not one of 
them had ever seen the inside of a plane, nor thought about all 
the kinds of jobs--that are involved--stewardess, airplane 
pilot repair, baggage, tickets--and there is just a whole world 
of possible careers in an airport. And there is a whole world 
of possible careers if you visit a hospital from physician 
right on down to many, many interesting lab careers.
    You go out to some of the construction sites, and there are 
just all kinds of jobs from entry-level to very high-paying 
equipment jobs. You go into manufacturers now and they have 
much better training opportunities and high-paying supervisory 
jobs on the floor for women and men, earning $50,000, $60,000 a 
year.
    So, I think that though this is an old program, that we do 
need to think. And I hope that, in the next few days, you will 
think--what would I really like to have known? What would have 
helped me think about what are all the choices out there? 
Because of all the kids in the world, those who grew up in the 
circumstances you did, need to have a little extra help in 
seeing what are the various horizons, what are the roads and 
the paths one can choose.
    None of us stay necessarily in the path we choose when we 
are 18 or 20 or 40 or 60, but you do need to be able to go down 
a path with a sense of choice and enthusiasm.
    So I appreciate your being here together today. Thank you 
all for your excellent testimony. And now I want to recognize 
Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair. First, let me 
congratulate each of you for what you have been able to achieve 
and what you are going to be achieving in your life. I also 
want to thank you for coming here to testify. It is not easy.
    I don't know if many of us at your age could have had the 
poise and had the preparation to be able to come before 
Congress and talk about your own experiences. So I want to 
thank you for that very much, and really tell you how important 
it is for us. We see the numbers, 20,000 children each year in 
foster care, but now we see three, and we see the faces and we 
see the experiences, and we learn a lot more by your personal 
presence here. So thanks for braving the weather, and thanks 
for being prepared, and being willing to come forward. It makes 
our job a lot easier.
    I am curious as to how the three of you would have--what 
would have happened to you or people that you know, if there 
wasn't a PAL program, or you didn't have the program in 
Connecticut, the Domus Foundation, or the program we have in 
Maryland, New Pathways?
    If those programs weren't available, how would you--what 
would you do at age 18? What would happen at age 18 without any 
help for housing or assistance? What happens to foster 
children?
    Ms. Miller. They will probably drop out of high school to 
get a job and make it on their own.
    Mr. Cardin. So you would have dropped out of school and 
done the best that you could?
    Ms. Miller. Most likely that is what I see.
    Mr. Rollins. I probably would have finished school and 
learned experiences as I went on, you know. And whatever 
happens, happens from there basically. I would try, you know, 
differences, as far as I can get to the value for myself.
    Mr. Cardin. What would have happened at 18, if you didn't 
have any help?
    Ms. Nelson. Well, PAL really--PAL in Texas really didn't 
prepare me any more for what I was already, you know, what I 
already knew was going to exist. So I think it could be a lot 
stronger than it was. It really didn't focus on the skills that 
I needed.
    Mr. Cardin. Texas has an educational assistance program for 
children coming out of foster care?
    Ms. Nelson. They have a tuition and fee waiver if you go to 
any State-supported public school. And that is just tremendous, 
that's a tremendous help. But they don't have an actual--other 
than the PAL program, I'm not aware of any other services.
    Mr. Cardin. Did you take advantage of that tuition 
assistance, or----
    Ms. Nelson. Oh yes. I still am. Oh yes. Yes, there is just 
a form that my PAL coordinator actually sends me. If it is 
updated. She sent me one my freshman year, and I just give that 
to the admissions.
    Mr. Cardin. Now, if that was not available, what would have 
been your educational opportunities?
    Ms. Nelson. Well, I still get financial aid from the fact 
of filling out Federal aid. It would have been a lot harder to 
pay for school. I mean, that is a big chunk money to pay for, 
you know, tuition and fees. And so, I think I would have still 
been OK with Federal aid, but the tuition and fee waiver is 
tremendous.
    Mr. Cardin. I understand that Connecticut has a requirement 
that you have to save some money?
    Mr. Rollins. Fifty percent of your check, income.
    Mr. Cardin. Are you doing it?
    Mr. Rollins. To some extent. [Laughter.]
    Mr. Cardin. You are like all of us, huh? We are trying to 
help you save. How about the others? Are you able to save any 
money?
    Ms. Nelson. Yes. I really don't have a choice, I mean. I 
really think it would be great if we had something like that. 
It would make us.
    Mr. Cardin. Ms. Miller, are you able to save any money?
    Ms. Miller. Yes, I am.
    Mr. Cardin. Pardon?
    Ms. Miller. Yes.
    Mr. Cardin. Good. Well, that is important. We want you to 
continue. They are good life skills to realize there are going 
to be times that you are going to have to go into that savings. 
And we expect that we are going to make it easier for you to do 
that.
    Again, let me just thank you all for being here and sharing 
your experiences with us.
    Chairman Johnson of Connecticut. Mr. English.
    Mr. English. Thank you. And welcome. All of you are the 
product of different, Independent Living Programs. What would 
you say was the most important single skill you got out of that 
participation?
    Ms. Miller, is there one single skill that you particularly 
prize that you got from participating in this program?
    Ms. Miller. Well, New Pathways has helped me to accomplish 
my goals or to try to reach them.
    Mr. English. A focus, maybe?
    Ms. Miller. Yes.
    Mr. English. What about you, Mr. Rollins. What was the most 
important single skill you got?
    Mr. Rollins. Budgeting.
    Mr. English. Budgeting.
    Ms. Nelson.
    Ms. Nelson. I would imagine budgeting would probably be the 
best skill they taught me.
    Mr. English. Great. Is there anything that you would change 
or add to these programs, just off the top of your head? Ms. 
Miller. Beyond your previous testimony?
    Ms. Miller. Yes. I would add to the program that if we have 
children, that they would allow us to have overnight weekend 
visits.
    Mr. English. OK.
    Mr. Rollins.
    Mr. Rollins. I probably would change the classes, like I 
said before: start at an early age. Try to keep siblings 
together too, because, as it happens, they are always split 
apart from each other.
    Mr. English. Ms. Nelson, you have already given some ideas 
of how you would like to see changes, do you want to 
encapsulize them or add anything?
    Ms. Nelson. Yes. I really think volunteers could make a 
huge difference in Independent Living Programs. And I never met 
a volunteer until after I graduated from high school, until 
after I left the foster care system. And it just kind of gave 
me a sense that someone is really going to stay there and help 
because if people are being paid to work in the system, you 
realize that when you turn 18 they are just going to move on to 
the next child; whereas, if a volunteer was part of PAL or any 
other Independent Living Program, then they would stay with you 
for the rest of your life if you both chose.
    So, I think that is a huge--that would make a huge impact.
    Mr. English. That is well said. And, again, I appreciate 
all of you taking the time to come and share these thoughts 
with us.
    Madam Chair, I will yield back the balance of my time.
    Chairman Johnson of Connecticut. Thank you.
    Mr. Watkins.
    Mr. Watkins. Thank you, Madam Chair. I want to share with 
the panel that I agree with the other Members of Congress who 
congratulated you on being articulate and expressing yourself. 
I think my colleague from Maryland expressed it. When I was 
your age I don't think I knew what a Congressman was, let alone 
come before Congress and testify.
    But on the last question Mr. English asked. Would you 
consider being a volunteer?
    Ms. Nelson. Oh, definitely.
    Mr. Watkins. After you finish up, you get into the 
mainstream? I think you can have a great influence because 
you're articulate individuals and through the program you have 
gained a lot of experience that you can express and share. It 
goes right back to realizing you are a volunteer. You are a 
volunteer. You have gone through the program, so to speak, and 
you have had good results. Do you feel that strongly about it?
    Ms. Nelson. I do. I think, especially, I think we would be 
especially good volunteers because we have been through it. And 
I think we could contribute so much more.
    Mr. Watkins. I would like to encourage you to do so. I 
would like to encourage you also not to sell your life short. 
Mrs. Johnson was discussing your career. I'm a father of a 
foster child. My wife and I had our homes licensed for a number 
of years, and whatever money we received from the State DHS, we 
kept their dollars in reserve to help each foster child go 
through school. For 11 or 12 months and we had a young lady 
named Sally that came to us, and we ended up adopting her. She 
is 15 years of age. She was part Cherokee Indian. And she has 
been a real blessing.
    I thought as a daddy--now, all you ladies don't get this 
wrong, all right--but I thought as a daddy when she got ready 
to go to college, she should go and major in home economics, 
you know. [Laughter.]
    She couldn't go wrong, right? As a daddy, she couldn't go 
wrong with home economics. Sally came home her freshman year 
from college and she said, ``Daddy, if you don't let me major 
in agriculture, I'm going to quit.''
    I didn't know what she was going to do in agriculture as a 
young lady. However, I'd like to share with each of you that 
Sally is a very professional woman in her own right. She is a 
lover of horses. She has given us our first grandchild, named 
Rena Cheyenne, and I am very proud of her. She is very, very 
professional and doing well in her life. And I just want to 
encourage you. She can share a great deal as well as a lot of 
you can along the way.
    And so when you think about the program you have, I hope 
you will share it with others because each of you can be a role 
model to help others in life.
    You may not have your career just picked out right now, but 
I encourage you to go ahead and to continue to seek a 
direction, a career. Hey, I majored in agriculture myself, you 
know. Here I am from U.S. Human Resources Subcommittee here in 
the program, but through the experience I have had in foster 
care programs or other programs--and they have advanced now a 
whole lot since our Sally came along.
    And so, Madam Chair, I am impressed with these young 
people, and I think they can have a tremendous positive 
influence on the lives of a lot of other people as they walk 
through life.
    Thank you.
    Chairman Johnson of Connecticut. Thank you very much. I 
want to just ask one closing question. You know, the proposals 
we have before us suggest two different courses. They are not 
mutually exclusive, but I just wonder what you think about 
them? Some of the programs in the States do provide stipends, 
not with Federal money but with State and other money, and 
certainly we are going to look at that, opening up the law so 
that the money in the Independent Living Program can be used 
for stipends. But there is also the suggestion that it might be 
used for foster care payments, where the foster care family and 
the young person want to stay together so the young person can 
continue to live in that home until 21.
    Now, do you think those alternatives are equally valuable?
    Ms. Miller. Yes.
    Mr. Rollins. Yes.
    Chairman Johnson of Connecticut. Well, for instance, if you 
could have stayed at Domus?
    Mr. Rollins. Domus, yes.
    Chairman Johnson of Connecticut. At Domus from 18 to 21, 
which I guess you couldn't, right?
    Mr. Rollins. No.
    Chairman Johnson of Connecticut. Yes. Would that have been 
a good thing to do, and over not the whole number of years, but 
not having the hammer of age 18 as a cut-off--being able over 
those years to transition more slowly from a foster care 
setting? Is that useful?
    Mr. Rollins. It would have worked. And it would have been 
easier to save money, too, that way. And I would have less 
bills to pay that way and more time to develop myself too.
    Chairman Johnson of Connecticut. Right.
    Ms. Nelson. I think it all depends on the situation. I 
don't think all foster kids are just--you know, there are those 
foster kids that are ready to get out of the system. They are 
ready to go live in the dorm at college. And I think those 
maybe should be separated from those that really need the time 
to adjust.
    Chairman Johnson of Connecticut. Right.
    Ms. Nelson. So I think it would be a good thing to have the 
choice to stay, but I think it really all depends on the foster 
parents and the relationship with their foster child.
    Chairman Johnson of Connecticut. Well, hopefully, you don't 
want the State making this decision for you, and you certainly 
don't want us making it for you.
    Ms. Nelson. Right. I think there should be an option. If 
it's there at 18, you are free to leave, but if you need to 
stay--especially, you know, if you are in college and, like she 
was saying, the previous speaker, if they do need somewhere to 
stay, you know, for the holidays that option is there.
    Chairman Johnson of Connecticut. Were you nervous about 
testifying today.
    Ms. Miller. Yes.
    Chairman Johnson of Connecticut. Well, let me tell you. I 
am glad you were nervous because I still get nervous before 
every debate and every major speech I make. And you know what, 
if I didn't get nervous, it would be time to quit. Because you 
don't do your best work unless you are a little nervous. It is 
like before a football game or any other thing. You gotta get 
up for it.
    So I am glad you were nervous, I'm glad you were worried, 
and I want you to know you did very, very well. And we thank 
you.
    Ms. Nelson. Can I say one more thing? I think on top of 
volunteering and the importance of filling out financial-aid 
forms, I think PAL really needs to stress the importance of 
private scholarships because the Orphan Foundation of American 
truly has been a godsend to me. They are the only private 
scholarship organization that helps foster children, the only 
one. And I really think the word really needs to be spread 
because if they are the only one, then they should be 
contacted. All foster children should know about them.
    So I think it is very important until other organizations 
can go along with them. I think there needs to be at the age of 
18 it doesn't just stop even though PAL can lead you up to that 
age, but the Orphan Foundation leads you right into college, 
and they are there for you, and they have been very, very 
important to me.
    Chairman Johnson of Connecticut. That is a very important 
point to make. And we will take that to heart. It has also been 
interesting to me how you have developed by being involved in 
other organizations through the foster care system, and getting 
into student leadership positions. Not only do we not do enough 
to show you ways to volunteer in your community and thereby get 
exposure to career alternatives, but also we need to make sure 
that as young people you do get the chance to get involved in 
organizations through which you do have leadership 
opportunities.
    And I have been very impressed with the work that the 
Orphan Foundation does to offer leadership opportunities and to 
help you develop. And to give you that week here in Washington, 
and all the other things they do.
    And then, Mr. Rollins, all the wonderful experience you 
have had on the youth advisory board.
    So I think those things are very important to make sure the 
program pushes those barriers for you.
    Thank you very much for your testimony today.
    Now we will bring forward our last panel. Robin Nixon, the 
director of Youth Services of the Child Welfare League of 
America; Sharyn Logan, the deputy director of the Bureau of 
Specialized Programs at the Department of Children and Families 
of Los Angeles; Don MacAllister, the founder and president of 
Orange County/California Works from Irvine, California, Bill 
Young, the commissioner of the Vermont Department of Social and 
Rehabilitation Services, on behalf of the American Pubic Human 
Services Association; William Pinto, the adolescent services 
coordinator, Department of Children and Families, Hartford, 
Connecticut, and Kevin Garvey, community relations manager, 
UPS, United Parcel Service, Laurel, Maryland.
    Oh yes, I am just going to remind you that your entire 
statement will be included in the record, and we would like to 
encourage you to keep your remarks to 5 minutes. The yellow 
light will tell you when you have 1 minute left, and the red 
light means that your time is up.
    We do hope to have time for you to add anything that you 
really feel an urgency to say thereafter. But in order to have 
time to question, I would appreciate your observing the 5-
minute rule.
    So if we could start with Ms. Nixon.

   STATEMENT OF ROBIN NIXON, DIRECTOR, YOUTH SERVICES, CHILD 
                   WELFARE LEAGUE OF AMERICA

    Ms. Nixon. Good afternoon, Madam Chairwoman, Mr. Cardin, 
other Members of the Subcommittee. Thank you for having me here 
this afternoon. I really appreciate the opportunity. Thank you 
for accepting my written statement, and please let it be 
entered in the record.
    I would like to talk this afternoon, however, I guess, from 
my own experience. If I were to describe myself in my role here 
today, I would say that I am a youth worker, and I have been a 
youth worker for almost 20 years. I have worked in residential 
programs out in the woods with teenaged boys. My husband and I, 
when we were first married, worked as live-in house parents to 
abused and neglected girls.
    And most recently, I started and ran a transitional living 
program for homeless youth in northern Virginia.
    Since I have come to the League, I have had the opportunity 
to talk to hundreds of youth-service providers all over the 
country every day about the challenges confronting young people 
as they leave foster care.
    It is a critical issue, and we have a lot of information 
here today about the discouraging outcomes for many of the 
young people who leave foster care. On the very last page of my 
written testimony, there is a chart that describes some of the 
research that we have available.
    I think I would like to follow on part of a theme that I 
have picked up here so far today that the young people that we 
are talking about are so courageous, I have so much respect for 
them and what they have accomplished. I know so many young 
people today that I worked with 9 years ago or 10 years ago 
that I am still in contact with and who can still consider me a 
person who is there for them and who supports them.
    So that tells me that when you ask what the priority is for 
these young people, it is having connections that are there for 
them for their whole life. That can make the difference between 
making it or not.
    When you talk about priorities for young people who are 
leaving care, we need to really put housing up front. A young 
person's ability to learn independent living skills, to learn 
employment skills, to complete their education really can't be 
met unless they have a roof over their heads and a place to 
call home during that time.
    We need to help young people finish their education. As 
many people have pointed out here today, we would never expect 
our own sons and daughters to leave our homes and be completely 
self-sufficient at 18. Most young people still are in school at 
18 and really need the time and opportunity with concrete 
support from the foster care system during that time.
    We spent quite a bit of time today discussing independent 
living skills versus the foster care maintenance support that 
young people can receive. Independent living skills are 
available through the Independent Living Program, but there is 
no support for room and board, obviously, or for the types of 
programs, like the Pathways program or the apartment program 
that Mr. Rollins participates in.
    Those can really make a tremendous difference to young 
people who are trying to make it.
    The transitional program for homeless youth is an excellent 
model for what needs to be there for young people as they leave 
foster care. This very small program, there are only 78 of them 
nationwide, represent a safety net for those young people who 
do become homeless after they leave foster care.
    If that program were opened up to young, completely opened 
up to young people to directly transition from care, it would 
have to be tremendously expanded because it cannot meet the 
current requests for services from young people who are 
homeless and not part of the foster care system.
    The Independent Living Program itself is one of tremendous 
flexibility, that's both its greatest strength and its greatest 
weakness. States are able to apply those funds to provide 
services to young people 16 and all the way up to 21 in ways 
that they feel will best meet the needs of their young people. 
However, this may mean in some places that young people attend 
a conference once a year, and that is considered meeting their 
independent living requirement.
    So there needs to be some more accountability for that 
program.
    As far as extending IL services to children younger than 16 
years, young people need to learn independent living their 
whole life. I know that my daughter started saying, ``I can do 
it myself,'' at 4. And I started paying attention to that at 4.
    For the young people who are in foster homes or in other 
residential settings, we need to integrate independent living 
as part of everything we do, just like we do counseling, like 
we do parental training, like all the other services that we 
provide.
    However, the limited amount of money in the Independent 
Living Program should be emphasized for use with those older 
kids who are going to be on their own fairly soon. I really 
think that H.R. 671 is a great starting place for providing the 
support that these young people need and deserve, and I really 
look forward to working with you over the course of the next 
months to get something done.
    And I would like to thank Nick Gwyn and Ron Haskins and 
Cassie Bevan for all their effort and just tremendous 
cooperation and ability to work with us folks out in the field.
    Thank you.
    [The prepared statement follows:]

Statement of Robin Nixon, Director, Youth Services, Child Welfare 
League of America

    Good afternoon Madam Chairwoman and Members of the 
Subcommittee. My name is Robin Nixon and I am the Director of 
Youth Services at the Child Welfare League of America. CWLA is 
an association of more than one thousand public and private 
non-profit community based agencies that serve more than three 
million children, youth, and families each year all across the 
United States. Virtually all of CWLA's member agencies provide 
foster care and other services to teens who can not live safely 
at home with their families or who are homeless. Over 500 of 
our members provide specialized independent living and other 
transitional support to young people who will not be returning 
to a family and who will be on their own once they leave care. 
On behalf of our members, and on behalf of the more than 
500,000 children and youth in foster care at this very moment, 
I thank you for the opportunity to testify at this hearing on 
the challenges confronting older children aging out of foster 
care.
    I have worked with young people for nearly twenty years. 
I've worked as a counselor for abused and neglected youth 
ranging from 8 to 18 years old living in residential group care 
facilities. My husband and I spent several years as live-in 
houseparents to teenage girls in foster care. I have started 
and run a transitional living program for homeless youth. Since 
1994, my work at CWLA has included supporting program directors 
in designing and implementing youth programs, training social 
workers, foster parents, and youth workers, and developing 
resources for the field of child welfare around youth issues.
    I have a tremendous amount of respect for the many young 
people who have successfully endured the many hardships of 
abuse and neglect, abandonment, and being placed in lots of 
different foster homes. Children and youths who have been 
abused and neglected and removed from their homes are wards of 
the state. I believe that we have a responsibility to offer 
them the support they need to lead healthy, productive lives as 
adults. What I see today is that we are failing these young 
people. We can and must do more to assist youths in foster care 
make a safe, successful transition to adulthood.
    As a youth worker, I encountered young people who were 
experiencing tremendous challenges to self-sufficiency and to 
their very survival. I often asked myself how in the world we 
could expect these teens, who were barely old enough to drive, 
and many of whom were just finishing high school, to be 
emotionally and economically self-sufficient. Many of the young 
people with whom I worked left foster care at 18 and had been 
out on their own for a year or two: despite every effort to 
stay employed and make enough money to live on, they found 
themselves homeless and with no where to turn. As a youth 
program director, I was frustrated by the lack of support that 
communities offer these young people.
    Adolescents constitute a major segment of the youngsters 
the child welfare system serves. Most youths enter out-of-home 
care because of abuse, neglect, and exploitation. Others have 
run away from home or have no homes. Like our own sons and 
daughters, youths in out-of-home care need assistance to make 
the transition to independence. Vulnerable young people in 
foster care need special help and support. They have histories 
of significant abuse, neglect, and multiple placements that 
greatly compromise their prospects for successful independence. 
These teenagers often find themselves truly on their own, with 
few, if any, financial resources; limited education, training 
and employment options; no place to live; and little or no 
support from family, friends, and community. The resulting cost 
to the youths themselves, their communities, and society at 
large is unacceptably and increasingly high.
    Talking with people all over the country every day, I see 
that I am only one of many people asking this question: why 
wouldn't we, as communities acting in the capacity of parents 
to these children, ensure that adequate resources were invested 
in their transition to adult life? We have all seen the many 
news articles, media reports, and research studies that make 
the situation painfully clear. We must do more to support our 
nation's foster children during these challenging years. Most 
importantly, what young people themselves have to say about the 
transition to adulthood should guide our actions and motivate 
all of us to work together for positive change.

             WHO ARE ADOLESCENTS AGING OUT OF FOSTER CARE?

    <bullet> At the end of 1996, there were 530,912 children 
living in out of home care, family foster care, kinship care, 
or residential care.\1\
---------------------------------------------------------------------------
    \1\ Child Welfare league of America. (1998). State agency survey. 
Washington, DC: Author.
---------------------------------------------------------------------------
    <bullet> Currently, teens represent approximately 30 
percent of the foster care population.\2\
---------------------------------------------------------------------------
    \2\ Child Welfare League of America. (1998). State agency survey. 
Washington, DC: Author.
---------------------------------------------------------------------------
    <bullet> Each year, over 20,000 of these older youths ``age 
out'' of foster care and must make the transition to self-
sufficiency.\3\
---------------------------------------------------------------------------
    \3\ Cook, R. (1992). A national evaluation of Title IV-E foster 
care independent living programs for youth, phase 2 final report. 
Rockville, MD: Westat, Inc.
---------------------------------------------------------------------------

         PROBLEMS FACED BY ADOLESCENTS AGING OUT OF FOSTER CARE

Safety

    Young people who age out of the child welfare system are 
not safe. They experience great risk in terms of their 
emotional, economic, and physical safety. They are more likely 
to become homeless, to experience early parenthood, and to be 
victims of violence than their mainstream peers. Less than half 
will have graduated from high school before leaving foster 
care, and few will have the opportunity to attend college. This 
constellation of challenges to safety and economic opportunity 
creates a formidable barrier to young people forced to make it 
on their own.
    Young people themselves report that the transition to 
independence and the expectation of self-sufficiency is often 
very rapid, sometimes unplanned for and unexpected, and results 
in their feeling ``dumped'' by the system that cared for them.

Permanence

    Loss of family connections and multiple foster care 
placements hinder the ability of foster youth to achieve 
permanence. Many people believe that adolescents are not 
adoptable and that children over twelve years old are seldom 
adopted. The reality is that thousands of teens are adopted. 
Adoption, however, is not an option for many young people. We 
must acknowledge the reality of independence for over 20,000 
emancipating teens each year who carry the burden of family 
rejection and multiple placements with them into adulthood, and 
may experience difficulty in attachment to others and to the 
community as a result. No matter what the permanency goal is 
for a teenager, each foster youth will eventually take on the 
responsibilities of independent adulthood; all of them need 
extra support and assistance in order to succeed.
    Young people report that they need relationships with 
people who care about them and who are there for them 
consistently. They say that support and services offered during 
the critical transitional years make all the difference in the 
world to helping them make it on their own.

Well-Being

    Young people must develop positive personal and social 
functioning, and must have access to health services, 
education, and employment to achieve successful adulthood. The 
experiences that result in children being placed in foster 
care, as well as the experience of foster care itself, can 
create barriers to achieving well-being in any or all of these 
areas.
    Young people who have left the foster care system say that 
disruptions in education caused by early emancipation, 
insufficient preparation for the workplace, lack of access to 
health care, and the immediate struggle for day to day survival 
after leaving care make planning and even hoping for a good 
future very, very difficult.
    When I talk to you about the challenges facing these young 
people, I am not just talking about faceless statistics: I am 
talking about young people whom I know and care about, like my 
friend Rose. Rose was in foster care for most of her life, and 
was living in a group home when she turned 18 and had to leave 
the program. She is an articulate, caring, intelligent young 
woman, and I met her because she was volunteering at the youth 
agency where she had last been cared for so that she could help 
other foster youth. At the same time, she was struggling 
desperately to balance a job, a place to live, and going to 
college. I remember talking to her last winter and finding out 
that she had been sleeping every night on the bathroom floor 
because that was the only place the heat worked in the 
apartment she was living in. I remember her asking me if she 
should drop out of college and just work because she was so 
tired and having trouble keeping up with class work. It's young 
people like Rose that deserve more of our support and effort to 
ensure that they have a chance to attain positive life goals.

              Attachment One: Summary of Outcomes for Youth Formerly Served By the Foster Care System Child Welfare League of America 1999
--------------------------------------------------------------------------------------------------------------------------------------------------------
              Study                  Homelessness          Education          Employment         Incarceration     Early Parenthood    Cost-to-Community
--------------------------------------------------------------------------------------------------------------------------------------------------------
Barth (1990)....................  30% reported        At follow-up, 45%   75% were working,   31% of youth had    40% reported a      Almost 40%
This study documents the           having no housing   of 21 year olds     with an average     been arrested       pregnancy since     received AFDC or
 experiences of youth who          or having to move   had completed       income of           while 26% had       discharge, most     general
 emancipated from foster care..    every week..        high school.        $10,000..           served jail time..  were unplanned..    assistance funds.
Cook (1991).....................  25% reported at     54% had completed   38% maintained      No data reported..  60% of the women    40% were a cost to
The study examined the impact of   least one night     high school..       employment for                          had given birth..   the community.
 independent living services on    of homelessness..                       one year..
 enhancing the ability of foster
 youth to be self-sufficient,
 2.5 to 4 years post-discharge..
Alexander & Huberty (1993)......  The average number  27% had some        49% were employed,  Almost 42% had      No data reported..  14% received
The study was conducted with a     of moves during     college or          compared with 67%   been arrested.                          assistance in the
 sample of former foster youth     the last five       vocational          of 18-24 year                                               form of food
 from The Villages in Indiana,     years was 7.4..     training..          olds in the                                                 stamps, general
 with an average age of 22 years.                                          general                                                     assistance, and/
                                                                           population..                                                or AFDC.
Courtney & Piliavin (1998)......  12% reported        At 12 to 18 months  50% were employed,  18% experienced     No data reported..  32% received
The study looked at foster youth   living on the       post-discharge,     & the average       post-discharge                          public
 transitions to adulthood, 12 to   street or in a      55% had completed   weekly wage         incarceration.                          assistance.
 18 months post-discharge..        shelter since       high school..       ranged from $31
                                   discharge..                             to $450..
--------------------------------------------------------------------------------------------------------------------------------------------------------


                   PROGRAMS AND PRACTICES THAT HELP 

    There are existing policies, programs and services at the 
federal, state and community levels that make a difference for 
emancipating foster youth and for youth who have left the 
foster care system. We must be able to extend these critical 
services and replicate successful program strategies in order 
to ensure that all youth leaving foster care have the 
opportunity to succeed. Expanding the time over which services 
can be delivered to age 21 would make it possible for more 
youth to be served by these and similar programs.
    Some states have implemented policies for serving youth 
over 18 that include guiding criteria for a discharge plan and 
services to be delivered during the transitional period. The 
Commonwealth of Massachusetts and the states of Michigan, 
Maryland and New York have all established policies to ensure 
that many youth needing services beyond age 18 will receive 
them, and that emancipation occurs with support. More states 
must be encouraged and supported in establishing similar model 
policies that help youth emancipate safely. California, for 
example, which serves over 100,000 foster children each year, 
is only able to offer support through age 18.
    Improved policies and extended services have resulted in 
more successful outcomes for children who emancipate from the 
foster care system.
    <bullet> One of the few available research studies to 
capture post-emancipation experiences of foster children was 
conducted by the Westat corporation in 1989-1990. This study 
showed that youth who received support in order to attend post-
secondary educational and vocational programs were more likely 
to obtain living-wage employment. Youth who received extended 
assistance were also less likely to become pregnant as 
teenagers, less likely to become involved in the criminal 
justice system, and less likely to become homeless or to join 
the welfare rolls after leaving care.\4\
---------------------------------------------------------------------------
    \4\ Cook, R. (1992).
---------------------------------------------------------------------------
    <bullet> In New York, the Children's Village's Work 
Appreciation for Youth (WAY) Scholarship program offers work 
experience, individual counseling, work ethics training, 
tutoring, financial incentives for saving, and a five-year 
commitment to teenagers in foster care. Over the past 15 years, 
this program has provided comprehensive support to the highest 
risk foster youth in residential treatment. Longitudinal 
evaluation of the one-to-one support and intensive aftercare 
provided by WAY has shown that more than 75% of participants 
graduate from high school or complete a GED, and over half go 
on to post-secondary education. It is important to note that 
foster youth enrolled in this program usually need more than 
four years to complete secondary education. WAY Scholars have 
very low rates of arrest in early adulthood (8%), and none of 
the 300 youth who have been through the program is on 
welfare.\5\
---------------------------------------------------------------------------
    \5\ Children's Village, Evaluation of WAY Program.
---------------------------------------------------------------------------
    For less than ten dollars per day per youth, WAY makes a 
substantial difference in young people's ability to complete 
high school, obtain living-wage employment, and achieve a safe, 
successful transition to adulthood.
    <bullet> The Workforce Strategy Center in New York has been 
working with communities all over the U.S. to strengthen 
support for disadvantaged youth to complete high school and 
attend post-secondary educational programs. Their research has 
shown that even one to two years of community college can make 
the difference between economic self-sufficiency and 
poverty.\6\
---------------------------------------------------------------------------
    \6\ Gruber, D. (1999). Education Pays. The Workforce Strategy 
Center: New York, NY.
---------------------------------------------------------------------------
    <bullet> Dr. Edmund Mech, a researcher specializing in 
studies of older children in foster care, was able to 
demonstrate that young people who participate in supervised 
apartment-based independent living programs are more successful 
in learning independent living skills.\7\ We need more 
apartment programs, like the one operated by Lighthouse Youth 
Services in Cincinnati, that give foster youth a chance to 
learn and practice skills in real-life settings. The Bridges 
program in Los Angeles also offers apartment living, 
counseling, and life skills training to young people both 
before they leave foster care and for some time after. To 
complete the web of support, we need programs like Living 
Independently for Tomorrow (LIFT), run by Residential Youth 
Services in Alexandria Virginia, that offer transitional living 
services to youth who find themselves homeless after leaving 
foster care.
---------------------------------------------------------------------------
    \7\ Mech, E., et al. (1994) Life skills knowledge: A survey of 
foster adolescents in three placement settings. Special issue: 
Preparing foster youth for adulthood. Children and Youth Services 
Review, 16 (3-4), 181-200.
---------------------------------------------------------------------------
    <bullet> Programs like the California Youth Connection, the 
Independent Living Youth Advisory Board in Maryland, and the 
Foster Care Youth Partnership in New York City provide crucial 
opportunities for youth to participate in developing 
independent living programs and to have their voice heard about 
the issues that concern them. Opportunities for youth to be 
involved in these activities not only give them a chance to 
learn important leadership skills, but also contribute toward a 
stronger system of foster care and independent living services 
in the state.
    <bullet> Young people report that family or family-like 
ties are critical, even if they are unable to live with family 
members. Services that help establish lifetime connections, or 
that support re-establishing or strengthening family ties are 
an important part of a comprehensive approach to supporting 
emancipating youth. Examples of promising programs in this area 
include a demonstration project funded by the Department of 
Health and Human Services that was implemented by Four Oaks of 
Iowa in Cedar Rapids. This program helped young people who were 
unlikely to return home establish strong youth-adult 
relationships with either extended family members or another 
involved adult. Another promising practice has been modeled by 
the Casey Family Program and Casey Family Services, both of 
which provide family foster care and commit to serving and 
maintaining relationships with foster youth up to at least age 
25.
    <bullet> Young people say that an adult mentor who is there 
for them when times get tough, and who is a consistent source 
of support, make one of the most important contributions to 
their ability to achieve successful adulthood. My friend Alfred 
in California can attest to the truth of this. For several 
years, Alfred spent each Christmas walking back and forth 
across the Golden Gate Bridge--he did not have family to spend 
the holiday with. Since that lonely and difficult time, Alfred 
has become very close to the director of his independent living 
program, on whom he can depend for advice, support, and a seat 
at the table for Christmas dinner.
    Increasing interest and emerging proposals present a 
significant opportunity for us to work together and effect 
changes that will make a positive difference in the lives of 
our foster youth--and that will help to create a future where 
they have the chance to make a difference in the lives of 
others.

                      CWLA POLICY RECOMMENDATIONS

    The federal government plays an important role in ensuring 
that young people exiting foster care make a successful 
transition to adulthood. Congress passed the bipartisan 
Adoption and Safe Families Act in 1997 to ensure that more 
children in foster care would have safe and permanent homes. 
While most children and youths in foster care can eventually 
return to their biological families, many can not. ASFA makes 
it easier for many children to move more quickly into permanent 
adoptive homes or other permanent living arrangements. 
Adoption, however, is not always possible for many older 
children in foster care. Congress should now address our 
obligation to these youths. We should do all that we can to 
help these youths achieve self-sufficiency.
    The ``Transition to Adulthood Program Act of 1999,'' H.R. 
671, recently introduced by Rep. Ben Cardin (D-MD), addresses 
many of the issues. We support this bill and urge Congress to 
pass this bill this year. This legislation offers access to 
critical foster care maintenance and other supports to youths 
up to age 21; makes assistance available to promote education, 
training or employment; promotes interagency collaboration to 
advance self-sufficiency of youths aging out of foster care; 
updates funding resources, asset limits and the distribution 
formula for the Title IV-E Independent Living Services program 
and provides tax credits to employers who hire former foster 
children.
    President Clinton's budget also address the needs of these 
youths. The budget proposes $280 million in new funding over 
five years to support an initiative to help the more than 
20,000 children who reach age 18 and leave foster care each 
year. The Administration's initiative would increase funding 
for the Title IV-E Independent Living program, establish a new 
competitive grant program for states to help youths with their 
living expenses, increase support for the Runaway and Homeless 
Youth Transitional Living Program and give states the option of 
providing Medicaid coverage to children leaving foster care up 
to age 21. We support the Administration's initiative and think 
it takes a major step in the right direction.
    We are grateful that both the Administration and Congress 
have begun to address the needs of these youths. Our 
recommendations outlined below support additional resources and 
other improvements to better address the needs of these young 
people.
    The Child Welfare League of America recommends that all 
states extend Title IV-E assistance to youths up to age 21.
    Current policy for Title IV-E Foster Care Maintenance and 
Administration allows reimbursement to the states for eligible 
youth up to age 19. Medicaid coverage for children receiving 
foster care assistance generally ends at age 18. Many foster 
youth are forced to leave care at age 18, while they are still 
in high school, because they will not graduate by their 19th 
birthday. Many others find themselves unable to sustain stable 
housing and employment because they do not have any adult 
support during these critical years.
    In order to ensure that young people have a fair chance to 
achieve productive citizenship, we must invest in their care 
during the transitional years. An extension of Title IV-E 
assistance would result both in reduced human cost for youth 
who are abandoned by their only source of support and in 
reduced financial burden to the homeless, welfare, mental 
health, and health systems. This extension would also ensure 
that these youth would maintain their Medicaid eligibility.
    <bullet> H.R. 671, the Transition to Adulthood Program Act, 
gives states the option of extending Title IV-E assistance to 
former foster youth up to the age of 21 as long as they are 
working or enrolled in educational activities and have a plan 
to become completely self-sufficient. Funds could be used for 
programs designed to promote the education, training or 
employment of the child. At a state's option, these youths 
would maintain their eligibility for Medicaid.
    <bullet> The Administration's FY 2000 budget proposes a new 
capped mandatory program of competitive grants for states to 
support living expenses of youth who otherwise lose Title IV-E 
assistance at age 18. The proposal includes $5 million for FY 
2000 increasing to $20 million by 2003. The Administration's 
budget also provides $50 million to give states the option to 
extend Medicaid coverage for these youths up to age 21.
    CWLA recommends that funding for the Title IV-E Independent 
Living program be increased to match current foster care 
populations and to ensure that states have adequate resources 
to provide the skills training that young people must have to 
succeed.
    In addition to meeting children's basic needs for food, 
shelter, and care, we must ensure that young people receive 
training and support for acquiring the knowledge, skills, and 
attitudes needed for independence. Funding to meet this need 
has been available under the Title IV-E Independent Living 
program since 1987. This program provides specific support for 
independent living skill development, job training, and 
preparation for employment. This program has been shown to 
increase the ability of foster youth to manage their money, 
access community resources, and find a job.
    Funding for the Independent Living program, capped at $70 
million, has not kept pace with the population of youth 
eligible to receive the services. Current allocations to the 
states remain based on their 1984 population, and overall funds 
have not been increased since 1992. Increasing the funding for 
this program will allow services to be offered to more of the 
youth who are supposed to receive them. We support at least a 
50% increase in funding to the states for independent living 
services. Consensus exists to update the allocation formula for 
distribution of funds to states that takes foster care 
population changes into consideration. The current formula 
relies on figures from 1984 and does not meet the needs of many 
states which now serve many more youth. No state should lose 
funds through the reallocation process.
    In addition, funding should support the completion of 
longitudinal research to determine self-sufficiency outcomes of 
youth leaving care.
    <bullet> The Administration's FY 2000 budget proposal 
increases funding from $70 million to $105 million for the 
Title IV-E Independent Living program.
    <bullet> H.R. 671, the Transition to Adulthood Program Act, 
updates funding resources, asset limits and the distribution 
formula for the Title IV-E Independent Living Services program.
    CWLA recommends that funding for the Runaway and Homeless 
Youth Transitional Living program be increased so that those 
foster youth who do become homeless are able to get help when 
they need it the most.
    The Runaway and Homeless Youth Transitional Living Program 
provides critical safety net support services for homeless 
youth, including many foster care youths. Current funding 
allows 78 programs nationwide to provide a variety of services 
to homeless youth age 16 to 21, including residential care for 
up to 18 months; information and counseling in basic life 
skills; interpersonal skill building; educational advancement; 
job attainment skills; and physical and mental health care.
    The Administration's FY 2000 budget proposal to provide $20 
million for FY 2000 for this program, an increase of $5 
million.
    CWLA recommends that safe, stable, affordable housing be 
made available to each youth emancipating from care.
    No young person should be emancipated from foster care to 
homelessness. Forty percent of the nation's homeless are former 
foster youth. Young people who leave foster care and go to 
college should have access to housing during holidays and over 
summer breaks. Other youth who are still pursuing their high 
school education or who are entering the world of work should 
also have access to stable living arrangements during the 
transitional period. We recommend that the Department of 
Housing and Urban Development work in partnership with the 
Department of Health and Human Services to strengthen housing 
programs and services to help this vulnerable population of 
foster children. The investment of funds to support these youth 
through life skills programs, independent living programs and 
transitional apartment programs would more than pay for itself 
in reduced future dependence on government assistance.
    <bullet> H.R. 671, the Transition to Adulthood Program Act, 
promotes interagency collaboration to ensure that the housing 
needs of these youths are addressed.
    We strongly urge the Committee to take decisive action to 
help these young people right now. The challenges facing 
children and youths who emancipate from the foster care system 
are challenges that we have an opportunity and an obligation to 
help them overcome. It is in their best interests, and it is in 
the best interests of each one of us for young people to make 
healthy, safe, contributing transitions to adulthood. Thank you 
for all of your hard work so far, and we look forward to 
working with you as you consider this important legislation.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Ms. Logan.

 STATEMENT OF SHARYN L. LOGAN, DEPUTY DIRECTOR, DEPARTMENT OF 
     CHILDREN AND FAMILY SERVICES, LOS ANGELES, CALIFORNIA

    Ms. Logan. Good afternoon, Chairwoman Johnson and 
Subcommittee Members. Thank you for the opportunity to address 
you.
    I am not going to repeat what is in my statement, but I 
would like to focus on three programs that we have in Los 
Angeles County for emancipated and foster youth.
    The first program. In Los Angeles County, every year, 
approximately 1,000 youth emancipate from foster care. The 
first program I would like to talk about is our scholarship 
program.
    On the previous panel, one young lady was discussing 
scholarships in Texas. In Los Angeles County we guarantee that 
every child who emancipates from foster care who wants to 
attend college is guaranteed a scholarship. That was quite a 
promise and quite a commitment, and the way we meet that 
commitment is to raise private funds. We raise private money 
from United Friends of the Children; KLOS, which is a radio 
station, an ABC affiliate, which has helped us raise almost a 
quarter of a million dollars in scholarships for our young 
people, Wells Fargo Bank, the Teague Family Foundation and many 
others. We use our money and the ILP money as seed money to 
draw down other scholarship funds.
    And we have staff who spend a lot of time researching the 
available scholarships and college programs so that any young 
person in Los Angeles County who emancipates and want to go on 
to college is able to do so.
    The second program that I want to talk about is housing. As 
Commissioner Williams mentioned, you cannot use ILP money for 
board and care, and it was also just mentioned you cannot have 
a program for emancipated foster youths without housing.
    What we have done in this regard is to develop housing, 
including the first apartment building built just for the use 
of emancipating foster youth. Our partner in this has been the 
county Community Development Commission which acquires and 
rehabilitates property for us. The way we were able to do that 
is with two other sources of funding, which are very important. 
One is private dollars and the other is HUD money. We would not 
be able to do this without HUD. In 1992, we applied for and 
were granted a HUD grant for the needs of emancipating foster 
youth. And since that time, we have received 11 additional HUD 
grants.
    We also have raised, with United Friends of the Children, a 
tremendous amount of private money. The Weingart Foundation has 
donated almost $11 million just to deal with the needs of 
emancipating foster youth because we cannot use ILP money for 
that, and the kids must have somewhere to live.
    We actually own six apartment buildings within Los Angeles 
County, and we also rent scattered-site apartments. We consider 
that to be hands-on, independent living skills because once 
they get into their apartments, they have to actually put into 
practice what they have learned in those classes. And it is not 
easy, as the mother of a teenager, to teach teenagers how to 
plan a menu, how to prepare the meal, how to budget, how to do 
the laundry so your clothes don't all come out pink.
    But those are the practical lessons that we teach kids, and 
how to keep that apartment clean, which again, as the mother of 
a teenager, is not always that easy.
    We have children scattered throughout Los Angeles County. 
We have 200 beds for emancipated youth. They all have a 
roommate; they all must have a job; they can go to school if 
they like, but they must have a job; they also pay us 10 
percent of their income, whatever that is, for rent.
    And the reason for that is that we are trying to get them 
used to the idea of paying rent, and paying their obligations. 
At the end of their time in the program, which is up to 18 
months, we give them that money back as a savings account. They 
are also required to have a savings account into which they 
must deposit funds while living in our housing.
    We are very proud of that, and we have over 200 beds, as I 
said, in Los Angeles County, including an apartment building 
built especially for these youth.
    The third program that we have in Los Angeles County is an 
alumni resource center. As you heard the young people say 
before, it is very lonely when you leave foster care, even if 
you are in college, even if you are going to a vocational 
school. You still need a place to come that is yours, where 
people are still going to help you. And with money from the 
Weingart Foundation, we have an alumni resource center with an 
800-number. So no matter what happens, no matter how far they 
go or what happens, they can always call us toll-free and we 
will try to find them housing. We will help them with 
scholarships. We will help them with low-cost or free legal or 
medical care. Whatever they may need.
    So it is very important that we use private dollars and HUD 
dollars. I want to emphasize HUD has to be a partner on this. 
And they have been very useful to us.
    There were a couple of questions that were asked before 
about lowering the age for independent living services. We have 
a program, which is in my testimony, called Early Start to 
Emancipation which is for youngsters age 14 and 15. We do that 
with State money because they are not eligible for ILP funds. 
And what we have found is that you have to start before 14 and 
15.
    What that program focuses on is children who are 2 or 3 
years behind in their reading and math skills because if they 
can't read and they can't do math, they can't finish high 
school and they are not going to be successful.
    So we use that program to get them ready to go into the 
Independent Living Program.
    Thank you.
    [The prepared statement follows:]

Statement of Sharyn L. Logan, Deputy Director, Department of Children 
and Family Services, Los Angeles, California

                               BACKGROUND

    The Los Angeles County Department of Children and Family 
Services is responsible for over 65,000 children. Every year 
between 750 -1000 of these youth leave foster care because they 
have completed high school or turned age 19.
    The existing Title IV-E foster care program provides foster 
care payments to children who, for their own safety and 
protection, must reside in out-of-home care. While efforts are 
made to reunify them with their families or provide them with 
permanent alternatives to foster care, for some children, there 
are no options. Many youth must emancipate from foster care 
when they are no longer eligible for these Title IV-E funds.
    Title IV-E eligibility criteria is based upon two factors: 
age and attendance in high school. The specific eligibility 
requirements allow youth to receive aid after their 18th 
birthday so long as the youth continue to reside in foster care 
placement, and continue to attend high school or the equivalent 
level of vocational or technical training and the youth may 
reasonably be expected to complete the educational or training 
program before his or her 19th birthday.
    These youth come from homes which have been so neglectful 
or so abusive that they were unsafe for the children. 
Unfortunately, they are not model families. Some of these 
families are unstable, the parents unable to parent. The 
children, as a result, fall behind in their school programs. In 
still other situations, the youth have been moved from one 
placement setting to another, perhaps several times, another 
factor which contributes to their falling behind. Schools 
cannot accommodate these changes, transcripts get lost, 
children are not appropriately placed in classes at grade level 
until the records arrive, school district schedules may differ.
    The net result is that some youth do not graduate from high 
school before they turn 19. These youth are not allowed to 
remain in foster care even though we know that a high school 
diploma increases lifetime earning power seven fold and that it 
significantly decreases the youths chances of welfare 
dependency, homelessness and other negative outcomes.
    And oddly enough, in California, youth who are 
educationally handicapped may remain in high school until they 
are 21. But if you are a foster child and educationally 
handicapped, you would not be allowed to remain in foster care 
after you turn 18.
    We believe that the long term benefits of extending 
eligibility for foster care until these youth complete high 
school or an equivalent level of training, or turn 21, 
whichever comes first, has an incalculable payoff for the youth 
and for society. These are not the majority of our foster 
youth, they are only a small proportion. The investment would 
have a return that even Wall Street would envy.

                                PROBLEM

    1. Characteristically, youth in out-of-home care have 
histories of abuse, neglect and exploitation that compromise 
their abilities to live independently.
    2. For adolescents who are not psychologically ready for 
discharge from foster care, emancipation can be a time of fear 
and pain.
    3. This population has been found to be at high risk for 
poor outcomes as young adults.
    4. Adolescents in out-of-home care represent approximately 
35-40% of placement caseloads and often need assistance in 
making the transition from a dependency status to self-directed 
community living.
    5. These youth tend to remain in foster care for longer 
periods of time and increasing numbers plan to live 
independently, rather than return to families.
    6. Many of these children do not have the emotional or 
financial support of family that children not leaving foster 
care experience.
    7. Research has found that they experience deficiencies in 
areas of job preparation, money management, and finding a place 
to live.
    8. Often they lack financial, emotional and social support 
networks as well as consistent family ties.
    9. Studies have consistently found that many foster youth 
have emotional, behavioral, psychological and physical 
impairments that present obstacles to independent living and 
many need remedial training.
    10. The 1990 Westat Inc. evaluation of Independent Living 
Programs found youth exiting from foster care had a number of 
significant problems and needs that interfered with their 
ability to lead productive adult lives, including: lack of 
educational achievement; limited job skills and experience; 
physical and mental health issues; and housing needs.
    11. Homelessness and joblessness appear to be a frequent 
result of aging out of foster care, with as many as 30-40% of 
the homeless population having histories of foster care.
    12. Numerous studies and reports indicate that adolescents 
in foster care transition less well than adolescents not in 
foster care.
    13. Studies consistently demonstrate that failure to equip 
youth with the necessary skills for self-sufficiency increases 
risk for poor outcomes, including homelessness, joblessness, 
welfare dependency and incarceration.
    In summary, youth preparing for emancipation from foster 
care represent a high risk population with particular needs and 
deficits that make entry into adult society a serious 
challenge. However, we are capable of addressing many of these 
needs and deficits through focused transitional services 
related to education, employment and housing.

Los Angeles County Emancipation Program

    In Los Angeles County we believe that no youth should leave 
foster care without preparation for independence. We further 
believe that once youth age out of foster care our 
responsibility for their transition to independence has not 
ended.
    To make our beliefs a reality we have developed several 
programs. The development of these programs required us to 
develop new partnerships, strengthen existing partnerships, 
utilize our experience as parents, and most important--listen 
to our youth about their needs.
    The components of Los Angeles County's Emancipation Program 
are as follows:

            EARLY START TO EMANCIPATION PREPARATION (E-STEP)

    The goal of the Early Start to Emancipation Program (E-
STEP)is to motivate foster youth ages 14-15 to begin preparing 
for eventual discharge from the foster care system and to 
identify academic and life skills that need enhancement. 
Emancipation Preparation Advisors meet with youth and care 
providers to assess youth readiness for emancipation.
    Areas of assessment include basic skills and school 
performance, career goals, daily living skills, survival 
skills, and interpersonal skills and social development. 
Special events, such as ``Independence City,'' allow youth to 
practice these skills. In Independence City youth are given 
play money and must purchase everything they need to live, from 
housing to car insurance, in a lawful and orderly way.
    Important components of the E-STEP program are tutoring for 
youth who are three (3) years or more behind in math and 
reading levels and exposure to college campuses and various 
careers.
    This program is funded with State monies.

                              JOBS SECTION

    In January 1994, the Los Angeles County Department of 
Children and Family Services (DCFS) established a JOBS section. 
The primary focus of the JOBS section is job recruitment for 
emancipating foster youth. The staff in this section conducts 
Job Fairs throughout Los Angeles County and works with various 
County departments and private sector businesses to identify 
jobs for foster youth. Additionally, the Los Angeles County 
Board of Supervisors established a County policy whereby 5% of 
all unfilled entry level positions are filled by youth 
emancipating from foster care. This program also enrolls over 
1500 youth annually in federally funded youth employment 
programs such as Summer Youth Employment Program (SYEP) and 
L.A. Youth at Work.
    This program required the Department to establish 
partnerships with the primary Job Training Partnership Act 
(JTPA) agencies in Los Angeles County. Both the County of Los 
Angeles and the City of Los Angeles have allocated specific 
slots for summer youth employment jobs for foster youth.
    The goal is that every foster youth who emancipates from 
Los Angeles County has had two (2) work experiences. This 
provides the youth with a work experience, teaches them the 
value of work, how to manage money, how to deal with adults in 
a work environment, and how to integrate work into their life 
routines.

                 TRANSITIONAL HOUSING PLACEMENT PROGRAM

    This housing program is an innovative transitional 
placement alternative for youth under the supervision of the 
Department of Children and Family Services. This program is 
designed to further the goals of the Independent Living 
Program. It serves as a bridge to ensure foster youth are 
properly trained, learn how to achieve affordable housing 
arrangements to integrate into the community when emancipated 
from foster care. It targets 17-18 year olds in their senior 
year of high school. Youth selected for this program have 
demonstrated significant maturity in handling responsibilities 
in school and current placements.
    Participants in this program learn how to live with a 
roommate, cook, clean, shop for clothes and groceries, utilize 
community resource and learn skills that promote self-
sufficiency.
    Youths in this program live in apartments in the community 
which are supervised by community-based agencies under contract 
with the Department.
    This program is funded by a combination of State and County 
funds.

                       INDEPENDENT LIVING PROGRAM

    The Independent Living Program (ILP) is a federally funded 
program designed to assist and prepare youths with a history of 
out-of-home care, age 16 and older, in making the transition 
from dependency to adult self-sufficiency. ILP has become a 
linchpin in emancipation planning by linking DCFS teenagers in 
out-of-home care with resources that prepare them for 
responsible and productive adult lives.
    Independent living skill classes are integral part of this 
program. Each youth attends classes that focus on life-skills, 
self-esteem, handling past losses, and developing effective 
social skills. The 27 hour classroom curriculum is conducted on 
local community college campuses. These classes are conducted 
in a manner that is sensitive to the skill and developmental 
levels of the participants. ILP Coordinators refer youth to the 
departmental and extra-departmental programs that can provide 
special assistance, such as the JOBS Program, Transitional 
Housing Program, Job Corps, and the California Conservation 
Corps.
    Fees for college applications, pre-admission tests and 
special preparatory classes can be paid or reimbursed by ILP. 
As youth emancipate from foster care, ILP provides ongoing 
college and vocational school financial assistance for youth 
enrolling in post secondary training. ILP also supports foster 
youth and ex-foster youth organizations such as California 
Youth Connection in providing peer support, information, group 
activities, advocacy and referrals.

                        THE SCHOLARSHIP PROGRAM

    The DCFS Scholarship Program provides financial support to 
youth who complete high school requirements and wish to attend 
college and vocational schools. Consistent with the DCFS 
commitment to provide financial assistance to every youth who 
wants to attend college, this program is open to every youth 
who emancipates. Last year, we assisted over 500 youth with 
scholarship funding. This is the result of contributions and 
fund-raising efforts of many child advocates, including United 
Friends of the Children, Teague Family Foundation, Youth 
Opportunities United, KLOS-ABC (a local radio station), Wells 
Fargo Bank, Southern California Edison, and many others.

                      TRANSITIONAL HOUSING PROGRAM

    In 1989, a report by UCLA's School of Social Welfare Center 
For Child and Family Policy Studies indicated that of the 1,000 
foster youth emancipated from the Los Angeles County Department 
of Children and Family Services (DCFS) annually, 450 were at 
risk of becoming homeless. Under State regulations, foster 
youth are no longer eligible for services after the age of 18 
(age 19 if they are still in high school). With no family 
members to care for them and no resources, these youth usually 
ended up on the street.
    Foster youth enter the child welfare system as a result of 
being victims of abuse. The overwhelming response of child 
welfare agencies is to remove children from biological 
families. Often, these children are not returned to their 
families and are in essence reared by the government. Unlike 
real families, the government terminates this relationship when 
the youth turns 18 or 19. Without additional assistance upon 
termination from foster care, many of these youth join the 
ranks of the homeless.
    In response to this problem, in 1992, the Los Angeles 
County Department of Children and Family Services (DCFS), 
applied for and received the first Housing and Urban 
Development (HUD) grant awarded nationally for homeless foster 
youth. With the receipt of this grant, the Department also 
developed a unique partnership with the Community Development 
Commission (CDC), the local housing and redevelopment agency. 
DCFS has been awarded 11 HUD grants and renewals of the first 
two (2) HUD grants. CDC has purchased several apartment 
buildings for the exclusive use of emancipated foster youth.
    United Friends of the Children (UFC) Bridges, a volunteer 
non-profit organization, is an equal partner in the effort to 
solve the problem of homelessness among foster youth. In 1996, 
this collaboration between DCFS and UFC was enhanced by the 
addition of the Weingart Foundation. The Weingart Foundation 
awarded $10.7 million dollars to UFC Bridges to fund services 
to assist in solving the problem of homelessness among 
emancipated foster youth.
    The program provides housing and supportive services to 
emancipated foster youth who would otherwise be homeless or 
living in marginal housing situations. Residents live in 
apartments rented by the program or in buildings purchased and 
rehabilitated by CDC. Apartments are leased in safe areas with 
access to public transportation, shopping and grocery stores. 
The average age of the residents is 19.5 years.
    All residents are required to work, attend school or 
vocational training. No resident receives public assistance. 
Each resident pays 10% of their income as rent which is placed 
in a savings account and returned to the resident when they 
leave the program. Youth may stay in the program up to 18 
months. At the end of their stay, youth are assisted with 
finding affordable, permanent housing.
    Each youth is assigned a social worker who assists with job 
search, school enrollment, and use of community resources. The 
worker also helps the youth develop in the areas of food 
purchases, food preparation, laundry, house cleaning, job 
readiness skills, and finding affordable medical and dental 
care.
    This program utilizes the different but complementary 
skills of two public agencies, a volunteer non-profit 
organization and a private foundation to solve a visible and 
preventable social problem. This problem is the number of 
younger homeless on the street previously in foster care.
    Two public agencies without a tradition of working 
together, child welfare and housing, have come together to 
solve this problem. Both the non-profit sector and a private 
foundation are equal partners with the public agencies. Without 
the fund-raising ability of the non-profit partner and the 
foundation, this program would not be possible.
    The current and potential beneficiaries of this program are 
youth who emancipate from foster care but have no viable 
housing options. The program provides services to homeless 
young men, women and teen parents who are between the ages of 
18 and 21, who have recently aged out of the foster care 
system, who are or would otherwise become homeless.
    Youth in this program benefit from stable housing and 
supportive staff that provide age-appropriate support in 
several areas which include: educational and vocational 
attainment; employment opportunities; medical and dental care; 
individual and group counseling; and planning for permanent 
housing.
    The youth participants and Los Angeles County residents 
directly and indirectly benefit from this program. The direct 
benefit to youth is safe and stable housing with various 
supports for learning how to function self-sufficiently, 
independent of public assistance. Indirectly, youth develop 
competence is managing their own affairs and contributing to 
their communities.
    In a direct sense, the benefit to communities results from 
fewer homeless youths on the streets. Ongoing research by 
Children's Hospital of Los Angeles has found that 61% of the 
over 300 homeless youth interviewed in Los Angeles County 
reported having lived in foster care. Characteristically, many 
of these youth resort to crime, drugs, and reliance on public 
assistance for their survival. In an indirect sense, the 
examples provided by communities of working adults often serve 
as positive models for youth to emulate in constructing 
positive lifestyles. Both the youth and adult models benefit 
from the interaction.
    Since 1992, DCFS and United Friends of the Children-Bridges 
have raised over $20 million in federal and private funds, 
exclusively for the needs of emancipated foster youth.
    Since 1992, the County Community Development Commission has 
spent over $10 million to acquire and rehabilitate property for 
the exclusive use of emancipated foster youth.

                       THE ALUMNI RESOURCE CENTER

    The Alumni Resource Center (ARC) provides services to youth 
age 18-21 who have emancipated from foster care. ARC offers 
both ILP follow-up support and a drop-in center for computer 
access and specialized training classes. The goal of ARC 
services is to equip youth emancipating from out-of-home care 
with the skills and resources needed for self-sufficient adult 
living. The Alumni Resource Center provides ILP follow-up 
support services to youth who enroll in educational or 
vocational training.
    Services related to ILP follow-up are rendered on a need 
basis and may be offered up to age 21. These services include: 
staff outreach, college and vocational tuition assistance, 
financial assistance for school-related fees and supplies, 
clothing stipends, transportation fare assistance, and 
scholarships.
    The ARC is primarily funded by United Friends of the 
Children-Bridges through a grant from the Weingart Foundation. 
An important component is a five year longitudinal study 
conducted by the Research Center at the University of Southern 
California School of Social Work. This study will evaluate the 
program's effectiveness in preventing emancipated youth from 
becoming homeless, relying on public assistance, developing 
substance abuse addictions and related criminal behaviors, and 
practicing unhealthy and inappropriate sexual behavior. It will 
also seek to correlate several critical personal 
characteristics and skills of the participants with outcomes 
related to self-sufficiency.

                         POLICY RECOMMENDATIONS

    1. Continue Title IV-E funding until youth complete high 
school or equivalency on approved vocational program; or turn 
21 whichever comes first.
    2. Continue Medicaid funding until age 21.
    3. Encourage a partnership between the federal departments 
of Health and Human Services (HHS) and Housing and Urban 
Development (HUD) to develop joint Notices of Funding Activity 
for service-enriched housing for emancipated foster youth.
    4. Encourage the States with incentives to develop programs 
for pre and post emancipating foster youth.
    5. Increase the federal funding of the Independent Living 
Program (ILP) to allow for more services to youth. Make ILP 
services mandatory for youth.
      

                                <F-dash>


    Chairman Johnson of Connecticut. That's excellent. I am 
going to take Mr. MacAllister because he is supposed to be out 
there ready to go to the airport at 3:30, but since we are a 
full-service Subcommittee staff, we are also going to call the 
airline and see if his plane is going to fly. [Laughter.]
    Ms. Logan. Could you see if United is leaving for Los 
Angeles? [Laughter.]
    Chairman Johnson of Connecticut. Write it down, and we will 
check that because I think the chances are that they are not 
going out. So write down your flight number and we will do 
that.
    Mr. MacAllister.

  STATEMENT OF DONALD I. MACALLISTER, FOUNDER AND PRESIDENT, 
       ORANGE COUNTY/CALIFORNIA WORKS, IRVINE, CALIFORNIA

    Mr. MacAllister. Good afternoon. Thank you, Madam Chairman 
and Mr. Cardin for allowing me the opportunity----
    Mr. Cardin. You want to use that microphone?
    Chairman Johnson of Connecticut. Yes, sorry.
    Mr. MacAllister. Good afternoon, Madam Chairman and Mr. 
Cardin. Thank you for allowing me this opportunity this 
afternoon to present my view concerning independent living 
skills legislation. My name is Don MacAllister, and I was a 
foster care youth. I am now the founder and president of Orange 
County/California Works, which is a nonprofit youth employment 
network based in Orange County, California.
    I would like share briefly with you my experiences. My life 
was a struggle because of the death of my mother and other 
problems within our family. I was placed in foster care for 
about 6 years. After emancipation, I spent the next 2 years 
living life as a homeless person, and during that time I 
realized that the only chance for me to get out of that 
predicament was to find and keep a job.
    Because of these experiences, I have chosen to assist kids 
in similar situations so that they can successfully make the 
transition from foster care to productive living, to living a 
productive life. Again, as we have heard today, the statistics 
show that more than 50 percent of the kids that leave foster 
care become homeless, end up in prison, or apply for welfare. 
And 60 percent of the girls are becoming unwed teen mothers.
    This is sad.
    All these kids at this critical stage in their life, having 
to face this potentially dismal future. We as a society must do 
a better job. We must help foster teenagers become self-
sufficient.
    Clearly in life, there is a large set of skills necessary 
to succeed. My purpose here today is to speak about those 
skills which are in need of special emphasis.
    Based on my personal experiences and my current work, I 
believe it is imperative that employment-related skills be 
taught to all foster care teenagers. Those skills should 
include how to prepare for and conduct oneself during an 
interview, how to perform on the job, also, essential skills, 
such as computer and Internet literacy.
    We must help foster care teenagers have a chance to succeed 
in today's everchanging world.
    I propose that the independent living skills legislation be 
amended so that employment-related skills are taught to all 
foster care teenagers during the 2 years prior to emancipation. 
This will not only help these teenagers at this critical time 
in their life to be able to obtain a job, but it is also going 
to help them so that they avoid crime or becoming dependent on 
welfare.
    I'm also proposing that for-profit and nonprofit 
organizations receive independent living skills funds and 
thereby compete on equal footing so that they both may fully 
help foster care teenagers to make that transition.
    These additional changes will provide foster care teenagers 
and their caregivers with more choices for effective training, 
which can only be beneficial.
    My third proposal is that all independent living-skills 
providers be required to achieve certain performance standards 
to receive funds. This will provide incentives so that 
independent living-skills providers will operate more 
effectively and cost-efficiently.
    In my written testimony, the evidence is provided to 
demonstrate how effective and cost-efficient an alternative 
approach can be as embodied by the organization that I run, 
Orange County/California Works Youth Employment Network.
    By implementing these proposed amendments, not only will 
foster kids be assisted to make this--to be better prepared to 
make the transition, but significant and far-reaching impact 
will also result in the following areas: a reduction in welfare 
and other socially related costs, and a reduction in crime and 
costs associated with the criminal-justice system.
    Subcommittee Members, the benefits of these changes cannot 
be overstated and will help make our society a healthier and a 
better place to live in.
    Thank you, Madam Chairman and Mr. Cardin for allowing me 
this privilege of speaking before this honorable body today.
    Thank you.
    [The prepared statement and attachments follow:]

Statement of Donald I. MacAllister, Founder and President, Orange 
County/California Works, Irvine, California

                               Background

    My name is Don Mac Allister and I spent six years growing 
up in the foster care system. I left foster care and began my 
adult life on ``the streets'' with a $100 loan from my group 
home. I had no idea how to find and keep a job so that I could 
become financially self-supporting. One of my ``street'' 
friends finally took me to a telephone sales ``boiler room'' 
where I secured my first job. As I was fired from a series of 
jobs I realized that because of my life circumstances, I had 
gained the perception that I was a ``victim.'' This mindset 
caused me to seek shortcuts in life. Fortunately one of my 
supervisors pointed out the changes which I needed to make and 
educated me as to how to perform on the job so that I could 
stay employed. And unlike so many others, I escaped from the 
aloneness and dangers of living on ``the street.'' Because of 
this painful experience, I have endless motivation to help 
others who are facing a similar struggle.
    If I had received job readiness training and had acquired a 
part-time job while in high school, I would have been better 
prepared to obtain a full time job upon graduation.
    Would not all parents be horrified at the thought of having 
their 18-year old end up on ``the street'' without money, 
housing, or support? Yet this is the fate of over 10,000 foster 
youth each year.
    What happens to these suddenly ``independent'' teenagers? 
Statistics show that more than 50 percent of children who leave 
foster care either become homeless, end up in prison or on 
welfare, and 60% of the girls become unwed mothers within 18 
months.
    Why do foster care teenagers suffer this fate? This is 
because they have not been prepared with essential job 
readiness skills to succeed at ``independent living.'' Being 
trained and gaining work experience while still in high school 
would contribute greatly to their becoming working, productive 
members of society, and thereby avoid turning to crime or 
relying on welfare to survive.
    The ``Orange County WORKS'' program (a privately funded 
California non-profit organization) which I founded, provides 
job readiness training, job placements, and assists in finding 
higher paying jobs after the initial placement, for foster 
care, probation and other at-risk teens.
    The mission of ``Orange County WORKS'' is to provide the 
lowest possible cost-per-placement system to help at-risk teens 
throughout Orange County break the cycle of dependency on 
government programs, and become productive members of the 
community. This means that at-risk youths become employed, 
financially independent, and give something back to the 
community.
    ``Orange County WORKS'' is achieving a higher rate of 
placement of foster care and probation teens in jobs, while 
doing so at the lowest cost-per-placement of any Independent 
Living Skills program in California, as indicated below:


----------------------------------------------------------------------------------------------------------------
                                                                        OC WORKS           CA ILS Gov. Program
----------------------------------------------------------------------------------------------------------------
Percentage of trainees placed in jobs.........................                      45%                      17%
Cost per placement............................................                  $740.00                $3,833.00
----------------------------------------------------------------------------------------------------------------
(Note: The above figures are for calendar year 1998, and are derived from California's Annual Independent Living
  Program Statistical Report, and ``Orange County WORKS'' Annual Youth Employment Report.)


    At ``Orange County WORKS,'' we use performance standards to 
measure our success. We also use these performance standards as 
financial incentives to motivate our staff, so that they 
continually strive to achieve a greater number of job 
placements. Additionally, when seeking funding, we present our 
results to our local business/donor community. They provide 
funds to ``Orange County WORKS,'' because we help at-risk 
youths obtain jobs, and thus avoid a life of crime or welfare 
dependency. This results in a reduction in crime and other 
social ills, which benefits our entire local community.
    Clearly, the approach used by ``Orange County WORKS'' is 
successful, and proves that a high rate of placement can be 
achieved at a lower cost, and helps improve our society.

                               Conclusion

    First, I propose that the Independent Living Skills 
legislation must provide training of essential job-related 
skills (including basic computer and internet skills training). 
Foster teens must receive these skills during the two-year 
period, prior to emancipation. Second, I propose that for-
profit as well as non-profit training organizations be allowed 
to receive Federal Independent Living Skills funding. The need 
is for the best training at the lowest cost. Excluding for-
profit trainers from consideration can only hinder this. The 
current language of the Independent Living Skils legislation 
does exclude the hiring of for-profit Independent Living Skills 
trainers with Federal Independent Living Skills funds.
    Third, I recommend that Independent Living Skills providers 
receive funding based on performance standards similar to those 
utilized by ``Orange County WORKS,'' including:
    <bullet> Number of youths trained in job related skills.
    <bullet> Percentage of trainees placed in jobs.
    <bullet> Number of youths placed in jobs.
    (The adult welfare employment program operated by Lockheed 
Martin for the Private Industry Council in Dallas, Texas, is a 
successful example of this approach, which perhaps should be 
emulated.)
    By having Independent Living Skills funding allocations 
based on performance standards, the number of foster youths 
trained and placed in jobs will significantly increase. And, 
this will greatly encourage Independent Living Skills 
organizations to operate in a more cost-efficient manner.
    By incorporating these proposed changes to the Independent 
Living Skills Act, foster teenagers will be better equipped to 
obtain employment at a crucial phase in their lives. Also, 
costs for training, and for placing foster youths in jobs 
should be reduced.
    Additionally, by adopting our proposal, there will be other 
significant benefits for our society. Costs related to both 
welfare and to other social services programs will be 
substantively reduced, as well as costs associated with the 
criminal justice system. Clearly, the impact of these changes 
cannot be overstated.
    Thank you for your consideration of my proposals. 

    [GRAPHIC] [TIFF OMITTED] T1777.003
    
    [GRAPHIC] [TIFF OMITTED] T1777.004
    
    [GRAPHIC] [TIFF OMITTED] T1777.005
    
    [GRAPHIC] [TIFF OMITTED] T1777.006
    
    [GRAPHIC] [TIFF OMITTED] T1777.007
    
    [GRAPHIC] [TIFF OMITTED] T1777.008
    
    [GRAPHIC] [TIFF OMITTED] T1777.009
    
    [GRAPHIC] [TIFF OMITTED] T1777.010
    
      

                                <F-dash>


    Chairman Johnson of Connecticut. I thank you very much, and 
I think it is very impressive that growing up as you did and 
leaving the system in the totally unstructured and really 
hazardous circumstances that you did, that you have not only 
succeeded in founding and running a business, but also in 
giving back to the system that served you only partially.
    Mr. MacAllister. Thank you.
    Chairman Johnson of Connecticut. We will turn to Mr. 
Garvey.
    Mr. Garvey.

  STATEMENT OF KEVIN M. GARVEY, COMMUNITY RELATIONS MANAGER, 
            UNITED PARCEL SERVICE, LAUREL, MARYLAND

    Mr. Garvey. Good afternoon, Madam Chair, and thank you for 
the opportunity to appear before your Subcommittee today. As 
you know, my name is Kevin Garvey, and I am the community 
relations manager for United Parcel Service in metro DC. And 
that district covers northern Virginia, Washington, DC, and 
surrounding Maryland metropolitan counties.
    Over the last few years, I have been directly involved in 
some key areas. I have focused on work force development. And 
up until August 1998, most of those efforts zeroed in on 
school-to-work and welfare-to-work initiatives.
    But in August 1998 that changed, and I became directly 
involved with the foster care population of Maryland, when we 
formed the UPS Partnership for Youth in Foster Care. The UPS 
Partnership for Youth in Foster Care is a community program. 
And it is facilitated by the Living Classrooms Foundation and 
is funded by the Annie E. Casey Foundation.
    The partnerships objective is to engage young people from 
Maryland's foster care system in a work-and-learning experience 
at UPS, a work-and-learning experience that expands their 
opportunities for career and academic success in the future.
    In 1999, the partnership has a goal for transitioning 75 
foster care children to a quality workplace and learning 
experience. And the partners enjoy the following goals:
    Number one, to prepare youth in foster care for employment 
through general and UPS-specific work readiness training. Two, 
identify qualified and interested youth in foster care, 
including youth from Living Classrooms fresh-start program for 
the UPS opportunity. Three, facilitate the placement of youth 
in part-time positions at UPS facilities in Burtonsville and 
Landover, Maryland. The youth start at $8.50 to $9.50 an hour 
and they enjoy full medical benefits and can take advantage of 
our onsite college classes as well as use our computer learning 
facility. Four, schedule career and academic goal-setting 
sessions with a UPS mentor for youth in foster care that are 
working at UPS. And five, maintain close daily contact with 
those youth in foster care after they are hired to best ensure 
their success on the job.
    This partnership, in my opinion, is unique in the broad 
scope of the partners themselves. They are the Annie E. Casey 
Foundation, the State of Maryland Department of Human 
Resources, Bridges to Work, the Glen Arden Campus of 
Opportunity, Living Classrooms Foundation, Anne Arundel County, 
Baltimore County, Baltimore City, and Prince George's County 
Department of Social Services.
    In our involvement with this partnership, we have learned 
five valuable lessons. First, it doesn't matter what the 
initiative is called, school to work, welfare to work, and so 
forth., if it prepares and transitions folks to society's 
available work force, then it is work force development.
    Second, different initiatives target specific population 
segments. However, all of these segments share similar and like 
societal barriers. For instance, low-skill levels, lack of 
transportation, child-care issues, an underdeveloped work 
ethic.
    Third, the foster care population bridges the spectrum of 
most, if not all, current work force-development initiatives.
    Fourth, more companies would engage ongoing efforts if 
third-party participation were expanded and an emphasis placed 
on the measurement of outcomes.
    And fifth, and last, we have enjoyed the expertise provided 
by the Annie E. Casey Foundation with the foster care 
population. And for those of you who don't know, the Annie E. 
Casey Foundation is a UPS-funded philanthropy.
    And the painful lesson, the fifth and last painful lesson 
that we have learned, is how severe the need is for employer-
driven efforts to serve this population. And if Congress 
chooses to allocate additional funding to support transitional 
training for foster care children, we urge you to screen the 
funding to civic organizations that have the ability to impact 
the foster care population directly.
    I believe effective civic organizations will be those that 
can provide one-stop solutions that overcome an employer's 
reservations about hiring someone either through school-to-work 
or welfare-to-work or a foster care program.
    For example, in Maryland, the Workforce Services Corp., 
formerly known as the Prince George's Private Industry Council, 
is setting a standard for providing solutions to difficult-to-
serve populations.
    Another example is a local private nonprofit called the 
Living Classrooms Foundation, and they are located in 
Baltimore. The foundation has extensive experience developing 
and implementing educational intervention for disadvantaged and 
at-risk youth. Every year, they serve tens of thousands of 
students and foster care children.
    The UPS foster care initiative relies heavily on this 
organization for not only work force preparation but for 
program and system assessment. And currently they are helping 
us develop a management-training program for our frontline 
management folks to make them more sensitive to some of these 
societal issues.
    I thank you again for the opportunity to be here this 
afternoon, and would entertain any questions either in writing 
or orally.
    [The prepared statement follows:]

Statement of Kevin M. Garvey, Community Relations Manager, United 
Parcel Service, Laurel, Maryland

   PATHWAYS to SUCCESS: The UPS Partnership for Youth in Foster Care

    The UPS Partnership for Youth in Foster Care is a community 
program facilitated by the Living Classrooms Foundation. The 
partnership's objective is to engage young people from 
Maryland's foster care system in a work and learning experience 
at United Parcel Service (UPS) that expands their opportunities 
for career and academic success in the future. In 1999, the 
partnership has a goal of transitioning 75 foster care children 
to a quality workplace and learning experience. The partners 
work to achieve goals:
    <bullet> By preparing youth in foster care for employment 
through general and UPS-specific work readiness training
    <bullet> By identifying qualified and interested youth in 
foster care, including youth from Living Classrooms' Fresh 
Start Program, for the UPS opportunity
    <bullet> By facilitating the placement of youth in Part-
Time positions at UPS's Burtonsville and Landover, Maryland 
facilities. Youth start at $8.50-$9.50/hour with full medical 
benefits and on-site college courses
    <bullet> By scheduling career and academic goal setting 
sessions with a UPS School-to-Work mentor for youth in foster 
care employed at UPS
    <bullet> By maintaining close contact with youth in foster 
care after hire to best ensure their success on the job
    This partnership is unique in the broad scope of the 
participants (partners). They are: United Parcel Service, The 
Annie E. Casey Foundation, State of Maryland Department of 
Human Resources, Bridges to Work, The Glenarden Campus of 
Opportunity, The Living Classrooms Foundation, and Baltimore 
City, Baltimore County, Anne Arundel County, and Prince 
George's County Departments of Social Services.

                  PATHWAYS to SUCCESS: Welfare-to-Work

    Welfare to work efforts have been a part of UPS for the 
past quarter century. We have some 40 Welfare to Work programs 
with local governments and organizations in 40 locations across 
the country. And in 1997 alone, we hired more than 10,000 
former welfare recipients.
    UPS is a founding member of the national The Welfare to 
Work Partnership, a national alliance of businesses engaged in 
programs which help people leave welfare. UPS employees also 
participate on several state and local task forces, which 
develop creative employment and transportation solutions for 
supporting the success of School-and Welfare to Work 
participants.
    Those jobs pay above-average compensation for entry-level 
employees. The benefits package covers the worker's families 
and includes full health care coverage, hospitalization, 
medical, dental, and vision. In addition, our benefits package 
includes short-term disability, accidental death insurance, 
life insurance, tuition assistance, paid vacations and 
holidays.
    We believe in community responsibility. We give our money 
and our time to charity, while we know the difference between 
charity and business. When we hire people--that's business. And 
a business-like approach is needed to remove the barriers that 
block increased hiring of welfare recipients.
    President Clinton recently noted that 94 percent of welfare 
recipients do not have automobiles. There's no doubt about it--
this is a major barrier, because most jobs are located away 
from neighborhoods where welfare recipients live.
    Public transportation would seem to be the answer. But a 
recent Department of Transportation study in Boston of welfare 
recipients and jobs found the following: only 14 percent of 
potential employers could be reached by public transit within 
an hour. . . only 33 percent within 1 and \1/2\ hours. . . and 
just over 50 percent of the jobs could even be reached within 
two hours. I suspect similar situations exist around the 
country.
    The transportation situation cries out for a collaborative 
effort. We need community activists to cobble together--one by 
one, community by community--programs that address the 
transportation issue. We need the assistance of community 
activists who build databases and work with local government, 
labor and business.

   RODNEY CARROLL: UPS Loaned Executive, Welfare-to-Work Partnership

    Let me share the experiences of one of our executives who 
is on loan to The Welfare to Work Partnership. His name is 
Rodney Carroll. In his capacity, Rodney reaches out to 
businesses and encourages them to get involved in Welfare to 
Work initiatives.
    As the former manager of UPS's air hub in Philadelphia, 
Rodney knows firsthand the challenges and benefits of hiring 
former welfare recipients. He started that city's program by 
actively recruiting from local welfare offices. He even 
organized transportation for welfare recipients living across 
the river in Camden, NJ who wanted to work at UPS but had no 
way to get there. The UPS bus system became so heavily used 
that the New Jersey Transit system took over the route and now 
operates it on a full-time basis.
    Through more than 40 Welfare to Work programs across the 
country, UPS collaborates with government agencies, faith-based 
groups, and non-profit organizations to develop, train and 
mentor qualified candidates for positions at UPS and other area 
businesses. Since January of 1997, UPS has hired well over 
15,000 welfare recipients.
    Former welfare recipients hired by UPS earn the same pay 
and benefits as other employees holding the same job. They also 
gain the advantage of working for a company that pays above-
average compensation for entry-level employees and provides an 
especially strong benefits package. For example, this package 
covers the worker and their family and includes medical, 
dental, and vision coverage. What's more, there is ample 
opportunity for advancement, because UPS has a policy of 
promoting from within.

Susan Miller, UPS Training Supervisor--In Her Own Words

    Susan Miller is an example of someone overcoming enormous 
obstacles to return to the workplace. As the single mother of 
three small children, Susan knew that she wanted to set a good 
example for them by getting off welfare. She was hired by UPS 
in 1996 as a package sorter and quickly gained the admiration 
and trust of her managers and co-workers. As a result, Susan 
was promoted to a supervisor position. She now trains all new 
UPS hires in our Atlanta Pleasantdale Hub on how to do their 
jobs quickly and efficiently in order to provide the quality 
service which UPS's requires.
    In her own words, Susan states:

          ``I was on public assistance for almost four years before I 
        started working at UPS. Now I am working everyday to make a 
        better life for my children and myself. Having a job builds 
        your confidence and your self-esteem, which makes you want to 
        do an even better job. My children recognize my new confidence 
        and know that it is due to my job at UPS.''
          ``I knew one day I would be able to find a job like this. I 
        just didn't know where to start looking. I was introduced to 
        UPS when my mother saw a postcard that UPS was hiring. That was 
        over three years ago and I am still just as happy to go to work 
        everyday as I was the day I started.''
          ``Let me tell you a little about my job at UPS. As a part-
        time supervisor, I receive a good monthly salary and full 
        health care coverage, hospitalization, medical, dental, vision, 
        short-term disability, accidental death insurance, life 
        insurance, tuition assistance, paid vacations and holidays. One 
        thing you might not know is my family is covered under UPS 
        benefits as well. I no longer have to worry about how I'll 
        afford to send my children to the doctor when they get sick.''
          ``Contrary to popular belief, welfare recipients want to 
        work. They are responsible people who, if given the right 
        opportunity, will be committed employees. They want to provide 
        a better life for their families. They want to take home a 
        paycheck every week. But, they need jobs that can provide good 
        wages and benefits that do not make them question their 
        decision to get off public assistance.''
          ``When I started working at UPS I had a lot of questions. 
        Questions about the job, transportation, childcare and my 
        future at the company. As I have grown with the company, my 
        supervisors have been very supportive and have taught me a lot. 
        It is very important for employers to provide resources to 
        employees hired off welfare so that they do not get frustrated 
        and quit. Sometimes just knowing there is someone you can go to 
        who will answer your questions and be on your side is the 
        difference between failure and success.''
          ``I work hard everyday for my children. They are the future. 
        I want my kids to know that their mom worked as hard as she 
        could to make a better life for them. I hope that I can offer 
        my life challenges as an example to others that you can make 
        life better off of welfare. It is hard in the beginning, but 
        encouragement and motivation is the key to a new, successful 
        life.''

                  PATHWAYS to SUCCESS: School-to-Work

    American businesses have learned firsthand that many young 
people leave high school--and college--ill prepared for jobs. 
Some don't have even the basic skills they need to become 
viable employees. School-to-work programs are helping to close 
the gap between skills students have when they leave high 
school and the skills they need to keep up in today's changing 
workforce.
    UPS became a partner in the School to Work initiative 
because it adds very real business value to our company.
    Because of our ever-growing need for part-time workers, we 
have actively participated in programs to bring students and 
young people into our workforce for more than 25 years. Those 
early initiatives weren't called ``School to Work,'' and 
weren't aimed necessarily at high school seniors, but the 
concept was similar.
    The School-to-Work initiative provides many young people 
their first exposure to the workplace and their first 
opportunity to tackle the challenges of work. Interacting with 
successful adults in the workplace gives students a vivid 
picture of many exciting career paths. High school students who 
never thought they could finish school suddenly have a reason 
to learn. Many are inspired to pursue advanced degrees.
    Programs like this ease the transition between school and 
work for all students, but especially for at-risk and 
economically disadvantaged students. Young people who have 
never seen an adult go to work are able to connect learning 
with ``real-life'' working experiences. And most importantly, 
they also gain responsibility, self-esteem, and a sense of 
accomplishment. How else do we know the School-to-Work program 
is working?
    Numbers tell part of the story. We hired 1,169 high school 
seniors at the beginning of the 1997/1998 academic year. Only 
91 have dropped out--that's a retention rate of nearly 93 
percent. And a total of 36 students have been promoted to part-
time supervisors in the various locations where the programs 
operate.
    Next fall the numbers will be even larger. In Chicago, the 
program began in 1997 with 30 students. Now we have more than 
200.
    In Louisville--where seniors work at the UPS Air Operation 
facility during the daytime--it has also been successful in 
attracting students even though it has the most stringent 
guidelines. In the fall of 1996, the Louisville School-to-Work 
program began with about 60 students. In the fall of 1998, it 
will have 300 students participating--and they were chosen from 
more than 500 interviewees.
    Another proof of success is that the number of those 
students who maintain a better than C average has also 
increased steadily in all of our locations
    School-to-work students have been some of our best--and 
most motivated--employees. We also find these students have 
less absenteeism and tardiness compared to other employees--and 
they are more safety conscious--a very important factor for us. 
All of these things have a direct impact on us and our ability 
to be a successful company.
    The official School to Work program is aimed at high school 
seniors, but UPS's efforts have gone beyond the official 
definition. Innovative partnerships are allowing us to take 
school-to-work concept beyond high school graduation.
    An excellent example of what partnerships can do will 
happen when our new Hub 2000 opens in Louisville. We will be 
faced with a critical shortage of part-time workers when the 
Hub opens. That problem is being solved through partnerships 
with the University of Louisville, several other community 
colleges and with local and state governments.
    The ``Hub of the Future'' will double the capacity of UPS's 
current Louisville facility and it will require an additional 
6,000 workers. UPS worked with Kentucky's leaders in education, 
business and government to come up with a plan to attract new 
part-time workers in an overwhelmingly tight job market.
    Some of our current School-to-Work students in Louisville 
will find they can go to college full time, while they continue 
their UPS job and employment with full benefits. They may even 
want to live in the specially designed dormitory, which will 
cater to students who work and take classes at night and have 
to sleep during the day.
    If School and Welfare-to-Work programs are going to 
succeed, community partnerships will be even more important--
just like they were for us in Louisville for the Hub 2000 
project. Government, non-profits, business and education each 
have a specific role to play.
    Government should provide the public funding to match the 
private corporate and foundation funding for successful non-
profit organizations. Also, government must be more supportive 
in the area of transportation and public facilities, which only 
they can make available.
    Educational institutions should teach employability skills 
and ease the transition to work. They should also provide:
    <bullet> Flexible scheduling
    <bullet> Academic credit for work experience
    <bullet> Counselors for transition
    <bullet> On-site instructors (teachers) where applicable
    <bullet> Internships
    <bullet> Recognition of School-to-Work graduates
    <bullet> Collaborative links with business
    And, of course, businesses must provide good jobs and on-
the-job training.
    We believe the success of School-to-Work programs will 
continue to depend upon partnerships with key community players 
including government agencies, educators, non-profit 
organizations and businesses.
    UPS's School to Work programs incorporate classroom 
training and real world work experience to help students 
successfully transition from high school or college to 
employment. These programs not only provide students with 
essential skills for job success and help boost self-esteem; 
their contributions to a productive work force in turn benefit 
their surrounding community. School to Work programs are 
coordinated in partnership with government agencies, non-profit 
organizations, local school systems, and institutions of higher 
education.
    UPS's School to Work programs operate in Chicago, Dallas, 
Louisville, Ky. and Washington, D.C. The programs provide 
students 17 and older with the opportunity to earn college 
credit while working part-time at UPS. Many students involved 
in the program graduate from high school with three or more 
college courses already under their belt plus experience at one 
of the country's top corporations. And, should they choose to 
go to college, UPS has a tuition assistance program for which 
they may be able to qualify if they continue to work part-time 
at the company.
    UPS's newest School to Work program began in September 1998 
in Louisville, Ky., the headquarters for the company's air 
operations. While Louisville continues to have its traditional 
School to Work program for high school students, it has also 
launched Metropolitan College, a ground breaking program for 
college students.
    A result of combined efforts by UPS, the state of Kentucky 
and three area colleges, Metropolitan College offers students 
part-time employment at UPS and eligibility for free college 
tuition. Metropolitan students earn competitive wages and full 
employee benefits; work shifts are scheduled to accommodate 
daytime classes.
    In all UPS School to Work programs, students are assigned a 
UPS mentor who is responsible for monitoring their progress in 
school and work. Those who excel in school are rewarded with 
incentive programs. ``We offer advice to students and try to 
show them the correct way to balance their responsibilities,'' 
said Melissa Smith, a mentor in the Louisville facility. ``We 
don't solve their problems for them. We just give them the 
tools they can use to help themselves.''

                               CONCLUSION

    If Congress chooses to allocate additional funding to 
support transitional training for foster care children, we urge 
you to stream the funding to civic organizations that have the 
ability to impact the foster care population.
    I believe effective civic organizations will be those that 
can provide one-stop solutions that overcome an employer's 
reservations about hiring someone through School-to-Work, from 
welfare or foster care programs. For example, in Maryland, the 
Workforce Services Corporation formerly known as the Prince 
George's Private Industry Council, is setting the standard for 
providing solutions to difficult-to-serve populations.
    Another example is a local private non-profit called The 
Living Classrooms Foundation located in downtown Baltimore. The 
Foundation has extensive experience developing and implementing 
educational interventions for disadvantaged and at-risk youth. 
They serve over 50,000 students per year. The UPS Foster Care 
initiative relies heavily on this organization for workforce 
preparation, program assessment, and development of management 
training programs.
    Thank you for the opportunity to provide testimony 
regarding the ``Challenges Confronting Older Children Leaving 
Foster Care.''
      

                                <F-dash>


    Thank you, Madam Chair, Congressman Cardin.
    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Garvey. That was extremely interesting and I commend UPS on 
their leadership.
    Mr. Pinto, it is a pleasure to have you.

 STATEMENT OF WILLIAM PINTO, ADOLESCENT SERVICES COORDINATOR, 
   DEPARTMENT OF CHILDREN AND FAMILIES, HARTFORD, CONNECTICUT

    Mr. Pinto. Good afternoon, Chairman Johnson, Rep. Cardin, 
and the distinguished Members of the House Ways and Means 
Subcommittee on Human Resources. My name is Bill Pinto and I am 
the adolescent services coordinator for the Connecticut 
Department of Children and Families. I am a social worker with 
over 20 years experience in child welfare.
    I started out as a protective service worker, children's 
protective service worker in the city of Hartford, serving 
gang-involved youth and older youth in out-of-home care, and 
for the past 10 years I have been developing Connecticut's 
Independent Living Program. In addition to my State hats, I am 
also one of the founders and past presidents of the National 
Independent Living Association, which is now comprised of over 
200 members nationwide.
    To me, the story about independent living in the United 
States is one of tragedy and triumph. The tragedy is that far 
too often graduates of the American child welfare system become 
America's homeless, prisoners, public-assistance recipients, 
and psychiatric patients. What little research there is on the 
outcomes of foster care graduates has produced startling and 
depressing data.
    What is more depressing is that numbers have not changed in 
the last 15 years. The research shows that only half complete 
high school, less than half are employed, 38 percent maintain a 
job for over a year, 60 percent of the women have at least one 
child, 25 percent of the males spend time in prison, 25 percent 
are homeless at least one night, only 17 percent are completely 
self-supporting, and most experience high levels of depression 
and discouragement.
    Furthermore, over half of the foster care graduates say no 
one helped them make plans for being on their own. The focus in 
the child welfare system has been on protecting and finding 
permanent living arrangements for children. Sadly, it has 
neglected providing youth with the services they need to 
acquire the social, emotional, and basic life skills necessary 
for the transition to adulthood and independence.
    For most young people in America, leaving one's home to be 
on your own means voluntarily giving up the security of the 
family. You leave when emotionally and economically ready for 
independence. The move coincides with a positive event, such as 
getting married or landing that first big job. When setting up 
the first apartment, mom has saved silverware and dishes, Aunt 
Millie has the pullout couch in the basement, and dad may put a 
fresh coat of paint on the walls.
    Most importantly, underneath it all, is the security of 
knowing that if it doesn't work out you can always go back 
home.
    And don't all the parents of young adults in this room know 
that they often end up back at our front door. It is vastly 
different for kids that have grown up in foster care.
    In foster care, you exit the system or you pass from care. 
You leave the custody of the child welfare system because you 
have reached that statutory age for release, that magical, 
mystical age of 18. You are off on your own, ready or not, 
expected to enter the community life and self-sufficiency 
without the aid of a family or a social service delivery 
system.
    Young people in out-of-home care who frequently faced 
abuse, neglect, and rejection, often have a weak sense of 
identity. They are less resilient and less confident in their 
abilities. Not only must they face independence in this fragile 
state, but they usually face it alone.
    The triumph part of the independent living story describes 
what is possible when you support these young people. They have 
the potential; they need the skills, the guidance, and the 
assistance.
    In Connecticut, we have seen the positive results of an 
Independent Living Program that supports our youth before and 
after they move out on their own. We offer a continuum of 
services from life-skills-in-education training, transitional-
living programs, subsidized-apartment programs, and after-care 
services.
    You heard from Reggie Rollins, a 21-year-old from Stamford, 
Connecticut, one of our many shining stars. Reggie's life, as 
with our other youth, has not been easy by any stretch of the 
imagination, and his journey to independence has not been 
smooth, but Reggie is making it.
    While Reggie deserves the lion's share of the credit, I 
must modestly acknowledge that our Independent Living Program 
has been with him all along the way. When Reggie turned 21 last 
month, we did not say you are on your own now, good luck.
    Reggie continues to live in a subsidized apartment and will 
complete this educational year. This is only because the 
Connecticut Department of Children and Families commissioner, 
Kristine Ragaglia, made a commitment to help our young adults 
like Reggie until they complete their college education.
    She believes it is only right.
    My goal is for all States in the country to adopt the 
supports for older youth that we have in Connecticut. That is 
why I am urging the Federal Government to mandate that States 
provide a continuum of independent living services. That 
continuum should include community-based life skills, 
education, and training for youth in foster and kinship care, 
transitional group homes and apartments for young people who 
need 24-hour structure and supervision, which can provide 
intensive follow-up in areas of life skills, health, mental 
health, education, and vocation.
    Subsidized, supervised community housing options to enable 
young people to live on their own but with continuous support 
and assistance with budgeting and other issues.
    As my friend and colleague, Marc Croner, says, independent 
living without an apartment is like a driver's license without 
a car.
    And finally, after care, a network of community-based 
helpers to provide assistance as youth transition to a 
productive community life. These services should emanate from a 
comprehensive treatment plan developed with youth, based on 
their individual strengths and needs. The plan should prepare 
for the young person's transition to the community, should 
manage that transition, and provide follow-up after the 
transition.
    I have spoken to the board of directors of NILA and other 
colleagues around the country to gain their insight on the core 
elements necessary for the Independent Living Program. Many of 
these components are covered in H.R. 671. They are as follows:
    The recommended changes in Title IV-E will provide States 
not providing services to youth past age 18 an incentive to do 
so, and will reward the States that have dedicated State funds 
to independent living maintenance programs for young people up 
to age 21.
    It addresses the issue of assets allowable to foster care 
youth. Most Independent Living Programs allow participants to 
have savings plans which promote savings and investment and 
also provide program graduates with an adequate nest egg to 
begin life on their own.
    ILP graduates who have contributed to personal savings 
plans should not be penalized by becoming ineligible for title 
XIX and other social services.
    And finally, the bill also contains a much needed plan to 
promote collaboration within Federal agencies to promote the 
Independent Living Program.
    In addition to support for H.R. 671, there is also 
consensus for four other areas. One, lowering the eligible age 
for independent living services from age 16 to 14. Age 16 is 
too late. The earlier the young person becomes involved in an 
independent living preparation and specialized case management 
services, the more positive the outcome.
    Two, providing incentives to States that allow youth to 
leave voluntarily at age 18 to re-enter the system if requested 
by the young person anytime prior to the age of 21.
    Third, promoting positive youth development in Independent 
Living Programs, especially youth-empowerment and youth-adult 
partnership. Rewards and incentives should be provided to 
States that have developed local and statewide youth advisory 
boards.
    In Connecticut, our youth advisory board has been 
invaluable in giving upper management, including the 
commissioner, ideas for better serving our teens in care.
    And finally, funding for research and evaluation. For the 
Independent Living Program to progress effectively, we must 
understand where we are and learn from the graduates of our 
services, how to plan for the future.
    In closing, I want to remember a young man named Willie 
Palmer. The case of Willie Palmer v. Mario Cuomo was the 
genesis of the national independent living movement. We need to 
remember his tragic life, how he was found out on the street 
with no more than his State suitcase, that plastic garbage bag 
carrying his few possessions. And how he died a violent death 
on the streets trying to stay alive.
    We must never forget the Willie Palmers. At the same time, 
we must remember with the right support, preparation, and 
opportunities, we will see more young adults like Reggie 
Rollins go on to take their rightful place in society. These 
young people have suffered enough. We need to make sure that 
they are not victimized by the system established to provide 
their care.
    In Connecticut, we have seen first-hand the success that 
these young people can achieve when given the support they 
need. We can help them turn their lives from tragedy to 
triumph. It is only right.
    Thank you.
    [The prepared statement follows:]

Statement of William Pinto, Adolescent Services Coordinator, Department 
of Children and Families, Hartford, Connecticut

    Good afternoon Congresswoman Johnson, Representative Cardin 
and distinguished members of the House Ways and Means' 
Subcommittee on Human Resources. My name is Bill Pinto and I am 
the Adolescent Services Coordinator for the Connecticut 
Department of Children and Families. I am a social worker with 
over 20 years experience in child welfare. Ten years were spent 
as a child protective services worker in the city of Hartford, 
serving gang-involved youth and older youth in out-of-home 
care. For the past 10 years, I have been developing 
Connecticut's Independent Living Program (ILP). I am also one 
of the founders and past presidents of the National Independent 
Living Association (NILA), which is now comprised of over 200 
members nationwide.
    To me, the story of Independent Living in the United States 
is one of `tragedy and triumph.' The tragedy is that, far too 
often, graduates of the American child welfare system become 
America's homeless, prisoners, public assistance recipients, 
and psychiatric patients.
    What little research there is on the outcomes for foster 
care graduates has produced startling and depressing data. What 
is more depressing is that the numbers have not changed in the 
last 15 years. The research shows that:
    <bullet> only half complete high school;
    <bullet> less than half are employed;
    <bullet> 38% maintain a job for over a year;
    <bullet> 60% of the women have at least one child;
    <bullet> 25% of the males spend time in prison;
    <bullet> 25% are homeless at least one night;
    <bullet> only 17% are completely self supporting; and
    <bullet> most experience high levels of depression and 
discouragement.
    Furthermore, over half of foster care grads say no one 
helped them make plans for being on their own.
    The focus in the child welfare system has been on 
protecting and finding permanent living arrangements for 
children. Sadly, it has neglected providing youth with services 
they need to acquire the social, emotional, and basic life 
skills necessary for the transition to adulthood and 
independence.
    For most young people in America, leaving one's home to be 
on your own means voluntarily giving up the security of the 
family. You leave when emotionally and economically ready for 
independence. The move out coincides with a positive event, 
such as getting married or landing that first big job. When 
setting up the first apartment, Mom has saved silverware and 
dishes, Aunt Millie has that pull-out couch in the basement, 
and Dad may put a fresh coat of paint on the walls. Most 
importantly, underneath it all is the security of knowing that 
if it doesn't work out, you can always go back home. (And don't 
all the parents of young adults in this room know that they 
often end up back at our front door?)
    It's a vastly different story for kids who have grown up in 
foster care. In foster care, you ``exit'' the system or you 
``pass'' from care. You leave the care or custody of the child 
welfare system because you have reached the statutory age for 
release, the magical age of 18. You're off on your own, ready 
or not, expected to enter community life and self-sufficiency 
without the aid of a family or social service system. Young 
people in out-of-home care who have frequently faced abuse, 
neglect and rejection, often have a weak sense of identity. 
They are less resilient and less confident in their abilities. 
Not only must they face independence in this fragile state, but 
they usually face it alone.
    The `triumph' part of the Independent Living story 
describes what is possible when you support these young people. 
They have the potential. They need the skills, the guidance, 
the assistance. In Connecticut, we have seen the positive 
results of an Independent Living Program that supports our 
youth before and after they move out on their own. We offer a 
continuum of services, from life skills and educational 
training, transitional living programs and subsidized apartment 
programs, and aftercare services.
    You will hear from Reggie Rollins, a 21-year-old from 
Stamford, Connecticut--one of our many `shining stars.' 
Reggie's life, as with our other youth, has not been easy, by 
any stretch of the imagination. And his journey to independence 
has not been smooth. But, he is making it. While Reggie 
deserves the lion's share of that credit, I must modestly 
acknowledge that our Independent Living Program has been with 
him all along the way. When Reggie turned 21 last month, we did 
not say, you're on your own now, good luck. Reggie continues to 
live in a subsidized apartment and will complete this 
educational year. This is only because the Connecticut 
Department of Children and Families' Commissioner, Kristine 
Ragaglia, made a commitment to help our young adults, like 
Reggie, until they complete their college education. She 
believes it's only right.
    My goal is for all states in the country to adopt the 
supports for older youth that we have in Connecticut. That is 
why I am urging the federal government to mandate that states 
provide a continuum of independent living services. The 
continuum should include:
    <bullet> community based life skills education and training 
for youth in foster and kinship care;
    <bullet> transitional living group homes and apartments for 
young people who need 24-hour structure and supervision, which 
can provide intensive follow-up in areas of life skills, 
health, mental health, education, and vocation;
    <bullet> subsidized/supervised community housing options to 
enable young people to live on their own, but with continuous 
support and assistance with budgeting and other issues. As my 
friend and colleague Mark Kroner says, ``Independent Living 
without an apartment is like a driver's license without a 
car;'' and
    <bullet> aftercare--a network of community based helpers to 
provide assistance as youth transition to a productive 
community life.
    These services should emanate from a comprehensive 
treatment plan developed with youth, based on their individual 
strengths and needs. The plan should prepare for the young 
person's transition to the community, manage that transition, 
and provide follow-up afterward.
    I have spoken to the Board of Directors of NILA and other 
colleagues around the country to gain their insight on the core 
elements necessary for the Independent Living Program. Many of 
these components are covered in H.R. 671. They are as follows.
    <bullet> The recommended changes in Title IV-E will provide 
states not providing services to youth past age 18 an incentive 
to do so and will reward the states that have dedicated funds 
to Independent Living maintenance programs for young people to 
age 21.
    <bullet> It addresses the issue of assets allowable to 
foster care youth. Most Independent Living Programs allow 
participants to have savings plans which promote savings and 
investment, and also provide program graduates with an adequate 
nest egg to begin life on their own. ILP graduates who 
contribute to a personal savings plan should not be penalized 
by becoming ineligible for Title XIX or other social services.
    <bullet> This bill also contains a much-needed plan to 
promote collaboration within federal agencies to promote 
Independent Living.
    In addition to support for H.R. 671, there is also 
consensus on four other areas:
    <bullet> lowering the eligible age for Independent Living 
services from age 16 to 14. Age 16 is too late. The earlier the 
young person becomes involved in independent living preparation 
and specialized case management services, the more positive the 
outcomes.
    <bullet> providing incentives to states that allow youth 
who leave voluntarily at age 18 to re-enter the system if 
requested by the young person any time prior to age 21.
    <bullet> promoting positive youth development in 
independent living programs, especially youth empowerment and 
youth/adult partnership. Rewards/incentives should be provided 
to states that have developed local and statewide youth 
advisory boards. In Connecticut, our Youth Advisory Board has 
been invaluable in giving upper management, including the 
Commissioner, ideas for better serving our teens in care.
    <bullet> funding for research and evaluation. For the 
Independent Living Program to progress effectively, we must 
understand where we are and learn from the graduates of our 
services how to plan for the future.
    In closing, I want to remember a young man named Willie 
Palmer. The case of ``Willie Palmer vs. Mario Cuomo'' was the 
genesis of the national Independent Living movement. We need to 
remember his tragic life--how he was found with no more than 
his `state suitcase' (the plastic garbage bag that carried his 
few possessions), and how he died a violent death on the 
streets trying to stay alive. We must never forget the Willie 
Palmers. At the same time, we must remember that with the right 
support, preparation and opportunities, we will see more young 
adults like Reggie Rollins go on to take their rightful place 
in society.
    These young people have suffered enough. We need to make 
sure that they are not victimized by the system established to 
provide their care. In Connecticut, we have seen first-hand the 
success these young people can achieve when given the support 
they need. We can help them turn their lives from tragedy to 
triumph. It's only right.
    Thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Pinto.
    Mr. Young.

STATEMENT OF WILLIAM YOUNG, COMMISSIONER, VERMONT DEPARTMENT OF 
   SOCIAL AND REHABILITATION SERVICES, ON BEHALF OF AMERICAN 
               PUBLIC HUMAN SERVICES ASSOCIATION

    Mr. Young. Madam Chairman, Congressman Cardin, good 
afternoon. My name is William Young. I am the commissioner of 
the Department of Social and Rehabilitation Services in 
Vermont, the State's child protection agency and also here on 
behalf of the American Public Human Services Association to 
talk about the issue of preparing older children leaving foster 
care for adult life.
    I want to begin by thanking you both for your interest in 
these issues, and I know, Chairman Johnson, that for you child 
welfare is a matter of longstanding concern. And I applaud you 
both for your interest in this important issue.
    Children leaving custody are particularly vulnerable. 
Unlike some people, who left loving but poor families and went 
out on their own at age 18 and succeeded, these children often 
have little or no resources. They may not have a family that 
cares or is willing to offer any kind of support for them, and 
often carry a tremendous weight of personal pain and loss as a 
result of sometimes horrendous histories of child abuse, 
histories that some of us may have in this room, but most, 
gratefully, do not.
    In my own State of Vermont, we refer all youth in custody 
between the ages of 15 and 21 to regional coordinators, who, 
after an initial screening, provide such services as 
independent living preparation classes, assistance in 
employment exploration, finding and maintaining housing, and 
accessing community services, including substance abuse and 
mental health counseling.
    There are also opportunities for community participation 
through service projects on such activities as local and a teen 
advisory board that give these youth a direct line of 
communication with me. We try to use all available existing 
services and programs, but we are not able to meet the needs of 
each youth who requires help.
    Why do we think this kind of assistance is necessary and 
important? Aside from the obvious reason, it helps to create 
capacity for economic self-sufficiency rather than welfare-
dependence, and successful citizenship, rather than involvement 
with corrections and child-protection systems as an adult.
    There is not a one-size-fits-all solution. In Vermont, we 
have made significant progress in many areas of social well-
being on outcomes, engaging local communities in planning and 
developing specific programs to achieve those outcomes and 
providing flexible fiscal support. This approach, which I would 
recommend to you as a model, would target badly needed Federal 
investments on the outcomes you desire for these children.
    Give the States and local communities the flexibility 
required to design effective services, provide feedback that 
allows for change to occur if services in a given area are not 
delivering, and require accountability for achieving the 
desired outcomes.
    As an example, and I know you have a chart, I think. This 
approach has resulted in a record 31-percent decline in child 
abuse in Vermont since 1992. Even more impressively, a 62-
percent decline in child sexual-abuse victims, and a 43-percent 
decline in physical-abuse victims between the ages of zero to 
6.
    An effort to address the unmet needs of very high-risk 
young people leaving custody doesn't, of course, take place in 
a vacuum. Child welfare today is at a crossroads with States 
struggling to provide to all children and families, early 
identification and services to those who need it, and child 
protection services where it is necessary to assure child 
safety, permanency, and well-being.
    We are implementing the Adoption and Safe Families Act and 
the additional requirements it imposes, the Court improvement 
project efforts, efforts to improve our adoption systems, and 
many others. It is a daunting task, but it is a task that we 
welcome. We believe that we are producing results, but it is 
clear that we need assistance and a sound partnership with the 
Federal Government.
    The needs of the children sometimes outstrip our capacity 
to respond. We believe that it is vital to maintain the 
existing entitlement structure for IV-E but strongly support 
additional flexibility within that structure to target 
resources where they need to go.
    We understand the constraints you are under to meet tight 
budget caps. However, we would unfortunately have to oppose any 
legislation that uses the TANF for social services block grants 
or the repeal of the child-support, hold-harmless provision or 
match rates as funding sources. The association has convened a 
work group to develop recommendations regarding changes in 
Federal child welfare financing tied to flexibility, capacity 
and outcomes. And we do look forward to sharing those 
recommendations with you in the near future.
    We are deeply appreciative of the Subcommittee's interest 
and the interest on the part of you both, particularly in that 
vulnerable group of young people leaving custody for adult 
life. If they are particularly at risk, they also possess a 
characteristic common to children the world over, and that is 
the capacity to rise above tragedy and to succeed.
    And in closing, Madam Chairman and Congressman Cardin, I 
guess I would just say, I do personally and strongly believe 
that in their success lies a real nugget of hope for all of us 
in this society, and in their failure and our failure, if we 
don't correct it, I think lies some very destructive seeds for 
this Nation.
    And so I applaud both of you for your leadership and 
interest in this area, and we look forward to working with you 
as an association and developing specific policy and funding 
proposals to address these needs.
    Thank you very much.
    [The prepared statement follows:]

Statement of William Young, Commissioner, Vermont Department of Social 
and Rehabilitation Services, on behalf of American Public Human 
Services Association

    Madam Chairman, Congressman Cardin, members of the 
Committee, good afternoon. My name is William Young. I am the 
Commissioner of the Vermont Department of Social and 
Rehabilitation Services, the state's child protection agency. I 
am also here today on behalf of the American Public Human 
Services Association to talk about the issue of preparing older 
children leaving foster care for adult life.
    APHSA is a bipartisan organization of public human service 
agencies and individuals concerned with human service policy 
and its delivery.
    I want to begin by thanking Chairman Johnson and 
Congressman Cardin for their interest in these issues. I know 
that for many of you, including Chairman Johnson, child welfare 
is a matter of long-standing concern.
    Children leaving custody are particularly vulnerable. 
Unlike some of the people who may be in this room who went out 
on their own at age 18 and were successful, these children 
often have little or no resources, may not have a family that 
cares or is willing to offer any kind of support to them, and 
often carry a tremendous weight of personal pain and loss as a 
result of sometimes horrendous histories of child abuse--
histories that some of us may have but most do not.
    In my own State of Vermont we refer all youth in custody 
between the ages of 15 and 21 to regional Transitional Services 
Coordinators who, after an initial screening, provide such 
services as independent living preparation classes, assistance 
in vocational exploration, finding and maintaining housing, and 
accessing community services, including substance abuse and 
mental health counseling. There are also opportunities for 
community participation through service projects and such 
activities as local and a state-wide Youth Advisory Board, 
which give these youth a direct line of communication with me.
    We try to use all available existing services and programs, 
but we are not able to meet the needs of each child who 
requires help.
    Why do we think this kind of assistance is necessary and 
important? It helps to create capacity for economic self 
sufficiency rather than welfare dependence and successful 
citizenship rather than involvement with the Corrections and 
Child Protection systems as an adult.
    There is not a ``one size fits all'' solution. In Vermont 
we have made significant progress in many areas of social well 
being by focusing on outcomes, engaging local communities in 
planning and developing specific programs to achieve the 
outcomes, and providing flexible fiscal support.
    This approach, which I would recommend to you as a model, 
would target badly needed additional federal investments on the 
outcomes you desire for these children, give the States and 
local communities the flexibility required to design effective 
services, provide feedback that allows for change to occur if 
services in an area are not delivering the desired results, and 
require accountability for achieving the desired outcomes.
    As an example, this approach has resulted in a record 31% 
decline in child abuse in Vermont since 1992. Even more 
impressive is the 62% decline in sexual abuse victims between 
the ages of 0 to 6, and the 43% decline in physical abuse 
victims 0 -6.
    This effort to address the unmet needs of a very high-risk 
group of young people does not take place in a vacuum. Child 
Welfare today is at a crossroads, with States struggling to 
provide support to all children and families, early 
identification and services to those who need it, and child 
protection services where it is necessary to assure child 
safety, permanency and well-being. We are implementing the 
Adoption and Safe Families Act and the additional requirements 
it imposes, the Court improvement efforts, and the need to 
improve our adoption systems.
    It is a daunting task, but one that we welcome. We believe 
that we are producing results, but it is clear that we need 
assistance and a sound partnership with the federal government. 
The needs of the children sometimes outstrip our capacity to 
respond.
    We believe that it is vital to maintain the existing 
entitlement structure for IVE, but strongly support additional 
flexibility within that structure to target resources where 
they need to go.
    Madam Chairman, we understand the constraints this 
subcommittee and the Congress are under to meet the tight 
budget caps set in the Balanced Budget Act of 1997. We 
understand the initiatives we have been discussing will require 
a commitment of new federal resources. However, we urge the 
subcommittee not to reduce current or future federal support 
for critical human service programs to fund this new 
initiative. For example, if any reductions in the TANF or 
Social Services Block Grants or the repeal of the child support 
hold harmless provision or match rates are use as funding 
sources, then APHSA would be in the unfortunate position of 
opposing this legislation.
    Over a year ago the Association convened a Work Group of 
state human service administrators and state and local child 
welfare directors to develop recommendations regarding changes 
in federal child welfare financing tied to flexibility, 
capacity and outcomes. We look forward to sharing those 
recommendations with you in the near future as they are 
finalized.
    We are deeply appreciative of the Committee's interest in 
that particularly vulnerable group of young people leaving 
custody for adult life. If they are particularly at risk, they 
also possess a characteristic common to children the world 
over: the capacity to rise above tragedy and to succeed.
    And we look forward to working with you to develop specific 
policy and funding proposals to address this issue.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T1777.001
    
    [GRAPHIC] [TIFF OMITTED] T1777.002
    
      

                                <F-dash>


    Chairman Johnson of Connecticut. Well, first of all, let me 
say we do look forward to the results of your working group 
thinking through on the issue of flexibility, capacity, and 
outcome. I got involved in this in part many, many years ago as 
the chairman of the child guidance clinic in my little 
community. And so I, as a State senator, visited many, many of 
the facilities that provide services to our children, both 
child protective services and services for delinquent youth.
    And I introduced the first bill to provide parent aid in 
Connecticut. But the system has been very, very slow to be able 
to look at prevention, to be able to look at integration, to be 
able to take a holistic approach. And, indeed, as I have 
listened to you and the young people today, it is really quite 
staggering that we have now come so far in welfare reform, and 
looking at the plight of a woman on welfare and how right the 
decision was to make her stay on welfare if she couldn't get 
health care for her children any other way. And now how we have 
changed that, how we have focused services and broadened the 
network to support transition.
    And a number of us are working on a bill--we passed it out 
of Ways and Means last year, we are going to improve it this 
year. It looks at disabled people and the need for them to get 
back in the program if they need help, the need for them to be 
able to retain health services while they get out there and 
start working until they get a job that has health services.
    And indeed, it is really quite astounding how we have 
failed to understand the enormity of the challenge of becoming 
fully on your own from 1 day to the next at age 18. So we do 
take the testimony that we have heard here very seriously. In 
my past years on this Subcommittee, when I was first on it 6 
years ago, I don't think we ever had--Ron and I were trying to 
remember--we may have included independent living as a part of 
a hearing, but I don't think we have ever had an entire hearing 
on the Independent Living Program.
    And I think this is the right time. We just know so much 
more about how to support realistically and how to help. But I 
do think that the issue of the younger people needs to be 
addressed; years ago Bill knows we have talked about this 
program for a long time, and in visiting it, they would say to 
me, ``But my sister needs to be in this, no, my younger 
brother.'' And we really do need to take a whole different 
attitude because these kids whether they are 10, 11, or 12, are 
going to face a whole different imperative at 18 than any child 
that I ever raised, or any child, frankly, I ever knew.
    So I think we really have got to think through how do we 
prepare them for independence at 18 when our society doesn't do 
so. So you have given us a lot of good suggestions and really a 
lot of good information.
    I did want to mention two things--get your input on two 
things. First of all, it does seem to me, that we are doing 
these kids a terrible disservice not to really focus to some 
extent on this sort of life skills business at 14, so by 16 
they get a part-time job and we work with them through that 
interview. Not many hours a week, but a few hours a week 
because, for their education, that is every bit as important as 
getting their high school certificate, to know how to succeed 
in earning money.
    And, many kids start working part-time at 16, but they 
don't have any guidance in finding a job that might look good 
on their resume or that they can learn from that has skills 
that are applicable. So I think we should be rethinking what 
the goal of independent living is along the way, not 
interfering with school, but complementing it.
    And then the other thing I do want to bring up is your 
experience with key relationships. You know, the literature is 
very clear that a key relationship can make all the difference. 
So is there any way in your experience as administrators that, 
you could assign primarily more seasoned workers to this. A 
worker would be in contact with a person from age 14 and would 
be their key person.
    When I visited a group called the Bridge, over Christmas, 
one of the kids said to me, ``Why can't we choose our foster 
families?''
    Well, it is not a bad question actually. Not a bad question 
at all. So if you can foster that relationship of interviewing 
and choice, working with that worker, and then you have the 
same worker all the way through, and life skills as a part of 
it, and job readiness, and job experience, you know, the whole 
thing, then that person is your person till 21.
    So we just have to create continuity and a breadth of 
support that we just haven't even been thinking about.
    So those issues of younger kids, of key relationships, of 
the role of work are all things I will certainly have on my 
mind as we go forward.
    I am going to yield to my colleague, Mr. Cardin, because it 
is late, and we will give you each a chance for any comments 
you want.
    Mr. Cardin. Well, let me first just agree with the 
Chairman's observations. I think you have stated it well, and 
we are certainly going to work together on these issues.
    Mr. Garvey, I particularly appreciate you mentioning the 
Living Classrooms, quite a resource we have in Maryland, which 
has grown dramatically over the last several years, starting 
basically from scratch just a few years ago. And the number of 
clientele that they reach every year is amazing.
    I hadn't thought about its role in foster care, for 
children coming out of foster care. And I appreciate your 
bringing that connection. I have also visited UPS and seen what 
you have done first-hand, and congratulate you for your 
corporate citizenship in working with us. We need more of that.
    It just seems, as I listen to all of your testimonies, that 
there is a common theme here. And that is that children 
reaching the age of 18 need skills in order to be independent, 
and that we need to work with them to get those skills as early 
as possible. But even if we are very successful, for most 
children reaching the age of 18, they are still going to need 
some assistance for their housing. They are going to need some 
help. They are going to need some protected environment, some 
assistance to be able to become successful, even if they have 
the skills already.
    So that we need to have a more aggressive program. Now you 
have mentioned many programs in your States because of State 
initiatives or private initiatives or your ability to go get 
money from HUD, which I think is marvelous. I will have to 
encourage my State of Maryland to be more aggressive in that 
area. I am going to go back and talk to them.
    And also I just really wanted to emphasize the point that 
Mr. Young and, I know, Ms. Nixon with the Child Welfare League, 
have been very vocal on, and that is there are a lot of related 
issues here, and one of them is the commitment we made to you 
in TANF on funding. And that if we start to cut back on that 
commitment, it is going to make it more difficult for your 
budgets to be able to deal with protecting children. So we 
shouldn't be misled to think that if we make progress here, we 
had better not lose progress in other areas in order to have 
the financial wherewithal for our States to be able to provide 
these types of help.
    Mr. Pinto, you have given us some good suggestions on 
improvements that we could make on the initiatives. I hadn't 
thought of some of the additional points that you made, I just 
really wanted to compliment you on that.
    And let me throw on the table two areas that we haven't 
talked too much about. One is that in the legislation that I 
propose, we expand the tax credits for employers to make it 
easier for foster children to have job opportunities. That 
hasn't really been talked about much today. And second, some of 
you have alluded to savings; the legislation would increase the 
eligibility for children to be able to save more from $1,000 to 
$10,000 and not lose their Title IV-E eligibility, you may want 
to just comment whether either of those tools that are allowing 
children to save more or the tax credits could be useful in 
helping you place children in independent circumstances.
    Ms. Nixon. Chairman Johnson, I think you have really, 
really hit on a key concept when you said something about 
continuity. And I think that is another theme that has run 
through everything that has been said here today, that there 
needs to be continuity for young people as they approach 
adulthood in their ability to make connections with adults that 
care about them, and connections to the world of work, and 
connections to education that allow them to achieve an 
educational goal.
    When we talk about housing, there needs to be continuity. 
Young people need to have the ability to move from a foster 
home or a group home to an apartment program, to a community 
program and have flexibility in the amount of supervision, 
according to what they need, and the amount of support that 
they need.
    Absolutely, I think that tax credit is a good idea, 
especially if there is education and information that is made 
available to employers and to community-based programs that 
serve young people about accessing those tax credits.
    And we really think the savings issue is a critical one. 
There was a lot of feedback to us from the States about sending 
young people out on their own with only a thousand dollars in 
the bank that can't even help you make a security deposit in 
the first month. And people are having to spend too much time 
trying to think of ways to secure things instead of allowing 
young people to have savings that would help them get out there 
and establish themselves.
    Chairman Johnson of Connecticut. Ron reminds me, we ought 
to just ask you, Ms. Logan, how hard has it been to coordinate 
funding with HUD?
    Ms. Logan. Well, we began in 1991----
    Chairman Johnson of Connecticut. Slippery.
    Ms. Logan. What?
    Chairman Johnson of Connecticut. Slippery, huh? [Referring 
to the microphone.] [Laughter.]
    Ms. Logan. You saw my smile, right?
    Well, we began in 1991, a lot of lobbying, a lot of 
providing information to HUD. It took about 2 years to convince 
HUD that emancipated foster youth was a specific, defined 
population who were homeless on the street or who were at risk 
of being homeless. So somewhere between 2 and 3 years, we also 
met with members of our Congressional delegation, talking to 
people high up in HUD, using everything we had to get to the 
people at the top of HUD.
    And so it took 2 to 3 years, and at the end of that 3-year 
period, they did say that this was a specific class of citizens 
who were at risk of becoming homeless. And then we applied for 
one grant in 1991. We didn't get it.
    We applied for another grant in 1992, and we were 
successful. And since that time, we have taken the HUD money, 
and with the assistance of the Community Development Commission 
(CDC), the local agency that gets the HUD money, we have 
combined the HUD supportive housing money from CDBG funds and 
private dollars. And that is how we are able to get apartments, 
able to build apartment buildings in Los Angeles.
    So I would say that it was a lot of hard work in the 
beginning, but now they are recognized as a specific 
population, and, like I say, we have 11 HUD grants now. We have 
learned a lot.
    Chairman Johnson of Connecticut. That is very interesting 
and very helpful to us. Is there anything that any of you wants 
to add before we----
    Ms. Logan. I just wanted to add one thing about a specific 
person to provide continuity inside the department. In our 
department, we have hired almost a hundred former foster youths 
as full-time county employees. And they are known as 
emancipation assistants and youth workers because they are 
still, some of them are still teenagers and they are very 
young, they are the ones who call our other teenagers to 
convince them to participate in independent living and some of 
the other voluntary programs that we have. And they are our 
best advocates because they have lived through it.
    And like I say, we have a hundred of them, and they are 
full-time county employees.
    And the only other thing I wanted to add is about jobs. It 
is really important that young people have a work history. So 
both the city and county of Los Angeles have set aside summer 
youth employment jobs from the JTPA, Job Training Partnership 
Act, money just for foster youth. So there are certain set-
asides just for our young people so that when they leave foster 
care they will have a work experience and a resume that at 
least has two jobs. So they at least know what it means to go 
to work, get up, get to work on time, and to get along with 
people in the work environment.
    Chairman Johnson of Connecticut. I appreciate that, and 
that's a very important thing. I think if we do our job right, 
foster care kids can start in part-time jobs at 16 and really 
get the experience that they need. We are not preparing them 
for that. So, they need to work.
    Mr. Young. I do think that trying to look at the programs 
that work and offer real successes with very specific outcomes 
is very important. I also agree with comments earlier that 
there are some fundamental shortfalls like a transition plan to 
a homeless shelter, which I caught one of my folks doing not 
too long ago. You know, it's just crazy. And there is a real 
need for support, and the States need to stand up for their 
responsibilities too.
    But there is a need for some fundamental support while we 
are working on some of these other critical issues for these 
kids. And I don't want to lose sight as we talk about some of 
the good work I have heard today about some fundamental 
shortfalls, that a child has to have a place to stay and food, 
and just as we need to expect them, just as we do, I think, 
with many of our own kids about, you know, what are you doing 
to help the family along, while you transition to adult life.
    We need to do that too, but we shouldn't shy away from the 
fact that there are some fundamental shortfalls I think that 
States are really struggling with, some doing a better job than 
others. But I think across the country--you have correctly 
identified some real issues that we need to address.
    Chairman Johnson of Connecticut. Mr. Garvey, UPS does this 
with a Casey grant. If we gave companies like yours a tax 
credit, would that be enough, or do we have to put money into 
private sector participation?
    Mr. Garvey. Well, I can't really answer that question 
directly. I can share a thought with you. And the thought is 
this. I think it is very similar to school-to-work and welfare-
to-work. I don't think that folks, with all due respect, and 
please, I want it to be taken that way, folks from the public 
sector can go out to the private sector and sell a program. I 
think that there are so many programs that come beating on 
private industry's doors that they almost become numb to it.
    However, when someone from private sector speaks to their 
counterpart within this private sector, another organization, 
their words have weight and meaning. Now, the perfect example 
is the welfare-to-work initiative going on throughout this 
country right now, and the welfare-to-work partnership where 
you have tens of thousands of employers engaged because other 
private-sector representatives have gone to them and solicited 
their help and showed them the benefits and the rewards for 
being involved in these types of activities.
    So, I guess I skirted your question. Would tax credits do 
that? I don't know. I do know that the private sector is more 
likely to listen to their counterparts in the private sector 
when talking about these types of issues and engaging these 
types of issues.
    And if I may there is one other point----
    Mr. Cardin. But on that point, let me just interrupt. 
Sometimes we get their attention because of the--it's not only 
good policy for the country, it makes good economic sense for 
the business, and, by the way, there are some incentives to 
move in this direction. We take away some of the risks.
    So I think you are right. It's tough for us to get in the 
door to make the sale. You do a much better job at it. But we 
also have to provide the climate and the incentives to make it 
work.
    Mr. Garvey. Please pardon me. I was not discounting the 
thought at all. I was not answering the question because quite 
frankly I don't have an answer. I don't know.
    Chairman Johnson of Connecticut. I mean one of the things 
we really need to think more about is how do we incentivize 
States to get the business community involved, to get the much 
more flexible job training capability--those dollars involved. 
How do we get them to really look at HUD and HUD's programs, 
and our extraordinary capacity to develop affordable housing 
through the low-income housing tax credit. There is a lot of 
stuff out there. And there is a lot happening, but it actually 
isn't touching on this population. They don't get thought of to 
get into it.
    And so I think some way of incentivizing States is 
necessary because the agencies that run these programs are 
really under a lot of pressure.
    Mr. Garvey. There is an inherent danger that we have seen 
with welfare-to-work and I'm sure you have seen it on a much 
broader scope than I have. This is an observation that when you 
apply tax credits as an incentive, it can draw undesirable 
types to the table also because there are folks that follow the 
dollar and economics of it.
    And I guess if there were a fire wall to protect the 
children and the tax credits from that type of organization 
that is seeking just the tax credits and the sheer economics of 
it----
    Mr. Cardin. That is a very interesting point. And it may be 
that we ought to put the burden on the States to develop sort 
of a business group that we are doing that, and then there 
would be money freed up if they were able to do that because 
that is a really terrible thought.
    Mr. Young. I really think that one of the things, and we 
kind of have a bee in our bonnet in Vermont just because we 
have had some real success and that is a way of bringing all of 
the people, all of the players in the community to the table, 
is this business of combining both flexibility about funding 
with clear outcomes tied to local efforts, not even statewide 
efforts, but local efforts.
    And we are developing outcomes across human services by 
school--we don't do it by counties, we do it by school 
supervisory unions--so that we can look at a whole host of 
outcomes. For example, for communities, and I think somewhere 
in this packet I have a booklet that we give to each 
supervisory union across a whole range of outcomes in human 
services, among them that, you know, youth transition to 
adulthood successfully. And some of those we have very clear, 
measures, and some we don't. But we find that when we can 
challenge local communities and tie it to some assistance, that 
they come up with plans that we would never think of that are 
much better than if I said, you know, as we used to do, here's 
this program and it has to look exactly like this in every one 
of my regional offices.
    They think of things we would never think of, and they are 
invested because it is their plan. So I do think having--
whatever we can do to encourage that kind of flexibility but 
tied to really clear outcomes, where there is a continuous 
process of assessing. ``Are you achieving what we want to 
achieve?'' It does engage local businesses and schools and 
faith communities and a whole host of folks who usually, well 
not usually, but often are at the table in helping us out. Any 
approach that----
    Chairman Johnson of Connecticut. Certainly the study that 
looks at what we have done in welfare does demonstrate that 
those States that have been able to generate exactly that kind 
of attitude toward welfare and involvement and so on are doing 
much better than the rest. So any thoughts you have would be 
welcome, and we look forward to working with any of you on how 
we can assure that flexibility and the accountability. But 
also, if we do this right, we have a chance actually to change 
foster care from a child dependence program, particularly from 
14 to 18, to the kind of child development program that it 
really needs to be.
    Were you pulling the microphone over?
    Mr. Pinto. I just wanted to make one statement as someone 
who has spent the last 10 years making many, many trips to 
Washington to speak about independent living and the needs of 
older youth in foster care and more than likely getting a 
handshake and a 20-second meeting and being shown the door, 
other than Mrs. Johnson, who has given me ample time to get on 
my soapbox and speak about this. But as someone who has 
dedicated his professional life to older kids in foster care 
and independent living, I can't thank you enough for today. It 
was very exciting, it makes me extremely optimistic, and I 
really feel that finally we have some folks here that 
understand the issue, and understand the need of these kids. 
And we are talking about a segment of our population, 
adolescents as a whole, that is kind of viewed as dangerous 
rather than endangered.
    And I think today was dialog to begin to change that 
notion, and I thank you very much.
    Chairman Johnson of Connecticut. Well, thank you all for 
your testimony, and we look forward to working with you.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of Mark E. Courtney, University of Wisconsin-Madison

    Today I am going to share with you some results from a 
study conducted by myself, Irving Piliavin, and Andrew Grogan-
Kaylor at the University of Wisconsin-Madison of the 
experiences of foster youths who aged out of the Wisconsin 
foster care system in 1995 and 1996. I will also share with you 
our recommendations for improving government support for 
persons making the transition from the care of the state to 
independence.
    Our study is following foster youth from before they left 
the system until three years after they exited. Thus far we 
have interviewed 141 of them once while they were in care and 
113 of those, or about 80 percent, 12 to 18 months after they 
were discharged from the system. The youths had been in care at 
least 18 months, an average of over five years, and therefore 
we believe that the system had a clear responsibility to 
prepare them for independence. I will focus today on selected 
findings regarding the experiences of our respondents 12 to 18 
months after they left care.
    The youth were asked a number of questions about their 
preparation for independent living. We asked whether they had 
been trained in a number of areas specified in law and 
regulations. The average percentage of sample members reporting 
that they had been ``trained'' in a given area was 76 percent. 
However, far fewer had actually been provided concrete 
assistance in carrying out essential tasks associated with 
independent living. For example, fewer than one fifth had 
received any job training, participated in a mock job 
interview, been told how to apply for public assistance, 
received help finding a job, or help obtaining housing, 
personal health records, or health insurance. Not surprisingly, 
over one-quarter of the former foster youth felt either not at 
all, or not very well prepared in a number of important areas 
including getting a job, managing money, obtaining housing, 
knowledge of community resources, parenting, and living on 
one's own.
    Almost a third of the youths were at or below an eighth 
grade reading level when we first contacted them. Not 
surprisingly, given their educational deficits, by 12 to 18 
months past discharge 37 percent of the young adults had not 
yet completed high school, 55 percent had completed high 
school, and only 9 percent had entered college.
    The former foster youths had significant unmet health and 
mental health needs. Forty-four percent of them reported having 
trouble obtaining medical care most or all of the time. Of 
these, 90 percent reported that this was due to a lack of 
health insurance coverage or care costing too much. Nearly half 
of our respondents had received mental health services in the 
year prior to our interview with them while they were in out-
of-home care. Nevertheless, in spite of no change in their 
overall mental health status, only about one-fifth had received 
any mental health services in the year prior to our second 
interview, after they had left care.
    Achieving self sufficiency was difficult for a large 
percentage of the former foster youth. Fewer than half had at 
least $250 when they were discharged from the system. Only 
three-fifths were working when we interviewed them 12 to 18 
months after discharge. Even those employed earned on average 
slightly less than a full-time minimum wage worker. All told, 
44 percent of the group had either been homeless, incarcerated, 
or received public assistance since leaving the care of the 
state.
    What do we believe should be done. First, the unmet health 
and mental health needs of youth aging out of foster care are 
considerable. Common sense calls for extension of Medicaid 
eligibility to these youth through the age of twenty-one. 
Second, additional funding should be made available for 
concrete assistance to youth making the transition to 
independence. Currently, most services focus on education about 
independent living skills while providing limited if any 
``hands-on'' experiences for youth. What is lacking are 
adequate opportunities for former foster youth to return to the 
system for help when that help is most needed and appreciated. 
This would include various kinds of concrete assistance in 
dealing with obstacles to self sufficiency and, perhaps most 
importantly, transitional housing. We believe that extension of 
the Title IV-E entitlement to twenty-one would be the easiest 
way to accomplish this. Moreover, our research suggests that 
the cost of doing so would not be as much as might be expected 
since former foster youth who are reasonably self sufficient 
would not take advantage of the entitlement. At a minimum, 
substantial targeted funding should be made available to 
develop and evaluate such programs. Third, funding regulations 
should be changed to require independent living programs to 
help youth to maximize the potential, and minimize the harm, of 
their relationships with their families of origin. One-third of 
our respondents lived with kin after leaving the care of the 
system and most maintain significant contact with their 
families. Social support appears to be the best predictor of 
self sufficiency for these young adults, a much better 
predictor than the amount of independent living training they 
received. It is time to stop pretending that foster youth do 
not have families. Lastly, current and future independent and 
transitional living programs must be subjected to much more 
thorough outcome evaluation. Our nation has spent over one 
billion dollars on these programs over the past decade while 
learning almost nothing about what works for whom.
      

                                <F-dash>


Statement of Sister Mary Rose McGeady, D.C., President, Covenant House

                              Introduction

    Covenant House is very pleased that the President and the 
Congress have placed the issue of aging-out foster care youth 
on the national agenda. We would like to thank Congresswoman 
Nancy L. Johnson for taking the leadership on this matter by 
holding hearings on this very important issue.
    This hearing presents us with the opportunity to have a 
long overdue dialogue about a segment of our population that is 
often overlooked in many of our social programs, namely young 
adults between the ages of 18 and 21. There will be volumes of 
information presented to this Subcommittee on the challenges 
facing older youth leaving foster care. We would like to offer 
the Committee a description of our Rights of Passage program as 
a model for meeting some of the challenges facing this 
population.
    In the United States today, we often think of a person who 
is 18 years old as an adult. At 18, a young person has the 
right to vote, to defend our country in wartime and is expected 
to make critical decisions about his/her life. As parents we 
might give our children more responsibility at 18 than we would 
at 16 because we want them to begin to behave more adult-like. 
In fact, many of our federal, state, and local social programs 
for children and youth often end when a young person reaches 
the age of 18 because we expect that, at this age, an 
individual should be able to adequately provide for him/
herself. But we also know that under ``normal'' circumstances, 
children at this age struggle to meet these expectations, even 
with the assistance of a loving, caring, and supportive family 
environment. These children still rely on their parents for 
guidance and financial support as well as their network of 
friends and colleagues to assist along the way. In fact, many 
middle class parents would agree that their children do not 
really begin to approach adulthood until they graduate from 
college, obtain their first ``real'' job and find their own 
housing, which might not happen until age 25.
    But what about young people who do not have this kind of 
support system? How do they successfully make the transition 
from adolescence to adulthood? How does the homeless youth, the 
youth who has been orphaned by AIDS or substance abuse, and the 
youth leaving the supportive environment of foster care begin 
to create a life for him/herself? Almost thirteen years ago 
Covenant House pondered these questions. We realized that we 
had to create a support system for these young people to help 
them become productive adults. Consequently, we established and 
implemented one of our most successful programs for homeless 
and at-risk emancipated youth, our Rights of Passage (ROP) 
transitional living program. We believe--and our experience has 
proven--that this program encompasses the components necessary 
to successfully move emancipated youth into adulthood. These 
important components include access to housing, vocational 
training and jobs, educational programs, access to daycare, 
access to medical care, and most importantly, access to caring, 
supportive individuals such as program staff and mentors.
    Covenant House is the country's largest privately funded 
childcare agency providing services to homeless, runaway, and 
at risk youth in 14 cities across the nation. Last year our 
programs provided food, shelter, clothing, counseling, medical, 
educational, and vocational services to over 41,000 youth in 
our residential programs, community service centers, and van 
outreach programs in the United States. Sixty-five percent of 
the youth we serve at Covenant House are between the ages of 18 
and 21. About 40 percent of these young people have been in 
foster care. Many of them are estranged from their families 
while others have no families at all. Consequently, they often 
become residents in transitional living programs like Rights of 
Passage. The Covenant House ROP program serves as a model that 
we believe can transform the lives of young people so that they 
become independent, self-sufficient adults.

                             Case Histories

    After Ohio Children's Services removed him from an abusive 
home, George spent his adolescence in a foster home with a 
loving and supportive foster mother. Although she would have 
been glad to allow him to continue living with her when he 
turned 18, he had to leave because there were younger foster 
children in the home. George had dropped out of school but was 
working. His job, however, did not provide enough money for him 
to maintain an apartment, so he decided to join the crew of a 
carnival that traveled around the country. After several 
months, George came to Florida with the carnival and decided he 
did not want to continue that tough, wandering life. He called 
the Nineline (1-800-999-9999), Covenant House's national 
hotline for youth and families, and was referred to Covenant 
House Florida in Ft. Lauderdale. He spent several months at our 
Crisis Center, where he obtained his GED and completed several 
components of our ROP program that prepares older adolescents 
for the world of work.
    David lived in foster care in New York City from age 11 to 
18. At 19 he moved to South Carolina to live with his 
grandfather, but this arrangement did not last long. During his 
stay with his grandfather, David got a job and soon after moved 
into an apartment of his own. Six months later, David was laid 
off from his job, was unable to pay his rent, and lost his 
apartment. He turned to his family for help to no avail. 
Finally, an uncle living in New York City agreed to help David 
and he returned to New York. This living arrangement did not 
last long because David was having difficulty finding a job and 
was asked to leave his uncle's house. David came to our Crisis 
Center because he did not have a place to stay. He worked with 
the job developers at Covenant House and was employed within a 
month. He moved into ROP and is currently employed at Staples 
earning $6.50 per hour. He has been at ROP for six months and 
we believe he will be ready to move into his own apartment in 
another six months.
    Dionne entered the California foster care system at age 13. 
Following placement in several different group homes, she came 
to Covenant House California when she aged out of the system. 
After several attempts, she successfully entered the Right of 
Passage program, completed all three phases of the life skills 
curriculum, and graduated into a supportive apartment. Dionne 
is currently employed full-time at another social service 
agency in Los Angeles. She also volunteers at Covenant House as 
a peer counselor on the outreach van. One of her goals is to 
attend college to study early childhood development so that she 
can help others who have come through the foster care system.
    John is a 20-year-old male who initially came to Covenant 
House Washington (CHW) at the age of 18 seeking assistance to 
obtain a GED. After being in the District of Columbia foster 
care system from the age of 12 to the age of 18, John decided 
that he no longer wanted to receive foster care services 
because he did not like the restrictions the system placed upon 
him. During that time he was in four separate foster homes. In 
his last two placements, he was separated from his biological 
brother and sister. Initially, John bounced from place to place 
and sometimes lived on the streets. His attendance at CHW was 
sporadic and his behavior ranged from cooperative and studious 
to disruptive and inattentive. With the continued encouragement 
of CHW staff, John has moved into shelter where he is living 
presently. In the meantime, CHW is assisting John with 
counseling, meals, GED studies, employment, and emotional 
support.
    Mary is a young woman from our program at Covenant House 
New Orleans. She entered the foster care system and was placed 
with a number of families, some good and some bad. Finally, she 
was placed in a group home setting where she remained until age 
18. As she states in her own words:

          I left with good behavior, but it hurt because once again I 
        was leaving a home. So then I started running away too scared 
        to get close to anyone and afraid to let anyone help and it 
        messed me up. I was leaving good and bad places, having 
        nothing, no one and no place to go, sleeping outside or 
        anywhere I lay my head. Being in the custody of the State was 
        hard for me all the way even though it bettered me in so many 
        ways. I had people to love and care for me. It gave me the 
        opportunity to go to school and become somebody. If I were with 
        my parents I would not be who I am today. Though it hurt me to 
        get taken away from my family, it saved my life from failure.
          What happened to me was painful but people go through worse. 
        The pain and troubles don't stop at age 18. The State needs to 
        expand the after care program into programs like this one 
        [Covenant House]. When you get out of States Custody you 
        shouldn't have to fall homeless and then get help because some 
        people fall and don't get up. It should already be set before 
        we make 18 to go to a transitional program. When I left States 
        Custody I had to fall homeless and get back up. It's like after 
        18 you're on your own and life is going to fall into place. 
        That's not how it always works. At the age of 18 life gets 
        harder and you have to deal with it alone. Transitional 
        programs should be there for the extra schooling, work, or 
        parenting classes--the structure, guidance, and discipline that 
        teens need.''

    These stories are representative of many young people who 
come to our Covenant House sites. Some are running away from 
abusive or neglectful situations; some have been thrown out of 
their homes due to pregnancy, unemployment, or incarceration, 
and some are escaping domestic violence and substance abusing 
parents. Many of these young people have tried to make it on 
their own, but were unsuccessful. For many of these youth, 
Covenant House is their last chance.

                           Rights of Passage

    The Rights of Passage (ROP) program began 13 years ago at 
our New York site as a response to the increasing numbers of 
youth we were seeing who had no place to call home and who were 
having a difficult time making it on their own. Covenant House 
currently operates eight ROP programs across the country. ROP 
is a long-term transitional living program which provides a 
unique opportunity for homeless young men and women, aged 18 to 
21, who are motivated to take control of their future. It 
offers a safe and stable living environment, where young people 
are able to focus on pursuing their educational and vocational 
goals and prepare for the responsibilities of adulthood. ROP is 
a unique collaboration of a broad range of individuals, from 
staff and volunteers to mentors and private sector business 
people, working together to help our youth approach their long 
term goal of independent living.
    Our primary objective in ROP is to help youth adjust to the 
world of work. However, daily living in the program presents 
each young person with a variety of challenges including 
interaction with peers, management of time and money, 
negotiating social systems, learning responsibility to self and 
others, setting priorities, and focusing on realistic goals. 
ROP is a community of people working together to foster growth 
through positive relationships. Staff and youth share meals, 
recreational activities, and other aspects of daily living. 
They also hold special activities such as group meetings, 
workshops, retreats, camping trips, and other excursions. In 
many ways ROP can be seen as a school for positive independent 
living. Participants are presented with the opportunity to 
learn through counseling, daily interaction with staff and 
peers, facing challenges, and accepting and correcting 
mistakes.
    ROP operates on the premise that stable employment is the 
key to true independence. To this end the program has three 
major components to assist our young people overcome barriers 
to gainful employment. They include a vocational/job placement 
program, an educational program, and a mentor program.

                        Vocational/Job Placement

    The Vocational Training Program provides job-specific 
training, educational support, and direct placement upon the 
successful completion of the training. Course areas include 
building maintenance, office assistant, business technology, 
culinary arts, desktop publishing, home health aide, medical 
receptionist, metal and marble restoration, nurses aide, 
landscaping, and silk screen printing. All training programs 
are joint ventures with private sector businesses, and are 
taught by in-house staff and volunteer professionals from each 
industry. ROP staff also refer participants to training 
programs offered by other providers in the community when 
appropriate.
    We are constantly seeking varied opportunities for youth to 
gain access to employment. Ezekiel's Cafe is an earned income 
project managed by our Covenant House New York site, which 
employs our young people directly. The cafe offers a creative 
approach to preparing our young men and women for the job 
market. Two new earned income projects, desktop publishing and 
silk screen printing, are currently being developed and 
implemented. At Covenant House New Orleans, White Dove is 
another such project which trains our youth for jobs in 
landscaping. White Dove has secured contracts to care for areas 
as diverse as community gardens to sections of the city's 
highway.
    Job Placement Services develop employment opportunities for 
young adults. Clients meet with counselors, attend vocational 
workshops, prepare resumes, and take assessment tests to 
determine their skill and academic level. Our job development 
staff initially work to secure entry-level jobs from private 
sector partners. In New York City, for example, the Covenant 
House job bank has grown to over 655 companies that employ our 
youth in a wide range of industries from banks to building 
maintenance. We cannot overestimate the importance of getting 
private businesses involved in any endeavor designed to help 
youth transition to adulthood. Youth need an economic base from 
which to build in order to reach independence, and employment 
is the key to that base.

                          Educational Program

    The Educational Program, sometimes directly and mostly 
through collaboration with other agencies, provides day and 
evening classes, volunteer tutors, and computer-assisted study 
programs to offer courses that include Adult Basic Education, 
English as Second Language classes, General Education Diploma 
preparation, and assistance to students in accessing higher 
education. At Covenant House we understand that as our young 
adults improve their educational skills, they also increase 
their chances of getting a higher paying job which takes them 
closer to permanent housing and independence.

                             Mentor Program

    The Mentor Program matches each resident to one of a select 
group of professional men and women who have volunteered to act 
as advisors and role models for these young people. For many of 
our young people it is the first time in their lives that they 
will experience a supportive, one-to-one relationship with an 
adult. Our mentors play an important role in providing our 
youth with employment and career advice. Mentors are an 
integral part of Rights of Passage. Our graduates consistently 
rate mentors as a key factor contributing to their success.

                        Other Essential Services

    In addition to the three major areas of ROP outlined above, 
ROP residents also have access to other services that are 
essential to their success while in the program. They are able 
to have their health care needs met directly through our free 
clinics and through collaborations with local hospitals. Upon 
leaving ROP, however, many young people find themselves without 
access to medical services. They sometimes do not have jobs 
that offer them medical benefits and often do not qualify for 
Medicaid or other state run health programs because of their 
age or income. Unfortunately, these young people then become 
part of the large population of uninsured working families in 
America. We fully support the President's proposal to extend 
Medicaid benefits to this age group and hope the Congress will 
join us.
    Young women with children make up about 30 percent of our 
ROP residents. They are some of our most motivated and 
responsible ROP participants. They tend to be more focused and 
driven to accomplish their goals. While the mothers reside at 
ROP, they have access to safe affordable daycare for their 
children. We encourage all our mothers to apply for subsidized 
daycare upon entering our program so they will have it upon 
graduation. However, far too many of them do not get daycare 
because there are not enough slots available. This situation 
has been worsened by the competition between working mothers 
and mothers on welfare who have been given priority for daycare 
slots. Consequently, some of our young mothers are unable to 
fulfill their job commitments because they have no stable 
daycare arrangements and as a result of increased absenteeism, 
become unemployed. With no income, they lose their apartments. 
Some of these young women end up on welfare in order to 
survive. We need to increase funding to the Childcare Block 
Grant to States in order to expand daycare opportunities. This 
will prevent many young women from having to choose welfare 
over work.
    One of the most important aspects of our program is helping 
our youth find a permanent home of their own. Access to 
affordable housing is one of the biggest challenges facing our 
young people leaving the ROP program. Many of our sites have 
apartment programs to assist our young people with housing. We 
also seek collaborations with low-income housing providers in 
order to secure affordable housing for our youth. More 
opportunities must be created so that young people can gain 
access to affordable housing.

                               Conclusion

    Over 60 percent of ROP participants graduate to independent 
living. This means that after they leave the program they 
continue to be employed and are living in a stable environment. 
While we are proud of this success rate, naturally we continue 
to search for ways to improve. We are also very cognizant that 
we cannot do this work alone as evidenced by the public and 
private partnerships and collaborations outlined earlier.
    The most important challenge that we face in helping young 
people make the transition to adulthood is the lack of adequate 
programs like ours available to assist them. Covenant House 
operates eight transitional living programs across the country 
with an average daily census of 296, and still we have long 
waiting lists. Clearly, there is a need for more programs for 
our young people to help them successfully transition to 
adulthood. We hope that the Congress will increase the funding 
to provide much needed programs like these for aging-out foster 
care youth.
      

                                <F-dash>


Statement of Louis H. Henderson, President, National Association of 
Former Foster Care Children of America

    My name is Louis H. Henderson. I am the President of the 
National Association of Former Foster Care Children of America. 
NAFFCCA is a nonprofit organization that manages services for 
the Children and Family Service Agency. The services offered by 
NAFFCCA cover the scope of providing housing through its 
Independent Living Program which obtain housing in various 
apartment complexes within the community for young foster care 
individuals between the ages of 17-21 years old who are in the 
custody of CFSA.
    Today I bring before this committee my personal story, and 
a thorough understanding of the foster care industry and 
specific recommendations for how the system and the foster care 
service delivery model should change. This testimony is 
presented for the purpose of enhancing the credibility for the 
need to support changes in a system which has for too long not 
benefitted from refreshing paradigms truly designed for real 
impact.
    I entered the foster care system at the age of two (2) and 
for sixteen (16) years I was treated to what seemed like an 
endless series of insensitive moves from home to home, foster 
parent to foster parent, and from one unstable condition to 
another. Throughout this ordeal of being sent, assigned, and 
moved, the most unfortunate reality was that at no time was any 
attention paid or any inquiry made relative to my personal 
wants, dreams or desires. The system designed to advocate for 
me was most to blame for making me feel like an economic clog 
in the government-backed wheel. Fundamentally what the system 
lacks is a focus on the personal outcomes of the individual.
    The totality of this sixteen-year ordeal represents a blur 
of frustrations largely associated with the loss of my 
personhood, dignity, and my conviction that adults with 
influence could and would really work for and with my best 
interest. The fundamental breakdown was the lost of trust in 
anything other than what I knew I would do for myself. It is my 
hope that whatever comes from this hearing will support the 
restoration of trust that foster children have in adults with 
power.
    What we do with our past experiences either supports or 
debilitates our future potential to make a contribution that 
supports our own lives and the lives of others.
    I've made a personal life commitment to supporting real 
change in the foster care system. Clearly this industry faces 
many challenges. It is my opinion that two critical changes 
must be a part of the national solution. I make these 
recommendations with the affirming benefit of dialogue with 
influential and experienced city leaders, with a close 
examination of the research and with the perspective of my 
first-hand experience.

                            Recommendations:

    <bullet> That local block grants be expanded that will 
support local efforts deigned around local partnerships 
including corporations, universities, business working with 
social services agencies, and that each initiative has an 
evaluation component.
    <bullet> That each new initiative has the policy support 
that incorporates clear lines of accountability that ties 
dollars to outcomes determined by an action-research assessment 
of whether or not the foster child services were designed and 
did in fact have a successful impact.
    NAFFCCA believes that theory and practice must be the 
operating model for any new change design. It is for that 
reason that the National Association of Former Foster Care 
Children of America has joined with the Lt. Joseph P. Kennedy 
Institute of Washington, D.C. and the Ed-Tech Educational 
Corporation to implement a new model of one stop shopping which 
provides each fosters care child with a complete continuum of 
services from independent living to education, to the 
evaluation of the individual's personal outcomes for success. 
It is important to note that this model is currently meeting 
with great success in significantly increasing the number of 
people and resources to support the objectives of the foster 
care system. With this new model this local area (District of 
Columbia) now, clearly has more people working on problem-
solving.
    Additionally the National Association of Former Foster Care 
Children of America's mission has found a supportive meeting of 
mission with the Points of Light Foundation. This powerful 
organization has generously inserted its willing spirit and 
proven track record toward supporting the foster care cause. 
Their support for our goals should not go unrecognized as an 
exemplary model of what can happen when organizations join 
together to wrestle a social problem that has historically been 
approached in isolation. The Points of Light Foundation with 
it's spirited and devoted national leadership has modeled for 
us the positive outcome of what happens when partnerships and 
mergers are formed to advance the lives of children. This union 
of support is already showing great promise for replication 
(ability) with applications in other urban and rural 
communities. The merits and success of these two partnerships 
working to support NAFFCCA have given the nation a big push 
forward in our pursuit of knowing and implementing what really 
works.
      

                                <F-dash>


Statement of National Network for Youth

                               Background

    The National Network for Youth is a 24-year-old privately 
supported, non-profit membership organization committed to 
advancing its mission to ensure that young people can be safe 
and grow up to lead healthy and productive lives. Through its 
relationship with 10 regional networks across the country, the 
National Network represents over 1,500 constituents, primarily 
community-based youth-serving agencies located in all fifty 
states. The majority of our members work with runaway and 
homeless youth through a comprehensive array of programs 
including temporary emergency shelters, long-term transitional 
living services and street outreach programs.
    As the Subcommittee on Human Resources considers testimony 
and policy recommendations regarding the challenges confronting 
older children leaving foster care and the expansion of the 
Independent Living Program, the National Network for Youth 
would like to highlight, as a model for this expansion, the 
Transitional Living Program. For over a decade the Transitional 
Living Program has served as a bridge for homeless young people 
by assisting them to successfully transition to adulthood.

                    The Transitional Living Program

Funding and Administration

    The Transitional Living Program is one of three programs 
funded by the federal government through the Runaway and 
Homeless Youth Act, Title III of the Juvenile Justice and 
Delinquency Prevention Act. In fiscal year 1999, $14.949 
million was appropriated for the Transitional Living Program. 
The President's budget for fiscal year 2000 provides $20 
million for the Transitional Living Program, an increase of $5 
million. The Program is administered by the U.S. Department of 
Health and Human Services, Family and Youth Services Bureau, 
which allocates funding through a competitive grant process to 
community-based organizations serving homeless youth. Funding 
priority is given to organizations that have experience working 
with runaway and homeless youth and an in-depth understanding 
of the issues that confront them. In 1998, seventy-eight 
programs across the country were funded through the 
Transitional Living Program.

Overview of the Transitional Living Program

    Most young people learn the skills necessary for successful 
transition into adulthood by caring parents, guardians, other 
family members and through school. However, a large number of 
youth who are homeless in this country do not have caring 
adults in their lives to help them learn these skills and, 
oftentimes, they are disconnected from schools. Often, these 
young people experience tremendous hardship in their ability to 
secure stable housing, educational opportunities and employment 
and, as a result, are confronted with an increased risk of 
long-term homelessness, physical or mental illness, dependency 
on welfare and other difficult challenges.
    The main goal of the Transitional Living Program is to 
guide, encourage and assist runaway and homeless youth to 
successfully transition to self-sufficient adulthood. The 
Transitional Living Program provides homeless youth, ages 16 to 
21, with long-term shelter, a structured environment and other 
services designed to promote transition to self-sufficiency and 
``to prevent long-term dependency on social services.'' The 
young people who receive services from Transitional Living 
Programs are not able to live with their families because of 
safety concerns and they have no other safe living 
arrangements. In addition, the Transitional Living Program 
often serves as a safety net for young people who either age 
out of, or who do not qualify for services in the Child Welfare 
System. The Program also works with system youth who have been 
shuffled from one foster home to another and eventually run 
away from such unstable care. In short, these young people are 
disconnected from their families, schools, communities and 
other systems.
    In Transitional Living Programs, young people learn basic 
life skills such as money management, budgeting, consumer 
education and responsible use of credit. In addition, 
Transitional Living Programs promote educational advancement, 
teach young people to become proficient in securing and 
maintaining meaningful employment, and connect young people to 
opportunities and supports available in their communities.
    In order to participate in a Transitional Living Program, a 
young person must maintain employment and/or be enrolled in 
school--high school, community college, university, vocational 
training or a GED program. Program participants are also 
responsible for paying rent, maintaining a savings account, 
contributing to household chores and activities, setting both 
immediate and long-term goals and working to achieve those 
goals.
    A guiding principle in providing services through the 
Transitional Living Programs is Youth Development. Youth 
Development is an approach to working with young people that 
connects them to supports and opportunities within their 
communities and actually involves them in decision-making and 
leadership roles. By involving young people in this way, they 
become more invested in what they learn, more committed to 
attaining their goals and, in the process, develop valuable 
leadership skills and experience. These skills and experiences 
are instrumental in a young person's ability to become self-
sufficient, to develop positive family and social relationships 
and to become a productive, contributing member of his/her 
community.
The Effectiveness of Transitional Living Programs

    A recent study conducted by Covenant House New Jersey 
demonstrated that Transitional Living Programs are effective in 
assisting young people to transition from homelessness to self-
sufficiency.\1\ In a survey of all seventy-eight federally 
funded Transitional Living Programs conducted from November 1, 
1998 to January 8, 1999, Covenant House New Jersey found:
---------------------------------------------------------------------------
    \1\ Covenant House New Jersey. 1999. The Runaway and Homeless Youth 
Law Project. New Jersey: Author.
---------------------------------------------------------------------------
    1. Programs reported that, as of the date of their 
responses, 78 percent of young people in Transitional Living 
Programs were employed; most of these youth were employed full-
time.
    2. Sixty-five percent of Transitional Living Programs 
residents attended school.
    3. Eighty-five percent of Transitional Living Program 
residents did not receive any direct government subsidies, such 
as Temporary Assistance for Needy Families (TANF) or Medicaid.
    4. Remarkably, of the programs which reported on outcomes, 
74 percent of residents were discharged to stable housing. 
These same programs reported that 78 percent of TLP graduates 
remained free of all direct government aid six months after 
discharge.
    In another comprehensive evaluation of Transitional Living 
Programs conducted by CSR, Incorporated under contract to the 
U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families, the author concluded that youth 
who participated in the Program were faring better than their 
non-TLP counterparts.\2\ According to the study, after six 
months of program participation, the overall positive outcomes 
of the evaluation were:
---------------------------------------------------------------------------
    \2\ Department of Health and Human Services. 1997. Evaluation of 
the Transitional Living Programs for Homeless Youth. Washington, D.C.: 
CSR, Incorporated.
---------------------------------------------------------------------------
    <bullet> More participant youth said their health had 
improved;
    <bullet> More participant youth had savings;
    <bullet> More participant youth were employed;
    <bullet> Fewer participant youth were dropouts;
    <bullet> More participant youth were in college;
    <bullet> More participant youth were both employed and 
attending school.

The Real-Life Experiences of Youth Served by the Transitional 
Living Program

    ``I was born and raised in Chicago. My mom has a drug 
problem and my dad is an alcoholic. They separated when I was 
little. I lived with my mom, my aunt and her four children. One 
day my mom left. I didn't know where she was. Soon, things 
didn't work out with my aunt, so I left and lived on the 
streets. I stayed in school the whole time. I didn't tell my 
teachers or friends about this, but I wrote a poem about 
homelessness. One of my teachers read it and said I had to know 
first-hand from what I'd written. I was referred to Teen Living 
Programs [funded through the federal Transitional Living 
Program.] I am proud that I graduated from high school and the 
TLP. Now I'm working full-time, have an apartment, and I'm 
going back to college.''--Kim, age 26
    ``Two years ago, I was homeless. I was in and out of foster 
homes until I was 16, when the state took me away for good from 
my mom and my stepfather, because of physical and emotional 
abuse. I had a foster family for two years, but I had to leave 
when I turned 18. I tried technical college, but that didn't 
work out. I tried to join the Army, but I didn't get in. I had 
no money and no place to go. I stayed for a while with my last 
foster family and they helped me find the Transitional Living 
Program at the Youth Services Bureau, in Montpelier, Vermont. 
Now, I have my own apartment and I'm in college part-time. I'm 
going full-time this August.'' Stacie, age 20.

                               Conclusion

    For over a decade the Transitional Living Program has 
effectively served as a bridge for homeless young people as 
they transition from adolescence and adulthood by providing not 
only safe shelter, but access to critical opportunities and 
supports such as education and employment. Many young people 
who have graduated from the program are self-sufficient, active 
members of their communities which points to the success of the 
Program. We strongly believe that the Transitional Living 
Program can serve as a model as you work to expand the 
Independent Living Program.
    If you would like further information about Transitional 
Living Programs around the country or if you have any questions 
about this written testimony, please do not hesitate to call.
      

                                <F-dash>


                                     New Pathways, Inc.    
                                        Baltimore, MD 21212
                                                      March 8, 1999

The Honorable Nancy Johnson
2113 Rayburn H.O.B.
Washington, D.C. 20515

Re: Support for H.R. 671

    Dear Madame Chair,

    I am writing this testimony in support of H.R. 671 as a 
representative of New Pathways, Inc., a private non-profit agency in 
Baltimore, MD. Our agency provides independent living services to 
transition-aged youth in the foster care system, who are between the 
ages of 17 and 21. These youth have typically been in the foster care 
system for the majority of their lives due to some degree of abuse, 
neglect and/or abandonment by their biological families. We provide 
housing, case management services, job training and support, as well as 
independence skills training for 50 clients in our Independence Plus 
program, and for 6 young mothers and their babies in our Second 
Generations Program.
    We are lucky in Maryland that our State has made a financial 
commitment to these transition-aged foster care youth who are making 
efforts to better themselves in spite of their difficult histories, 
whether it be through continued higher education or work experience. As 
long as a continued effort is made, the foster care system supports 
these individuals up to the age of 21. I have personally witnessed many 
achievements by these young adults after leaving our program, 
maintaining successful careers and relationships, and some even having 
saved enough money to purchase a home. These are areas in which these 
same individuals would likely not have been successful if they had no 
support during these challenging years.
    The most important point I feel that I can make is that these young 
adults are much more similar than they are different from kids growing 
up with their biological families. I believe that most parents would 
agree that their 18-year-old kids are not completely ready for the 
``real'' world, and even if they are living on their own, are not truly 
independent from their parents until they are in their twenties. It is 
unrealistic to expect 18-year-old foster children, who have grown up 
with little or no family support, to be independent when the majority 
of middle class children rely to some degree on their families well 
into their twenties.
    The Foster Care System is the closest thing that many of these 
children have to an extended family, and it is the responsibility of 
the System to assist in the process of transitioning to adulthood, 
rather than cut off any assistance at the age of 18. By doing this, it 
would greatly reduce the risk of these foster kids being reliant on the 
System as an adult.
    Mr. Cardin should be commended for introducing legislation that 
takes such a proactive, prevention-minded approach to meeting a very 
important need within our society. I fully support this legislation and 
strongly urge that this legislation be passed.
    I would be happy to talk to or meet with any legislators or their 
staff who may be interested in seeing first hand, how an independent 
living program such as New Pathways can truly impact the lives of these 
young adults.

            Respectfully,
                                            Kevin M. Keegan
                                                 Executive Director
      

                                <F-dash>


Statement of Eileen McCaffrey, Executive Director, Orphan Foundation of 
America, Vienna, Virginia

    My name is Eileen McCaffrey, I have been the Executive 
Director of the Orphan Foundation of America (OFA) since 1991. 
OFA was founded in 1981 by a man who spent 18 years in foster 
care and knew too well the loneliness and challenges youth face 
when they ``age out'' of the foster care system at age 18 or 
with high school graduation.
    OFA's mission is to improve the quality of life for older 
foster youth by assisting them to become productive, self-
reliant adults. This is achieved through the provision of post 
secondary scholarships and low interest loans, teen leadership 
training, sponsoring youth community service projects, support 
and encouragement through volunteer mentors and scholarship 
sponsors, and advocacy and public education programs. OFA is 
the only national scholarship program serving foster and former 
foster youth attending college and vocational school.
    Since 1991, OFA has awarded nearly $700,000 to 1053 
students in 39 states. To date it has received no federal or 
state funds and is primarily a volunteer organization. Through 
our scholarship application process we have learned a great 
deal about the foster teens hopes, dreams and promise as well 
the obstacles they have overcome and the challenges they face 
transitioning to adulthood.
    OFA wholeheartedly supports increasing the Title IV-E 
budget to expand and improve Independent Living Programs (ILP) 
nationwide and services to runaway and homeless youth programs. 
However, we hope that rather than just appropriating money, a 
national dialogue can begin focusing on how communities will 
raise foster children and provide the necessary resources so 
they can become contributing members of the community.
    The bleak statistics show that too many foster teens fall 
through the cracks, nearly 50% do not graduate from high school 
and at some point, more than 40% will be homeless. Systemic 
change is necessary to help the 25,000 foster teens who reach 
the age of majority or emancipation annually. The goal of every 
single person involved in the foster youth's life should be to 
help him or her prepare for a productive and successful 
adulthood.
    Independent Living Programs must be seen as a continuum of 
care that works in tandem with the foster family or group care 
provider, social workers, a volunteer mentor or adult friend, 
and an employer or community service agency. All licensed 
Social Service Agencies and foster parents must be taught how 
to provide youth with age appropriate Independent Living 
preparation.
    Because ILP programs differ greatly in the scope of 
services provided as well as the population served it is not 
possible to generalize and dictate a precise format for 
success. Some programs offer comprehensive support services 
while other simply offer workshops. Keys For Life, the 
Washington, D.C. ILP program has a job bank that actually 
places youth in paid and unpaid positions, it pays for college 
tuition and related expenses including books, travel and fees. 
The ILP coordinator in Colorado logs hundreds of miles weekly 
visiting her youth in their rural homes. The specifics of what 
a program can and should provide varies greatly depending on 
their geographic location, amount of federal and state funds 
available, number of eligible youth participating and the 
specific needs of the population.
    Despite the differences in programs, I believe all ILP 
programs must be more individualized and participatory by 
engaging youth with mentors, local employers, civic, church and 
community resources. Well-designed and fully funded programs 
managed by trained staff are the least we should provide our 
parentless youth, but I do not think that is enough. In 
addition to helping teens learn specific and tangible skills 
associated with independence, ILP programs must position 
themselves to be a bridge between foster youth and the 
community.
    Foster teens need relationships with adults who represent 
life beyond the ``system.'' Similar to a child not listening to 
his or her parents, many foster teens reach an age where the 
more traditional format of a social service worker or agencies 
conducting a workshop has little impact. For too many youth ILP 
classes are abstract or too basic. ``The packet of worksheets 
they gave me was simple, and I already know how to wash my 
clothes and car, so I just didn't do it. I thought my homework 
was more important.'' said 20-year old Jenna from Pennsylvania. 
ILP programs must reach into the community for donations of 
time and expertise. Local bankers can teach money management 
classes, parents of college age students can help foster teens 
with the college application process, a local chef can talk 
about food preparation and culinary arts as a profession, and 
job fairs can be organized by a local civic or church 
organization. Real life experience must augment materials 
developed by ILP specialists and for-profit publishers.
    Additionally, ILP programs should access existing resources 
in the community and partner up with other non-profit 
organizations. Not only does this maximize resources and 
program effectiveness but it would also engage others in the 
lives of foster teens and give program participants numerous 
adult role models to emulate. Despite limited budgets, ILP 
programs can provide an innovative and dynamic program by 
involving volunteers and existing community resources.
    Consistently, youth say ILP programs should assess their 
participants' Independent Living (IL) readiness level in an 
effort to serve their needs rather than teach a curriculum 
carved in stone. Jason Fiorilla aged out of the Utah State 
foster care system in 1993, he received an undergraduate degree 
from Massachusetts Institute of Technology and will graduate 
from Stanford Law School in May 1999, he wrote ``In particular, 
my ILP counseling was nothing more than a basic living course 
which re-educated seemingly intelligent individuals on the 
rudimentary processes of daily life. Washing clothes, opening a 
bank account, shopping for groceries, and other essential, 
albeit obvious details were trumpeted as difficult barriers 
which could only be overcome through understanding and much 
repetition. Although these concerns are vital, they could all 
be covered in about 10 minutes, far shy of the 6-week course 
presented in my home state. What about standardized tests, AP 
courses, college financing, the admissions process? These 
topics were not even broached by my counselor. They had already 
determined that none of us were college bound anyway, and 
consequently ruled it out as a subject meriting attention. 
Indeed, nearly every class began and ended with the familiar 
phrase, `Graduating high school is all we ask.' ``
    Consistently, foster teens tell OFA the expectations placed 
on them are too low. Jason Fiorillo believes ``Although the 
individuals running the Utah State IL program seemed to be 
generally good intentioned, they lacked the ability to cognize 
and implement long term planning strategies with foster youth. 
Rather than focusing on graduation from high school as a step 
which facilitates the transition to adulthood, they presented 
it as an end in and of itself. In the myopic view of the ILP 
counselors, high school graduation was the final goal, the mark 
of success for a foster youth. While it is very true that High 
School graduation is very important, and often difficult for 
many youth (foster and otherwise) in helping an adolescent 
prepare for the future one should not cease planning upon the 
receipt of a diploma.''
    Stephanie McDonald a freshman at Univ. of Connecticut said 
``my ILP program took us to museums, plays and the movies but 
never talked to us about college or any other sort of 
training.'' OFA does not believe that college is the 
appropriate goal for every foster youth. Some wish to join the 
work world as soon a possible and need to be directed to jobs 
and companies with growth potential that pay a living wage with 
benefits. Other are interested in a trade program and could be 
encouraged to join the federally funded Job Corp Program to 
learn the trade at no cost, while others can attend a 
vocational school or community college. The whole of the foster 
care system must work with ILP programs to become much more 
outcome focused. All foster teens need help developing hard 
skills as well as soft social skills and each must be engaged 
in the process of clarifying goals and establishing a realistic 
life plan.
    Homelessness is a problem facing former foster teens. Many 
leave the system with no place to go and end up on the streets 
after months of bouncing from pillar to post. ILP programs 
should be given resources to prevent the cycle of homelessness 
that can begin within the first year of independence. Federal 
and state agencies such as HUD should issue Section-8 housing 
vouchers (or enrollment in an appropriate housing program) to 
ILP programs nationwide. The ILP program could then place youth 
in this housing as a transitional step for 1-2 years. Hundreds 
of youth could be cycled through these housing arrangements. 
This would allow youth to implement ILP skills such as 
budgeting, housekeeping, and keeping a job or completing a 
training program while in safe and affordable housing. By 
placing the voucher in the ILP program's name rather than 
granting it to individuals, public housing will remain a short-
term transitional step for 18-21 year old foster youth.
    Additional components of a good independent living program 
might include a community service project and internships or 
job shadowing with local businesses. Youth who volunteer have 
greater self-esteem and have a sense of empowerment; rather 
than being on the receiving end many foster teens want to give 
back to society. Internships would expand a youth's vision of 
the work world and might inspire them to set higher goals in a 
newly introduced career field. All efforts must cumulate with 
helping the teen paint a realistic picture of what their life 
can be, complete with milestones, options and consequences.
    Annually OFA receives hundreds of applications from foster 
teens nationwide who want an education or training beyond high 
school. Most realize that by preparing for the competitive work 
world of the twenty-first century they can to break the cycle 
of homelessness, underachievement, violence and poverty that 
made them wards of the state. Many of them can and do succeed 
while others fail for lack of a support system. Every foster 
youth should have access to resources that address their 
specific needs and highlight their talents. Like a parent, the 
foster care system and its many components must recognize the 
promise and potential of each youth and commit itself to 
helping them all achieve independence and a successful 
transition to adulthood.

                                   - 

</pre></body></html>
